NO. 19-1039
In the

Supreme Court of the United States
________________

PENNEAST PIPELINE COMPANY, LLC,
Petitioner,
v.
STATE OF NEW JERSEY, et al.,
Respondents.
________________
On Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
________________
JOINT APPENDIX
Volume II of II
________________
JEREMY M. FEIGENBAUM
PAUL D. CLEMENT
Counsel of Record
Counsel of Record
OFFICE OF THE NEW
KIRKLAND & ELLIS LLP
JERSEY ATTORNEY
1301 Pennsylvania Ave., NW
GENERAL
Washington, DC 20004
25 Market Street
(202) 389-5000
Trenton, NJ 08611
paul.clement@kirkland.com
(609) 376-2690
jeremy.feigenbaum@njoag.gov

Counsel for Respondents
State of New Jersey, et al.

Counsel for Petitioner

(Additional Counsel Listed on Inside Cover)
March 1, 2021
Petition for Writ of Certiorari Filed Feb. 18, 2020
Petition for Writ of Certiorari Granted Feb. 3, 2021

MATTHEW LITTLETON
Counsel of Record
DONAHUE, GOLDBERG,
WEAVER & LITTLETON
1008 Pennsylvania Avenue, SE
Washington, DC 20003
(202) 683-6895
matt@donahuegoldberg.com
JENNIFER L. DANIS
EDWARD LLOYD
MORNINGSIDE HEIGHTS
LEGAL SERVICES
435 W. 116th Street
New York, NY 10027
(201) 306-3382
jld2228@columbia.edu
elloyd@law.columbia.edu
Counsel for Respondent New Jersey
Conservation Foundation

JA i
TABLE OF CONTENTS
Volume I
Relevant Docket Entries, United States Court of
Appeals for the Third Circuit, In re: PennEast
Pipeline Co., LLC, No. 19-1191 ..................... JA-1
Relevant Docket Entries, United States
District Court for the District of New Jersey,
In re: PennEast Pipeline Co., LLC,
No. 3:18-cv-01597 ........................................ JA-26
Order Issuing Certificates, PennEast Pipeline Co.,
LLC, 162 FERC ¶ 61,053 (Jan. 19, 2018) ... JA-35
Order Granting Rehearings for Further
Consideration, PennEast Pipeline Co., LLC,
No. CP15-558-001 (Feb. 22, 2018) ............ JA-212
Order on Rehearing, PennEast Pipeline Co., LLC,
164 FERC ¶ 61,098 (Aug. 10, 2018) .......... JA-213
Volume II
Declaratory Order, PennEast Pipeline Co., LLC,
170 FERC ¶ 61,064 (Jan. 30, 2020) .......... JA-363
Order Denying Rehearing, PennEast Pipeline Co.,
LLC, 171 FERC ¶ 61,135 (May 22, 2020) . JA-460
The following opinions, decisions, judgments, and
orders have been omitted in printing this joint
appendix because they appear on the following page in
the appendix to the Petition for Certiorari:
Appendix A
Opinion, United States Court of Appeals for
the Third Circuit, In re: PennEast Pipeline
Company, LLC, Nos. 19-1191-19-1232
(Sept. 10, 2019) ...................................... Pet.App-1

JA ii
Appendix B
Order, United States Court of Appeals for the
Third Circuit, In re: PennEast Pipeline
Company, LLC, Nos. 19-1191-19-1232
(Nov. 5, 2019) ....................................... Pet.App-32
Appendix C
Opinion, United States District Court for the
District of New Jersey, In re: PennEast
Pipeline
Company,
LLC,
No. 18-1585
(Dec. 14, 2018) ..................................... Pet.App-34
Appendix D
Relevant Statutory Provisions .......... Pet.App-103
15 U.S.C. § 717 ............................ Pet.App-103
15 U.S.C. § 717a .......................... Pet.App-105
15 U.S.C. § 717b .......................... Pet.App-106
15 U.S.C. § 717b-1 ....................... Pet.App-111
15 U.S.C. § 717c .......................... Pet.App-114
15 U.S.C. § 717c-1 ....................... Pet.App-118
15 U.S.C. § 717d .......................... Pet.App-118
15 U.S.C. § 717e .......................... Pet.App-119
15 U.S.C. § 717f ........................... Pet.App-120
15 U.S.C. § 717g .......................... Pet.App-125
15 U.S.C. § 717h .......................... Pet.App-127
15 U.S.C. § 717i ........................... Pet.App-128
15 U.S.C. § 717j ........................... Pet.App-129
15 U.S.C. § 717k .......................... Pet.App-130
15 U.S.C. § 717l ........................... Pet.App-131
15 U.S.C. § 717m ......................... Pet.App-131

JA iii
15 U.S.C. § 717n .......................... Pet.App-135
15 U.S.C. § 717o .......................... Pet.App-138
15 U.S.C. § 717p .......................... Pet.App-138
15 U.S.C. § 717q .......................... Pet.App-140
15 U.S.C. § 717r .......................... Pet.App-141
15 U.S.C. § 717s .......................... Pet.App-145
15 U.S.C. § 717t .......................... Pet.App-147
15 U.S.C. § 717t-1 ....................... Pet.App-147
15 U.S.C. § 717t-2 ....................... Pet.App-148
15 U.S.C. § 717u .......................... Pet.App-151
15 U.S.C. § 717v .......................... Pet.App-151
15 U.S.C. § 717w ......................... Pet.App-152
15 U.S.C. § 717x .......................... Pet.App-152
15 U.S.C. § 717y .......................... Pet.App-153
15 U.S.C. § 717z .......................... Pet.App-162

JA 363
Declaratory Order, PennEast Pipeline Co., LLC,
170 FERC ¶ 61,064 (Jan. 30, 2020)
1. On October 4, 2019, PennEast Pipeline
Company, LLC (PennEast) filed a petition for a
declaratory order (Petition) following a decision from
the U.S. Court of Appeals for the Third Circuit (Third
Circuit) in In re PennEast Pipeline Company, LLC. 1
PennEast seeks the Commission’s interpretation of
the scope of the eminent domain authority in section
7(h) of the Natural Gas Act (NGA). 2 The Commission
grants the Petition in part, and denies it in part, as
discussed below.
I.

Background

2. PennEast is a Delaware limited liability company,
managed by UGI Energy Services, LLC, pursuant to a
Project Management Agreement. 3 On January 19,
2018, in Docket No. CP15-558-000, the Commission
issued a certificate of public convenience and necessity
for the PennEast Project, an approximately 116-mile
greenfield natural gas pipeline designed to provide
firm natural gas transportation service from receipt
points in the eastern Marcellus Shale region, in
Luzerne County, Pennsylvania, to delivery points in
1

938 F.3d 96 (3d Cir. 2019) (PennEast).

2

15 U.S.C. § 717f(h) (2018).

PennEast is a joint venture owned by Red Oak Enterprise
Holdings, Inc., a subsidiary of AGL Resources Inc. (20 percent
interest); NJR Pipeline Company, a subsidiary of New Jersey
Resources (20 percent interest); SJI Midstream, LLC, a
subsidiary of South Jersey Industries (20 percent interest); UGI
PennEast, LLC, a subsidiary of UGI Energy Services, LLC (20
percent interest); and Spectra Energy Partners, LP, a subsidiary
of Enbridge Inc. (20 percent interest). Petition at 3-4.

3

JA 364
New Jersey and Pennsylvania, terminating at an
interconnection with Transcontinental Gas Pipe Line
Company, LLC in Mercer County, New Jersey. 4 The
project’s total certificated capacity of 1,107,000
dekatherms per day 5 is approximately 90 percent
subscribed pursuant to long-term agreements for firm
transportation service and will provide service to
markets in New Jersey, New York, Pennsylvania, and
surrounding states. 6 Upon commencement of
activities authorized in the Certificate Order,
PennEast will become subject to the Commission’s

PennEast Pipeline Co., LLC, 162 FERC ¶ 61,053, at P 1
(Certificate Order), order on reh’g, 164 FERC ¶ 61,098 (2018)
(Certificate Rehearing Order), petitions for review pending sub
nom. Del. Riverkeeper Network v. FERC, D.C. Cir. Nos. 18-1128,
et al. (first petition filed May 9, 2018) (argument held in abeyance
October 1, 2019, “pending final disposition of any postdispositional proceedings in the Third Circuit or proceedings
before the United States Supreme Court resulting from the Third
Circuit’s decision”).
4

Id. A dekatherm is approximately equal to 1000 cubic feet of
natural gas. To put this number in perspective, the Energy
Information Administration records that New Jersey consumed
44,410 million cubic feet of natural gas in January 2019, its peak
demand month last winter. See https://www.eia.gov
/opendata/qb.php?sdid=NG.N3010NJ2.M. On average, that
would be 1,432,580 dekatherms per day. Thus, the PennEast
project here could serve 77 percent of New Jersey’s last peak
winter demand.
5

Certificate Order, 162 FERC ¶ 61,053 at PP 4, 6. The twelve
shippers that have subscribed capacity on the PennEast Project
will use the gas for a variety of purposes, including but not
limited to, local distribution service for end-use consumers and
electric generation; the additional capacity will also support
supply diversity and reliability. Id. PP 4, 28.
6

JA 365
jurisdiction as a natural gas company under NGA
section 2(6). 7
3. PennEast states that, following issuance of the
certificate, it was unable to reach agreement with the
State of New Jersey to acquire easements for the
portions of its proposed pipeline route that would cross
land in which New Jersey holds a property interest. 8
Consequently, PennEast instituted condemnation
proceedings in the United States District Court for the
District of New Jersey (District Court) in order to
obtain these and other necessary easements. 9 The
State of New Jersey and its agencies (collectively,
“State” or “New Jersey”) claimed property interests in
forty-two parcels of land that PennEast sought access
to via condemnation: two parcels in which New Jersey
holds fee simple ownership interests, and forty parcels
in which New Jersey claims non-possessory property
interests, including conservation easements and
restrictive covenants mandating under state law a
particular land use. 10
4. New Jersey moved to dismiss the condemnation
actions for lack of jurisdiction, asserting that the
Eleventh Amendment grants New Jersey sovereign
immunity from suit by private parties such as
PennEast in federal court. 11 The District Court
7

15 U.S.C. § 717a(6).

8

Petition at 5-6.

9

Id. at 6.

10

Id.

11 Id. The Eleventh Amendment states: “The Judicial power of
the United States shall not be construed to extend to any suit in
law or equity, commenced or prosecuted against one of the United

JA 366
granted PennEast’s application for orders of
condemnation, and rejected New Jersey’s sovereign
immunity argument. 12 Responding to New Jersey’s
assertion that “their arguments would [have been]
different if the United States government were
pursuing eminent domain rights[,]” the District Court
found that PennEast “has been vested with the federal
government’s eminent domain powers and stands in
the shoes of the sovereign.” 13 The District Court
further reasoned that “the NGA expressly allows”
certificate holders to utilize eminent domain in
District Court, and as “PennEast holds a valid
certificate . . . issued by the FERC[,]” New Jersey’s
Eleventh Amendment arguments failed. 14
5. New Jersey then appealed to the United States
Court of Appeals for the Third Circuit, which held that
the NGA does not abrogate New Jersey’s sovereign
immunity and vacated the District Court’s order. 15
The Third Circuit found that while the NGA delegates
eminent domain authority to certificate holders, the
text of “the NGA does not constitute a delegation to
private parties of the federal government’s exemption
from Eleventh Amendment immunity.” 16 In the
States by Citizens of another State, or by Citizens or Subjects of
any Foreign State.” U.S. Const. amend. XI.
In re PennEast Pipeline Co., LLC, No. 18-1585, 2018 WL
6584893, at *12, 25 (D.N.J. Dec. 14, 2018).

12

13

Id. at *12.

14

Id.

15 In re PennEast, 938 F.3d at 99, 111-13 (3d Cir. 2019) (In re
PennEast), reh’g en banc denied (Nov. 5, 2019).
16

Id. at 112-13; accord id. at 99-100; see id. at 111-12.

JA 367
court’s view, “there are powerful reasons to doubt the
delegability of the federal government’s exemption
from Eleventh Amendment immunity,” 17 particularly
when that delegation occurs through a statute enacted
pursuant to the Commerce Clause. 18 However, the
court consciously avoided that constitutional
question 19 by holding that the text of the NGA failed
to provide an “unmistakably clear” delegation of the
federal government’s exemption from Eleventh
Amendment immunity. 20 Ultimately, the Third
Circuit declined to “assume that Congress intended—
by its silence—to upend a fundamental aspect of our
constitutional design.” 21
Id. at 105; accord id. at 111; see id. at 100; id. at 107-11
(reviewing precedent).
17

Id. at 105, 108 & nn.13, 15 (citing Seminole Tribe of Fla. v.
Florida, 517 U.S. 44, 59, 72-73 (1996) (Seminole Tribe of Fla.));
see also id. at 108 & n.13 (explaining that Seminole Tribe
abrogated Pennsylvania v. Union Gas Co., 491 U.S. 1 (1989)
(Union Gas Co.)).

18

See id. at 111 (quoting Doe v. Pa. Bd. of Prob. & Parole, 513
F.3d 95, 102 (3d Cir. 2008) (“As a first inquiry, we must avoid
deciding a constitutional question if the case may be disposed of
on some other basis.”)); id. at 111-12 (quoting Guerrero-Sanchez
v. Warden York Cty. Prison, 905 F.3d 208, 223 (3d Cir. 2018)
(describing the “cardinal principle of statutory interpretation
that when an Act of Congress raises a serious doubt as to its
constitutionality, courts will first ascertain whether a
construction of the statute is fairly possible by which the question
may be avoided”) (citation and alterations omitted)).
19

Id. at 107 (quoting Dellmuth v. Muth, 491 U.S. 223, 228 (1989)
(quoting Atascadero State Hosp. v. Scanlon, 473 U.S. 234, 242
(1985))); see id. at 107-08 & n.12 (discussing Dellmuth and
Atascadero).
20

21

Id. at 112.

JA 368
6. On October 4, 2019, PennEast petitioned the
Commission to issue a declaratory order providing the
Commission’s interpretation of three questions under
NGA section 7(h). Specifically, PennEast requests a
declaratory order that addresses the following:
1) Whether a certificate holder’s right to
condemn land pursuant to NGA section 7(h)
applies to property in which a state holds an
interest;
2) Whether NGA section 7(h) delegates the
federal government’s eminent domain authority
solely to certificate holders; and
3) Whether NGA section 7(h) delegates to
certificate holders the federal government’s
exemption from claims of state sovereign
immunity. 22
II. Public Notice, Interventions, Protests and
Comments
7. Notice of the Petition was published in the
Federal Register on October 10, 2019. 23 The notice
established October 18, 2019, as the deadline for filing
comments and interventions. 24 Timely, unopposed
motions to intervene were filed by the entities listed
in Appendix A. These motions to intervene are granted
automatically by operation of Rule 214 of the
Commission’s Rules of Practice and Procedure. 25
During the comment period, the New Jersey
22

See Petition at 2.

23

84 Fed. Reg. 54,600.

24

Id.

25

18 C.F.R. § 385.214(c)(1) (2019).

JA 369
Conservation Foundation and Niskanen Center
(collectively, Niskanen), Maya K. van Rossum and the
Delaware
Riverkeeper
Network
(collectively,
Riverkeeper), 26 the Township of Hopewell, U.S.
Senator Cory A. Booker, the Environmental Defense
Fund, the New Jersey Division of Rate Counsel, and
the State of New Jersey 27 filed protests of the Petition,
and numerous commenters, including landowners,
filed comments in opposition to the Petition. After the
comment deadline, U.S. Representatives from New
Jersey filed a letter in opposition to the Petition. 28
Several protestors assert that it is inappropriate for
the Commission to grant the instant Petition when the
Third Circuit has already spoken on the matter and
argue that submitting a brief as amicus curiae would
be a more proper avenue for the Commission to
express its opinion. 29 Protestors also agree with the
Third Circuit’s decision that the NGA does not provide
delegated authority for a pipeline to condemn lands in
which a state has a property interest. 30
The protests are substantially identical; hereinafter, we cite
only the Delaware Riverkeeper Network protest.
26

The State of New Jersey includes the New Jersey Department
of Environmental Protection, the New Jersey Board of Public
Utilities, and the Delaware and Raritan Canal Commission.
27

Letter from, Tom Malinowski and Bonnie Watson Coleman,
U.S. Representatives (Oct. 29, 2019).
28

See New Jersey Protest at 14; New Jersey Division of Rate
Counsel (Rate Counsel) Protest at 5; Riverkeeper Protest at 2, 5;
see also Niskanen First Protest at 5-6, 8-9 (omitting suggestion
that the Commission file an amicus brief); Senator Cory A.
Booker Protest at 1 (same).
29

30 See New Jersey Protest at 2-3, 6-7, 14; Riverkeeper Protest at
9-10; Township of Hopewell, Mercer County, New Jersey Protest

JA 370
8. Numerous parties, including natural gas
transporters, local distribution companies, and
associations within the natural gas industry,
commented in support of the Petition. Several parties
state that the text and legislative history of NGA
section 7(h) demonstrates that Congress specifically
intended to delegate federal eminent domain
authority to certificate holders against all owners of
property needed for a project with whom a certificate
holder cannot reach agreement, including states, and
that this eminent domain authority has been an
essential part of a comprehensive regulatory scheme
since the statute was amended to include that
authority in 1947. 31 Commenters note that certificates
of public convenience and necessity may only be
obtained through a quasi-judicial adjudicatory process
administered by Commissioners appointed by the
President and confirmed by the Senate and that this
adjudicatory process is replete with robust
opportunities for public participation. 32 Commenters
further contend that the Commission grants
certificate holders only a limited authority to condemn
specific rights of way with little ability to alter the
route without further Commission approval, a process
heavily regulated by federal oversight and
at 1; Township of Kingwood Motion to Intervene at 1; Township
of Holland Comments at 1.
See Interstate Natural Gas Association of America (INGAA)
Comments at 4-6; Transcontinental Gas Pipe Line Company,
LLC Comments at 4; TC Energy Corporation Comments at 1518; American Gas Association (AGA) Comments at 11; American
Public Gas Association (APGA) Comments at 3-6.
31

INGAA Comments at 6-9; TC Energy Corp. Comments at 5, 1214.

32

JA 371
enforcement. 33 Finally, commenters assert the Third
Circuit’s decision will have significant adverse
consequences on end-use consumers, local distribution
companies, and the natural gas industry as a whole. 34
Commenters support the Petition because they agree
that a decision of this magnitude should not be made
without input from the regulatory agency charged
with administration of the statute. 35
9. On October 11, 2019, the New Jersey
Conservation Foundation and Niskanen Center
jointly filed a motion to extend the deadline for
comments until November 1, 2019. The Commission’s
Secretary denied the motion for extension of time by
notice issued on October 16, 2019. Niskanen criticized
the length of the comment period. 36 However, “[t]he
Commission, like other agencies, is generally master
of its own calendar and procedures.” 37 The
INGAA Comments at 8-9; TC Energy Corp. Comments at 1416.
33

See New Jersey Natural Gas Company Comments at 3-6;
INGAA Comments at 10-13; TC Energy Corp. Comments at 1820; AGA Comments at 9-13.

34

See AGA Comments at 7-9, 12; TC Energy Corp. Comments at
2, 5-7; APGA Comments at 5-7.
35

Niskanen Request for Extension at 2-3; Niskanen First Protest
at 3-4; Niskanen Second Protest at 1-2.
36

Stowers Oil and Gas Co., 27 FERC ¶ 61,001, at 61,001 (1984);
see id. at 61,002 n.3 (collecting precedent); see, e.g., Vt. Yankee
Nuclear Power Corp. v. Nat. Res. Def. Council, Inc., 435 U.S. 519,
524 (1978) (“[T]his Court has for more than four decades
emphasized that the formulation of procedures was basically to
be left within the discretion of the agencies to which Congress
had confided the responsibility for substantive judgments.”); Fed.
Power Comm’n v. Transcon. Gas Pipe Line Corp., 423 U.S. 326,
333 (1976) (“[A] reviewing court may not . . . dictat[e] to the
37

JA 372
Commission’s discretion to issue declaratory orders
includes the discretion to expedite requests and deny
extensions as “time, the nature of the proceeding, and
the public interest” dictate. 38 We reject Niskanen’s
argument that the initial comment period was too
short in these circumstances. The length of the initial
comment period was driven by PennEast’s request for
expedited action in light of then-applicable deadlines
for appellate litigation in the Third Circuit;
furthermore, the comment period was also plainly
sufficient to allow interested parties—including
Niskanen—to submit robust comments, all of which
have been thoroughly considered by the Commission
agency the methods, procedures, and time dimension of the
needed inquiry . . . .”); Richmond Power & Light v. FERC, 574
F.2d 610, 624 (D.C. Cir. 1978) (“Agencies have wide leeway in
controlling their calendars . . . .”) (citing City of San Antonio v.
CAB, 374 F.2d 326, 329 (D.C. Cir. 1967)); Superior Oil Co. v.
FERC, 563 F.2d 191, 201 (5th Cir. 1977) (deferring to an agency’s
choice of procedures and allocation of resources because “[t]he
Commission should ‘realistically tailor the proceedings to fit the
issues before it’”) (quoting Mobil Oil Corp. v. Fed. Power Comm’n,
483 F.2d 1238, 1252 (D.C. Cir. 1973) (quotation marks omitted));
Bell Tel. Co. v. FCC, 503 F.2d 1250, 1266 (3d Cir. 1974) (“[T]he
ultimate choice of procedure . . . is left to the discretion of the
agency involved, and will be reversed only for an abuse of
discretion.”); see also Public Administrative Law and Procedure,
73A C.J.S. Public Administrative Law & Procedure § 543 (2019)
(“The ultimate choice of procedure by an agency in making its
orders is not ordinarily subject to judicial revision.”).
5 U.S.C. § 554(c)(1) (2018). Niskanen’s contrary argument rests
on a case involving a rulemaking proceeding under 5 U.S.C. § 553
(2018). See Niskanen Second Protest at 4 (citing Ober v. EPA, 84
F.3d 304, 314 (9th Cir. 1996)). That reliance was misplaced.
Compare 5 U.S.C. § 553(b)-(c) (rulemaking), with id. § 554
(adjudications).
38

JA 373
in the development of this order. Further, we
considered late comments as they were not so late as
to delay the proceeding or prejudice any party.
10. On October 28, 2019, PennEast filed a motion for
leave to answer and answer to the protests and
comments. Although the Commission’s Rules of
Practice and Procedure do not permit answers to
protests, 39 our rules also provide that we may waive
this provision for good cause. 40 On October 30, 2019,
Niskanen filed a protest to PennEast’s October 28,
2019 answer, urging the Commission to deny
PennEast’s motion to answer. 41 However, we will
accept PennEast’s Answer here because it has
provided information that has assisted us in our
decisionmaking. 42
III. Discussion
A. The Commission’s Authority to Act on
the Petition
11. We start with our jurisdiction to act on this
petition: protesters claim we have none; we disagree.
12. New Jersey contends 43 that issuing an order in
this case would contradict our prior statement in the
underlying proceedings that “[i]ssues related to the
39

18 C.F.R. § 385.213(a)(2) (2019).

40

See 18 C.F.R. § 385.101(e).

41

See Niskanen Second Protest at 4.

Niskanen objects to PennEast filing an answer after the initial
comment deadline, but this is not unusual. See, e.g., Gulf
Crossing Pipeline Co. LLC, 169 FERC ¶ 61,169, at P 10 (2019);
Transcon. Gas Pipe Line Co., LLC, 169 FERC ¶ 61,051, at P 11
(2019).
42

43

New Jersey Protest at 15-18.

JA 374
acquisition of property rights by a pipeline under the
eminent domain provisions of section 7(h) of the NGA
are matters for the applicable state or federal court.” 44
However, New Jersey omits the context of that
statement in the Certificate Rehearing Order. That
order rejected New Jersey’s request that we limit the
land on which PennEast may exercise eminent
domain because “[t]he Commission does not have the
authority to limit a pipeline company’s use of eminent
domain once the company has received its certificate
of public convenience and necessity.” 45 Courts have
consistently affirmed that position. 46
13. Contrary to New Jersey’s overbroad reading of the
word “related,” the Certificate Rehearing Order did
E.g., id. at 5, 16, 20 (quoting Certificate Rehearing Order, 164
FERC ¶ 61,098 at P 33); accord id. at 17, 19 (eliding portions of
same).
44

Certificate Rehearing Order, 164 FERC ¶ 61,098 at P 33
(emphasis added).

45

See, e.g., Twp. of Bordentown, N.J. v. FERC, 903 F.3d 234, 265
(3d Cir. 2018) (stating that the NGA section 7(h) “contains no
condition precedent” to right of eminent domain other than
issuance of the certificate when a certificate holder is unable to
acquire a right-of-way by contract); Berkley v. Mountain Valley
Pipeline, LLC, 896 F.3d 624, 628 (4th Cir. 2018) (“Issuing such a
Certificate conveys and automatically transfers the power of
eminent domain to the Certificate holder. . . . Thus FERC does
not have discretion to withhold eminent domain once it grants a
Certificate.”
(citation
omitted));
Midcoast
Interstate
Transmission, Inc. v. FERC, 198 F.3d 960, 973 (D.C. Cir. 2000)
(“Once a certificate has been granted, the statute allows the
certificate holder to obtain needed private property by eminent
domain. . . . The Commission does not have the discretion to deny
a certificate holder the power of eminent domain.” (citation
omitted)).
46

JA 375
not disclaim Commission jurisdiction over all “issues
related to the acquisition of property rights by a
pipeline,” because every certificate order must
necessarily consider and decide such issues in
connection with approving the route in the first place.
Importantly, the issue before the Commission here
relates to an interpretation of NGA section 7(h), which
the Commission has been given authority to apply and
interpret. As the Commission has more fully explained
in other certificate orders, the issues appropriately
addressed in judicial eminent domain proceedings are
those related to “the timing of acquisition or just
compensation.” 47 Nothing in this order contradicts any
E.g., Atl. Coast Pipeline, LLC, 164 FERC ¶ 61,100, at P 88
(2018) (“Nonetheless, the Commission does not oversee the
acquisition of necessary property rights. Issues related to the
acquisition of property rights by a pipeline under the eminent
domain provisions of NGA section 7(h), including issues
regarding the timing of acquisition and just compensation are
matters for the applicable state or federal court.” (emphasis
added)); Mountain Valley Pipeline, LLC, 163 FERC ¶ 61,197, at
P 76 (2018) (same). Some orders have followed the formula used
in the Certificate Rehearing Order and have not specified the
relevant eminent domain issues. See, e.g., Nexus Gas
Transmission, LLC, 162 FERC ¶ 61,011, at P 6 (2018); Transcon.
Gas Pipe Line Co., LLC, 161 FERC ¶ 61,250, at P 35 (2017), cited
in Certificate Rehearing Order, 164 FERC ¶ 61,098 at P 33 n.82.
Other orders have specified the applicable issue. Compare
Millennium Pipeline Co., L.L.C., 158 FERC ¶ 61,086, at P 6
(2017) (“Issues related to the acquisition of property rights by a
pipeline under the eminent domain provisions of section 7(h) of
the Natural Gas Act, including issues regarding compensation,
are matters for the applicable state or federal court.” (emphasis
added)), Nw. Pipeline, LLC, 156 FERC ¶ 61,086, at P 12 (2016)
(same), and Fla. Se. Connection, LLC, 154 FERC ¶ 61,264, at P
10 (2016) (same); with Rover Pipeline LLC, 158 FERC ¶ 61,109,
at P 68 (2017) (“Issues related to the acquisition of property
47

JA 376
of our findings in the orders that are currently pending
review in the D.C. Circuit.
14. Some parties oppose the issuance of a declaratory
order on separation of powers grounds. 48 Riverkeeper
emphasizes that it is the role of the judiciary, not the
Commission, to decide sovereign immunity issues and
to interpret the law. 49 Senator Booker similarly states
that it is the role of Congress and the courts, not the
Commission, to consider constitutional issues, and
that Congress is the appropriate body to resolve any
pipeline siting obstacles or implications stemming
from the Third Circuit’s decision. 50 Senator Booker
argues that the Commission should not weigh in on
sovereign immunity because Congress did not provide
the Commission with that authority. 51 The Watershed
Institute 52 submits that the Petition serves as “an
improper attempt to circumvent” the Third Circuit. 53
New Jersey and Riverkeeper state that a declaratory
order would not assist any court and not be entitled
rights by a pipeline under the eminent domain provisions of
section 7(h) of the NGA, including issues regarding the timing of
acquisition, are matters for the applicable state or federal court.”
(emphasis added)).
See, e.g., Senator Cory A. Booker’s Protest at 1; Niskanen First
Protest at 5; Riverkeeper Protest at 2-4.

48

49

Riverkeeper Protest at 3-4.

Senator Cory A. Booker Protest at 1-2; see also Letter from Tom
Malinowski and Bonnie Watson Coleman, U.S. Representatives
(Oct. 29, 2019).
50

51

Id.

Stony Brook Millstone Watershed Association refers to itself as
Watershed Institute.

52

53

Watershed Institute Motion to Intervene at 2.

JA 377
deference. 54 Niskanen and New Jersey claim that the
Commission has previously stated that it does not
have jurisdiction or expertise to resolve constitutional
challenges pertaining to the NGA eminent domain
provision. 55 Fund argue that interpretation of the
Eleventh Amendment does not fall within the ambit of
the Commission’s expertise. 56 New Jersey also
contends that the Commission deserves no deference
“when its interpretation runs headlong into the canon
of constitutional avoidance.” 57 However, consistent
with the Mountain Valley and Atlantic Coast
certificate orders New Jersey cited 58 and as discussed
below, we decline to address the constitutional issues
raised in the Petition.
15. We emphasize that this declaratory order sets
forth the Commission’s interpretation of the NGA, and
thereby does not implicate any separation of powers
concerns. It is well within our authority to interpret
the NGA and our own regulations, particularly when
we issue our interpretation in the form of a declaratory

54

Riverkeeper Protest at 2, 4; New Jersey Protest at 22.

New Jersey Protest at 20 (citing Mountain Valley Pipeline,
LLC, 161 FERC ¶ 61,043, at P 63 (2017) (“[O]nly the courts can
determine whether Congress’[s] action in passing section 7(h) of
the NGA conflicts with the Constitution.”); Atl. Coast Pipeline,
LLC, 161 FERC ¶ 61,042, at P 81 (2017) (same));Niskanen First
Protest at 9.
55

Environmental Defense Fund Protest at 3; Riverkeeper Protest
at 9.

56

57

New Jersey Protest at 22.

58

See supra note 55.

JA 378
order. 59 Moreover, our interpretation of NGA section
7(h) merits deference. 60 The Third Circuit’s ruling
does not diminish the Commission’s authority to
speak on a statute that we administer. 61 Because the
Third Circuit did not “hold[] that its construction
follows from the unambiguous terms of the statute,”
its construction of the NGA does not foreclose a
subsequent or different Commission interpretation of
See Obtaining Guidance on Regulatory Requirements, 123
FERC ¶ 61,157, at P 19 (2008) (“The declaratory order process
can be very useful to persons seeking reliable, definitive guidance
from the Commission. . . . As with other formal Commission
actions, a declaratory order represents a binding statement of
policy that provides direction to the public and our staff regarding
the statutes we administer and the implementation and
enforcement of our orders, rules and regulations. A declaratory
order is therefore the most reliable form of guidance available
from the Commission.”) (discussion of supporting precedent
omitted).
59

See Chevron, U.S.A., Inc. v. Nat. Res. Def. Council, Inc., 467
U.S. 837, 843 (1984) (holding that “if the statute is silent or
ambiguous with respect to the specific issue, the question for the
court is whether the agency’s answer is based on a permissible
construction of the statute”).
60

The gravamen of the Third Circuit’s decision is that NGA
section 7(h) is either silent or lacks the requisite specificity to
support a delegation of the federal government’s exemption from
assertions of state sovereign immunity under the Eleventh
Amendment. See PennEast, 938 F.3d at 112 (“[W]e will not
assume that Congress intended—by its silence—to upend a
fundamental aspect of our constitutional design.”); see id.
(“[N]othing in the text of the statute even ‘remotely impl[ies]
delegation[.]’”) (quoting Blatchford v. Native Vill. of Noatak, 501
U.S. 775, 786 (1991)); id. at 111 (“[N]othing in the NGA indicates
that Congress intended to do so.”); id. at 100 (“[N]othing in the
text of the NGA suggests that Congress intended to do so.”).
61

JA 379
that statute. 62 Nor does that court’s construction bind
other courts of appeals. 63
16. New Jersey, Division of Rate Counsel (Rate
Counsel), Niskanen, and Senator Booker assert that it
would violate Commission regulations for the
Commission to order declaratory relief. 64 Again, we
disagree. As those parties note, the relevant
regulation specifies that a person must file a petition
when seeking “[a] declaratory order or rule to
terminate a controversy or remove uncertainty.” 65 The
Commission’s regulation does not define what sort of
uncertainty may be appropriate to justify a petition for
declaratory relief, and the New Jersey parties offer no
precedent on this score either. In our view, as we will
describe more fully below, the Third Circuit’s opinion
creates sufficient uncertainty as to the proper role of
the Commission in condemnation proceedings such
Nat’l Cable & Telecomms. Ass’n v. Brand X Internet Servs., 545
U.S. 967, 982 (2005) (Brand X) (finding that an appellate court’s
prior interpretation of an ambiguous statutory provision did not
preclude a federal agency from adopting a contrary reasonable
interpretation in subsequent proceedings); cf. also United States
v. Mendoza, 464 U.S. 154, 158 (1984) (Mendoza) (finding the
doctrine of nonmutual offensive collateral estoppel inapplicable
against non-private litigants).

62

See, e.g., Tatis v. Allied Interstate, LLC, 882 F.3d 422, 429 (3d
Cir. 2018); Schnitzer v. Harvey, 389 F.3d 200, 203 (D.C. Cir. 2004)
(citing Kreuzer v. Am. Acad. of Periodontology, 735 F.2d 1479,
1490 n.17 (D.C. Cir. 1984)); Humphreys v. DEA, 105 F.3d 112,
117 (3d Cir. 1996); Indep. Petroleum Ass’n of Am. v. Babbitt, 92
F.3d 1248, 1257-58 (D.C. Cir. 1996).
63

64 Senator Cory A. Booker Protest at 1; New Jersey Protest at 2;
Rate Counsel Protest at 4; Niskanen First Protest at 7-9.
65

18 C.F.R. § 385.207(a)(2) (2019).

JA 380
that it is appropriate for us to address these issues in
this order. 66 That the New Jersey parties agree with
the Third Circuit and perceive no uncertainty, of
course, does not prevent the Commission from
considering petitions submitted under its regulations.
17. Niskanen and New Jersey argue that a
declaratory order in this instance would be
unprecedented and that “PennEast can point to no
Commission Declaratory Orders that wade into
already-adjudicated
constitutional
waters.” 67
Riverkeeper states that the Commission has
previously declined to issue a declaratory order that
would result in a “generic finding,” and that a
declaratory order granting a petition should be based
on specific facts and circumstances. 68 Contrary to
See 5 U.S.C. § 554(e) (“The agency, with like effect as in the
case of other orders, and in its sound discretion, may issue a
declaratory order to terminate a controversy or remove
uncertainty.”); 18 C.F.R. § 385.207(a)(2) (providing for a party to
petition for “[a] declaratory order or rule to terminate a
controversy or remove uncertainty”). In any event, the
Commission’s regulations also provide for a party to petition for
“[a]ny other action which is in the discretion of the Commission
and for which this chapter prescribes no other form of pleading.”
18 C.F.R. § 385.207(a)(5).
66

67

Niskanen First Protest at 8; see New Jersey Protest at 19-20.

Riverkeeper Protest at 6 (citing ITC Grid Dev., LLC, 154 FERC
¶ 61,206, at P 45 (2016)). The Commission’s finding that a
declaratory order was not appropriate to deal with the specific
requests in ITC’s petition is limited to that particular case. See
ITC Grid Dev., LLC, 154 FERC ¶ 61,206 at P 48. We note that
the cited order also states that the Commission’s determinations
in its declaratory orders are “generally legal in nature” and may
“cover a broad range of issues, including jurisdictional issues and
the applicability to specific parties of specific rights and duties
arising under the statutes that the Commission administers.” Id.
68

JA 381
protesters’ assertions, the Commission remains
consistent in its use of declaratory orders to provide
authoritative guidance to regulated entities on
important questions of interpretation regarding
statues, regulations, tariffs, or precedent. 69 Though it
is uncommon, the Commission has acted on petitions
for declaratory order filed in response to adverse
judicial determinations. 70 In our view, this order is
P 42 (emphasis added) (citations omitted). Nothing in our
regulations prevents the issuance of a declaratory order to
address the rights and duties of certificate holders under the
NGA.
See, e.g., Placer Cty. Water Agency, 167 FERC ¶ 61,056, at PP
15, 17-18, order denying reh’g, 169 FERC ¶ 61,046 (2019)
(clarifying the application of a D.C. Circuit decision regarding
waiver of section 401 water quality certification under the Clean
Water Act to related cases); Nat. Gas Pipeline Co. of Am., 56
FERC ¶ 61,250, at 61,939- 40 (1991) (clarifying the extension of
jurisdiction to account for state court monetary judgments under
its interpretation of D.C. Circuit precedent).
69

See Williams Nat. Gas Co. v. City of Okla. City, 890 F.2d 255,
263 (10th Cir. 1989) (Williams Nat. Gas Co.) (upholding FERC’s
denial of a rehearing request that “completely disapproved of the
conflicting state opinion”) (citing Williams Nat. Gas Co., 47 FERC
¶ 61,308, at 62,103 n.5 (1989)); S. Union Co. v. FERC, 857 F.2d
812, 817-18 (D.C. Cir. 1988) (vacating the Commission’s denial of
a petition for a declaratory order on the merits in response to
adverse state court judgments, because the Commission
erroneously determined the matter was not controlled by
relevant precedent); NextEra Energy, Inc., 166 FERC ¶ 61,049,
at PP 23, 27 (2019) (acknowledging contrary court authority in
the issuance of a declaratory order); Constitution Pipeline Co.,
LLC, 162 FERC ¶ 61,014 at P 5 (acting on a petition for a
declaratory order filed after a circuit court found that it lacked
jurisdiction), order on reh’g, 164 FERC ¶ 61,029 (2018); PJM
Interconnection, L.L.C., 139 FERC ¶ 61,183, at PP 3, 27 (2012)
(declaring, contrary to a state court order denying summary
70

JA 382
warranted because it will remove uncertainty about
the Commission’s interpretation of the NGA.
18. New Jersey and Rate Counsel argue that the
Commission should have intervened in the Third
Circuit appeal or sought leave to file an amicus curiae
brief, instead of issuing a declaratory order. 71
Homeowners Against Land Taking—PennEast, Inc.
(HALT) and the State of New Jersey contend that the
Commission has no authority to re-interpret judicial
decisions, and that the Commission can file an amicus
brief with either the Third Circuit or the United States
Supreme Court, if PennEast petitions for a writ of
certiorari. 72 New Jersey and Niskanen similarly
assert that the Commission has implicitly conceded
jurisdiction by consistently declining to participate,
either by filing an intervention or filing as amicus
curiae, in other cases where this issue was raised. 73
19. Despite
protesters’
contention
that
the
Commission has somehow waived the ability to speak
on these issues by not intervening in other
proceedings, the Third Circuit never sought the
Commission’s opinion in this matter. Moreover, it
would be impractical for the Commission to intervene
in every federal court proceeding involving an
interstate pipeline company, particularly those where
the validity of a Commission-issued certificate is not

judgement in a tort action, that negligence claims are limited
against Regional Transmission Organizations).
71

New Jersey Protest at 14; Rate Counsel Protest at 8-9.

72

HALT Motion to Intervene at 1; New Jersey Protest at 14, 21.

73

Niskanen First Protest at 9-10; New Jersey Protest at 2.

JA 383
in question. 74 We also disagree that the optimal way
for the Commission to express its interpretation of the
statutes and regulations it superintends is through ad
hoc litigation pleadings filed by Commission staff
rather than through an order issued by the
Commission itself. Protesters themselves concede that
“agency ‘litigating positions’ raised for the first time
on judicial review” are entitled to no deference. 75 As
PennEast acknowledges, the Commission “has not
had frequent occasion” to speak to many of the issues
present in the Petition, 76 namely, the operation of
section 7(h) and Congress’s intent in amending the
NGA to include it. Therefore, any brief filed by
Commission staff as amicus curiae would not have
benefitted from the Commission’s articulation of a
With a few exceptions, the Commission has traditionally
refrained from exercising its independent litigation authority to
intervene in appellate proceedings in the absence of an invitation
to do so. For example, the Commission previously accepted the
Third Circuit’s invitation to participate as an amicus in PPL
Energyplus, LLC v. Solomon, 766 F.3d 241 (3d Cir. 2014), but did
not participate in the Fourth Circuit’s parallel consideration of a
closely-related preemption question in PPL EnergyPlus, LLC v.
Nazarian, 753 F.3d 467 (4th Cir. 2014), aff’d sub nom. Hughes v.
Talen Energy Mktg., LLC, 136 S. Ct. 1288 (2016) (Hughes).
Similarly, the Commission participated as an amicus by
invitation in Electric Power Supply Ass’n v. Star, 904 F.3d 518,
522 (7th Cir.), reh’g denied (Oct. 9, 2018), cert. denied, 139 S.Ct.
1547 (2019), but did not participate in the consideration of a
closely-related preemption question in Coalition for Competitive
Electricity v. Zibelman, 906 F.3d 41 (2d Cir. 2018), cert. denied
sub nom. Elec. Power Supply Ass’n v. Rhodes, 139 S.Ct. 1547
(2019).
74

Riverkeeper Protest at 4 (citing Vill. of Barrington, Ill. v.
Surface Transp. Bd., 636 F.3d 650, 660 (2011)).

75

76

Petition at 24.

JA 384
formal interpretation of NGA section 7(h) and the
critical role that provision has in the Commission’s
successful
administration
of
the
NGA’s
“comprehensive scheme of federal regulation of all
wholesales of natural gas in interstate commerce.” 77
20. We disagree with protesters’ argument that issue
preclusion and claim preclusion doctrines barred
PennEast from seeking a declaratory order, or bar us
from acting on the Petition. 78 Courts have long
understood that preclusion principles are applied
differently
in
administrative
proceedings. 79
Schneidewind v. ANR Pipeline Co., 485 U.S. 293, 300 (1988)
(Schneidewind) (quoting N. Nat. Gas Co. v. State Corp. Comm’n
of Kan., 372 U.S. 84, 91 (1963) (N. Nat. Gas Co.) (internal
quotation marks omitted); see also 15 U.S.C. § 717(b).
77

78

See New Jersey Protest at 9-14; Rate Counsel Protest at 5-8.

Second Taxing Dist. of City of Norwalk v. FERC, 683 F.2d 477,
484 (D.C. Cir. 1982) (finding that collateral estoppel “does not
apply when a judgment of policy is reconsidered by an agency in
quasi-legislative proceedings”). Other courts have explained that
preclusion principles are limited in administrative agency
proceedings when, unlike here, the agency is acting in a judicial
capacity and reviewing previously “resolved disputed issue of fact
properly before it.” United States v. Utah Const. & Mining Co.,
384 U.S. 394, 422 (1966); cf. also Astoria Fed. Sav. and Loan Ass’n
v. Solimino, 501 U.S. 104, 108 (1991) (“Courts do not, of course,
have free rein to impose rules of preclusion, as a matter of policy,
when the interpretation of a statute is at hand.”); Tagg Bros. &
Moorhead v. United States, 280 U.S. 420, 445 (1930) (“A rate
order is not res judicata.”); Duvall v. Atty. Gen., 436 F.3d 382,
387-88 (3d Cir. 2006) (finding collateral estoppel applicable to a
factual dispute so long as “application of the doctrine does not
frustrate congressional intent or impede the effective functioning
of the agency”). Even if we were in a quasi-judicial proceeding
instead of a quasi-legislative proceeding, as here, typical
preclusion principles would not apply because the question
79

JA 385
Administrative agencies like the Commission are “not
in a position identical to that of a private litigant.” 80
Protesters’ assertions that the Commission is
precluded from acting on the petition lack merit. 81 In
light of the Commission’s statutory responsibilities
under the NGA, and the possibility that other circuits
not bound by the Third Circuit’s opinion may face
similar questions, the Commission is not barred from
declaring its interpretation of a statute it
implements. 82 Indeed, the Supreme Court has
presented is a pure question of statutory interpretation. See, e.g.,
United States v. Moser, 266 U.S. 236, 242 (1924) (“[Res judicata]
does not apply to unmixed questions of law.”).
Mendoza, 464 U.S. at 159 (quoting INS v. Hibi, 414 U.S. 5, 8
(1973)).

80

Cf. Montana v. United States, 440 U.S. 147, 157 (1979) (finding
estoppel where, unlike here, the government was a party to the
proceeding and the “‘question expressly and definitely presented
in this suit is the same as that definitely and actually litigated
and adjudged’ adversely to the Government in state court”)
(citation omitted); United States v. Utah Constr. and Mining Co.,
384 U.S. at 422 (holding that res judicata applies to the parties
“[w]hen an administrative agency is acting in a judicial
capacity.”).
81

See, e.g., Mendoza, 464 U.S. at 160 (“A rule allowing nonmutual
collateral estoppel against the government in such cases would
substantially thwart the development of important questions of
law by freezing the first final decision rendered on a particular
legal issue.”); Harris v. Martin, 834 F.2d 361, 365 (3d Cir. 1987)
(following
Mendoza);
see
also
Samuel
Estreicher,
Nonacquiescence by Federal Administrative Agencies, 98 Yale
L.J. 679, 683, 719 (1989) (explaining that “in pursuing a policy of
intercircuit nonacquiescence, by definition the agency is not
acting inconsistently with the case law of the court of appeals
that will review its action” and concluding that there is no “per
se constitutional bar against nonacquiescence”).
82

JA 386
recognized that a contrary rule—in which a single
court of appeals can bind subsequent agency
interpretations of a statute that Congress has
delegated to the agency—would “lead to the
ossification of large portions of our statutory law.” 83
Furthermore, the Supreme Court has implicitly
approved this practice by routinely granting certiorari
for the purpose of vacating and remanding prior
appellate court decisions in light of subsequent agency
action. 84
21. In acting on a straightforward question of law—
the Commission’s interpretation of NGA section 7(h)—
we are not proceeding in the traditional civil-litigation
setting in which the doctrines of issue and claim
preclusion typically apply. 85 As such, the dual
purposes of preclusion doctrines, i.e. “protecting
litigants from the burden of relitigating an identical
issue with the same party or his privy and of
promoting judicial economy by preventing needless
Brand X, 545 U.S. at 982-83 (internal quotation marks and
citation omitted) (“Only a judicial precedent holding that the
statute unambiguously forecloses the agency’s interpretation,
and therefore contains no gap for the agency to fill, displaces a
conflicting agency construction.”).

83

See, e.g., Coventry Health Care of Mo., Inc. v. Nevils, 135 S.Ct.
2886 (2015) (remanding for further consideration in light of new
regulations promulgated by an agency); Aetna Life Ins. Co. v.
Kobold, 135 S.Ct. 2886 (2015) (same); see also Mouelle v.
Gonzales, 548 U.S. 901 (2006) (remanding for further
consideration in light of interim rule promulgated by an agency);
Long Island Care at Home, Ltd. v. Coke, 546 U.S. 1147 (2006)
(remanding in light of informal guidance); Slekis v. Thomas, 525
U.S. 1098 (1999) (same).

84

85

See supra note 79 and accompanying text.

JA 387
litigation,” would not be served by restraining the
Commission from acting through this declaratory
order. 86 Preclusion is particularly unwarranted here
because we make no attempt to address the Eleventh
Amendment question left unanswered by the Third
Circuit: 87 whether the NGA’s delegation of the federal
government’s exemption from state sovereign
immunity was a valid, constitutional exercise of
federal power. 88 Our more limited focus here is
whether the text of the statute itself, along with its
legislative history, suggests any limit on the exercise
of eminent domain under NGA section 7(h) based on
the owner of the property at issue. As clarified in
PennEast’s Answer, the Petition does not request that
the Commission interpret the Eleventh Amendment,
but rather states that its request concerns the scope of
NGA section 7(h). 89
22. Moreover, New Jersey cannot use claim or issue
preclusion doctrines to bind the Commission to a
judgment in an adjudication in which the Commission
Parklane Hosiery Co., Inc. v. Shore, 439 U.S. 322, 326 (1979)
(citation omitted); see also Nat’l R.R. Passenger Corp. v. Pa. Pub.
Util. Comm’n, 288 F.3d 519, 525 (3d Cir. 2002) (noting issue
preclusion doctrine’s “twin goals of fairness and efficient use of
private and public litigation resources”).
86

See, e.g., Nat’l R.R. Passenger Corp. v. Pa. Pub. Util. Comm’n,
342 F.3d 242, 252 (3d Cir. 2003) (describing the elements for
collateral estoppel, including that the issue sought to be
precluded is the same as that involved in the prior action).
87

88 In re PennEast, 938 F.3d at 112-13 (holding that “the NGA does
not constitute a delegation to private parties of the federal
government’s exemption from Eleventh Amendment immunity”).
89

PennEast Answer at 6.

JA 388
was not a party. 90 Nor can New Jersey argue that the
Commission is precluded by attempting to apply the
“first-filed” rule to this proceeding. 91 The “first-filed”
rule only arises when “two cases between the same
parties . . . are commenced in two different Federal
courts.” 92 Moreover, the Commission is not bound by
the Third Circuit’s passing reference to a possible
“work-around” that would allow some federal official
(perhaps the Commission) to bring a condemnation
action in a pipeline’s stead—this reference was not
“essential to the judgment,” so issue preclusion does
not apply. 93 Furthermore, PennEast’s Answer points
out that “[a] substantially identical petition could
have been (and still could be) filed by any . . . other
companies with a stake in these issues.” 94 Denying the
Petition on a strained preclusion theory would likely
result in a subsequent duplicative agency proceeding,
See, e.g., Blonder-Tongue Labs., Inc. v. Univ. of Ill. Found., 402
U.S. 313, 329 (1971) (holding that “[litigants] who never
appeared in a prior action—may not be collaterally estopped
without litigating the issue”); United States v. 5 Unlabeled Boxes,
572 F.3d 169, 173 (3d Cir. 2009) (noting that res judicata requires
a showing that the prior suit involved “the same parties or their
privies,” while collateral estoppel requires a showing that “the
party being precluded from relitigating the issue was fully
represented in the prior action”) (internal citations and quotation
marks omitted).
90

91

New Jersey Protest at 11.

Washington Metro. Area Transit Auth. v. Ragonese, 617 F.2d
828, 830 (D.C. Cir. 1980); see Cont’l Grain Co. v. Barge FBL-585,
364 U.S. 19, 26 (1960).
92

93 See Jean Alexander Cosmetics, Inc. v. L’Oreal USA, Inc., 458
F.3d 244, 249 (3d Cir. 2006) (quoting Restatement (Second) of
Judgments § 27 (1982)).
94

PennEast Answer at 20.

JA 389
pointlessly elevating form over substance. 95 For this
reason, we conclude that granting the Petition is
appropriate.
23. Before we move to the merits of the Petition, we
must clarify the extent of our authority. Numerous
parties express concern about the Commission
“attempt[ing] to overrule the Third Circuit.” 96 It
should go without saying that we can do no such thing.
Nor are we attempting to “subvert the judicial
process,” as Niskanen suggests. 97 As a “creature of
statute,” 98 the Commission—like any administrative
agency—has no power to act “unless and until
Congress confers power upon it.” 99 We have no
authority to “overrule” a precedential opinion of a
Here, for example, another certificate holder that has
intervened in this proceeding is currently encountering similar
obstacles in exercising eminent domain against the State of
Maryland. See infra P 64.
95

Riverkeeper Protest at 7; see New Jersey Protest at 3 (“FERC
should not break procedures and misread the law to indulge
PennEast’s efforts to overrule that correct holding.”); Rate
Counsel Protest at 1 (“That decision [by the Third Circuit] is
authoritative and binding as to PennEast, and the Commission
cannot overrule it by declaration.”); Niskanen First Protest at 6
(“[I]t is not within the Commission’s power to upend a federal
court’s constitutional holding by issuing a declaratory order that
purports to overrule that decision.”); Letter from Tom
Malinowski and Bonnie Watson Coleman, U.S. Representatives
(Oct. 29, 2019) (agreeing with Rate Counsel that the Third
Circuit’s decision cannot be overruled by the Commission).
96

97

Niskanen First Protest at 4.

Tesoro Alaska Co. v. FERC, 778 F.3d 1034, 1038 (D.C. Cir.
2015) (citing Atl. City Elec. Co. v. FERC, 295 F.3d 1, 8 (D.C. Cir.
2002) (Atl. City Elec.)).

98

99

La. Pub. Serv. Comm’n v. FCC, 476 U.S. 355, 374 (1986).

JA 390
United States Court of Appeals. PennEast refutes the
notion that its Petition requests that the Commission
overrule the Third Circuit; rather, PennEast states
that its Petition serves to “allow the Commission to
provide its considered interpretation of [s]ection 7(h)
of the NGA, without negating the role of the Third
Circuit.” 100 Furthermore, this order does not
incentivize forum shopping, as Environmental
Defense Fund claimed, 101 because it does not provide
an avenue by which losing parties can circumvent
appellate courts: this order neither compels the Third
Circuit to reverse its decision, nor compels New Jersey
to consent to suit, nor compels any landowner to
transfer its property. This order does nothing more
than set out the Commission’s interpretation of a
statute it administers.
B. PennEast’s Request for a Declaratory
Order
24. In the Petition, PennEast requests the
Commission’s interpretation of NGA section 7(h). 102
As discussed below, we grant the Petition in part and
deny it in part.
25. First, PennEast requests the Commission address
whether a certificate holder’s right to condemn land
pursuant to NGA section 7(h) applies to property in
which a state holds an interest. 103 We grant this
request and find that NGA section 7(h) does not limit
a certificate holder’s right to exercise eminent domain
100

PennEast Answer at 32.

101

Environmental Defense Fund Protest at 3.

102

Petition at 2.

103

See id.

JA 391
authority over state-owned land. 104 The text of NGA
section 7 is expansive and NGA section 7(h) contains
no limiting language concerning state land; 105 the
legislative history of NGA section 7(h) describes a
specific intent to prevent states from conditioning or
blocking the use of eminent domain by certificate
holders; 106 and caselaw—including both federal
precedent shortly after the statute’s enactment 107 and
the Commission’s earliest hearing orders 108—supports
this view. Additionally, Congress’s decision to amend
an analogous statute to expressly carve out state
lands, but not to similarly amend NGA section 7(h),
indicates its understanding that the eminent domain
authority exercised by certificate holders under NGA
section 7 does, in fact, apply to state lands. 109
26. Second, PennEast requests the Commission
clarify to whom the federal government’s eminent
domain authority has been granted. 110 We grant this
request and find that NGA section 7(h) delegates
104

See infra PP 28-48.

105

See 15 U.S.C. § 717f(h).

106

See S. Rep. No. 80-429, at 1-4 (1947).

Thatcher v. Tenn. Gas Transmission Co., 180 F.2d 644 (5th
Cir. 1950) (Thatcher).
107

Tenneco Atl. Pipeline Co., 1 FERC ¶ 63,025, at 65,203-04
(1977) (Tenneco Atlantic) (“[T]the eminent domain grant to
persons holding Section 7 certificates applies equally to private
and state lands.”); Recommendation to the President Alaska Nat.
Gas Transp. Sys., 58 F.P.C. 810, 1454 (1977) (same).
108

109 See infra note 170 (quoting Energy Policy Act of 1992, Pub. L.
102-486, 106 Stat. 2776 (1992); H.R. Rep. No. 102-474, at 99
(1992)).
110

See Petition at 2.

JA 392
eminent domain authority solely to certificate holders
and not to the Commission. 111 It is “beyond dispute”
that the federal government has the constitutional
power to acquire property by exercise of eminent
domain. 112 The federal government can also delegate
the power to exercise eminent domain to a private
party, such as the recipient of a certificate of public
convenience and necessity, when needed to fulfill the
certificate. 113 Critically, the Commission itself was
never granted the authority to exercise eminent
domain. Although we are responsible for the public
convenience and necessity determination that then, by
operation of law under a separate statutory provision,
automatically confers federal eminent domain
authority over a specified route to certificate
holders, 114 we do not subsequently grant, exercise, or
oversee the exercise of that eminent domain
authority. 115
27. Finally, PennEast requests the Commission
address whether NGA section 7(h) necessarily
111

See infra PP 49-53.

Tenneco Atlantic, 1 FERC at 65,203 (citing United States v.
Carmack, 329 U.S. 230 (1946) (Carmack)); Oklahoma v. Guy F.
Atkinson Co., 313 U.S. 508 (1941).
112

Tenneco Atlantic, 1 FERC at 65,203-04 & n.53 (citing
Thatcher, 180 F.2d 644); see also E. Tenn. Nat. Gas Co., 102
FERC ¶ 61,225, at P 68 (2003) (East Tennessee); Islander E.
Pipeline Co., 102 FERC ¶ 61,054, at PP 128, 131 (2003) (Islander
East).
113

114

15 U.S.C. § 717f(c).

115 Certificate Rehearing Order, 164 FERC ¶ 61,098 at P 33
(citing Transcon. Gas Pipe Line Co., 161 FERC ¶ 61,250 at P 35);
Mountain Valley Pipeline, LLC, 163 FERC ¶ 61,197, at P 76
(2018).

JA 393
delegates the federal government’s exemption from
state sovereign immunity. 116 We agree that is how the
statute reads and was intended to operate, but we
deny PennEast’s petition to the extent that it would
require the Commission to evaluate the constitutional
sufficiency of NGA section 7(h) for purposes of
abrogating state sovereign immunity or delegating
federal authority under the Eleventh Amendment. 117
Although the Commission typically refrains from
opining on the constitutionality of the statutes it
superintends, 118 we find it appropriate to address the
necessity of broad eminent domain powers for the
successful
administration
of
the
NGA’s
“comprehensive scheme of federal regulation of all
wholesales of natural gas in interstate commerce.” 119
To that end, we discuss the potential implications of

116

See Petition at 2.

117

See infra PP 54-55.

Finnerty v. Cowen, 508 F.2d 979, 982 (2d Cir. 1974) (explaining
that administrative agencies “have neither the power nor the
competence to pass on the constitutionality of administrative or
legislative action,” except when “called upon to determine facts
or to apply its expertise”) (quoting Murray v. Vaughn, 300
F.Supp. 688, 695 (D.R.I. 1969)); see, e.g., Gibas v. Saginaw
Mining Co., 748 F.2d 1112, 1117 (6th Cir. 1984)
(“[A]dministrative bodies like the Board do not have the
authority to adjudicate the validity of legislation which they are
charged with administering.”); Spiegel, Inc. v. FTC, 540 F.2d 287,
294 (7th Cir. 1976) (finding that the federal agency erred by
making a constitutional determination); Downen v. Warner, 481
F.2d 642, 643 (9th Cir. 1973) (“Resolving a claim founded solely
upon a constitutional right is singularly suited to a judicial forum
and clearly inappropriate to an administrative board.”).
118

119

Schneidewind, 485 U.S. at 300; see supra note 77.

JA 394
the Third Circuit’s decision on the natural gas
industry. 120
1.

NGA Section 7(h) Delegates the
Authority to Certificate Holders to
Condemn State Property

28. PennEast asserts that Congress possesses the
authority both to condemn state property and to
delegate that authority to private companies. 121
PennEast states that federal eminent domain
authority has been accepted for well over a century
and “does not depend on having the consent of the
state in which the property is located.” 122 To require a
state’s consent to the condemnation of its property
pursuant to Congressional authority, effectively
allowing a state to “block the federal government’s use
of eminent domain in furtherance of Congress’s other
constitutional authorities,” would allow a state to
render
a
“constitutional
grant
of
authority . . . nugatory.” 123
29. This interpretation of the federal eminent domain
scheme is consistent with longstanding Commission
precedent holding that “it is beyond dispute” the
federal government can acquire property through
eminent domain and may delegate this authority to a
certificate holder “when needed to fulfill the

120

See infra PP 56-65.

121

Petition at 16-18.

122 Id. at 16 (citing Kohl v. United States, 91 U.S. 367, 372 (1875)
(Kohl)).
123

Id. (citing Kohl, 91 U.S. at 371).

JA 395
certificate.” 124 The Third Circuit’s opinion does not
dispute this scheme.
30. Central to this grant of authority, PennEast
asserts, is Congress’s intent to “authorize certificate
holders to condemn any necessary lands, including
state-owned lands.” 125 PennEast further suggests that
as NGA section 7(h) contains no language limiting the
type of property a certificate holder may acquire
through the exercise of eminent domain, Congress
intended to delegate to certificate holders the right to
condemn state-owned land. 126 Riverkeeper argues
that if Congress intended to prevent state sovereign
immunity in terms of interstate natural gas pipelines,
it could have done so when drafting the NGA. 127
Further, Riverkeeper contends that Congress did not
delegate the federal government’s eminent domain
power to certificate holders. 128
31. The Commission’s principal obligation under the
NGA is to “encourage the orderly development of
plentiful supplies of . . . natural gas at reasonable
prices.” 129 Specifically, the NGA provides the

124

Infra notes 146 and 147 (quoting precedent).

125

Petition at 19.

126

Id. at 20.

127

Riverkeeper Protest at 10.

128

Id. at 12.

NAACP v. Fed. Power Comm’n, 425 U.S. 662, 669-70 (1976);
accord Myersville Citizens for a Rural Cmty., Inc. v. FERC, 783
F.3d 1301, 1307 (D.C. Cir. 2015) (citing NAACP v. Fed. Power
Comm’n, 425 U.S. at 669-70); see, e.g., Certification of New
Interstate Nat. Gas Pipeline Facilities, 88 FERC ¶ 61,227, at
61,743, 61,751 (1999) (Certificate Policy Statement), clarified on
129

JA 396
Commission with jurisdiction over the “transportation
of natural gas in interstate commerce . . . [and] the
sale in interstate commerce of natural gas for
resale.” 130 In NGA section 7(c), Congress gave the
Commission jurisdiction to determine whether the
construction and operation of proposed pipeline
facilities are in the public convenience and
necessity. 131 Once the Commission has made that
determination, NGA section 7(h) provides the
certificate holder with eminent domain authority to
acquire the land necessary to construct the approved
facilities, in the event the certificate holder cannot
acquire the land by other means. 132 Section 7(h)
further states that when the value of the property to
be condemned is greater than $3,000, the
condemnation proceeding may be heard in United
States district court. 133
32. Based on the text of NGA section 7(h), and as
confirmed by the legislative history, we believe it is
evident that Congress, in delegating to certificate
holders its power of eminent domain, provided broad
eminent domain authority in order to achieve the
objectives of the NGA without interference from states
and to preserve the Commission’s exclusive
jurisdiction over the transportation and sale of
natural gas for resale in interstate commerce.
other grounds, 90 FERC ¶ 61,128, further clarified on other
grounds, 92 FERC ¶ 61,094 (2000).
130

15 U.S.C. § 717(b) (2018).

131

Id. § 717f(c).

132

Id. § 717f(h).

133

Id.

JA 397
a.

Statutory Text and Precedent

33. The “starting point for interpreting a statute is
the language of the statute itself.” 134 NGA section 7(h)
provides, in its entirety, that:
When any holder of a certificate of public
convenience and necessity cannot acquire by
contract, or is unable to agree with the owner
of property to the compensation to be paid for,
the necessary right-of-way to construct,
operate, and maintain a pipe line or pipe lines
for the transportation of natural gas, and the
necessary land or other property, in addition
to right-ofway, for the location of compressor
stations, pressure apparatus, or other
stations or equipment necessary to the proper
operation of such pipe line or pipe lines, it
may acquire the same by the exercise of the
right of eminent domain in the district court
of the United States for the district in which
such property may be located, or in the State
courts. The practice and procedure in any
action or proceeding for that purpose in the
district court of the United States shall
conform as nearly as may be with the practice
and procedure in similar action or proceeding
in the courts of the State where the property
is situated: Provided, That the United States
district courts shall only have jurisdiction of
cases when the amount claimed by the owner

134 Gwaltney of Smithfield, Ltd. v. Chesapeake Bay Found., Inc.,
484 U.S. 49, 56 (1987).

JA 398
of the property to be condemned exceeds
$3,000. 135
34. Immediately apparent in the text of NGA section
7(h) is that it is the “holder of the certificate” that is
granted the power of eminent domain. NGA section 7
establishes a multi-step process for pipeline
companies seeking to acquire land via eminent
domain. 136 NGA section 7(c) requires that the pipeline
company first receive its certificate of public
convenience and necessity from the Commission
pursuant to its authority under NGA section 7(e). The
pipeline company then must attempt to obtain land
identified in the certificate as necessary for the project
through purchase or contract. 137 If the certificate
holder is still unable to obtain this land, NGA section
7(h) permits it to acquire the land necessary for the
project by the exercise of eminent domain. 138
Critically, as PennEast notes, NGA section 7(h)
contains no language limiting that exercise of eminent
domain “based on the status of the property’s
owner.” 139 And the Commission has previously
rejected arguments to limit the exercise of eminent
domain over state-owned property, relying on the
broad and unqualified reference to “the necessary land
or other property” in section 7(h). 140
135

15 U.S.C. § 717f(h).

136

Id.

137

Id.

138

Id.

139

Petition at 20.

Islander East, 102 FERC ¶ 61,054 at P 131 (“[I]n NGA section
7(h), Congress gave the natural gas company authorization to

140

JA 399
35. Judicial review of NGA section 7(h) shortly
following its enactment supports this view.
Thatcher, 141 decided in 1950, squarely confronted the
constitutionality of the delegation of eminent domain
authority to pipelines under NGA section 7(h), which
was enacted three years earlier. Thatcher did not
address the Eleventh Amendment, but resolved
several other constitutional objections, including
claims that NGA section 7(h) invaded authority
reserved to the States under the Tenth
Amendment. 142 As relevant here, Thatcher held:
Consideration of the facts, and the legislative
history, plan and scope of the Natural Gas
Act, and the judicial consideration and
application the Act has received, leaves us in
no doubt that the grant by Congress of the
power of eminent domain to a natural gas
company, within the terms of the Act, and
which in all of its operations is subject to the
conditions and restrictions of the statute, is
clearly within the constitutional power of
Congress to regulate interstate Commerce.
Indeed when Congress determined it in the
public interest to regulate the interstate
transportation and interstate sale of natural
gas as provided by the Act of 1938 and the
amendment of 1942, so that companies
engaged in such business not only could not
acquire the necessary land or property to construct the approved
facilities by the exercise of eminent domain . . . .”); East
Tennessee, 102 FERC ¶ 61,225 at P 68 (same).
141 180 F.2d at 646-47.
142

See id. at 645.

JA 400
operate except under the authority provided
by the statute, but could also be required to
provide additions and extension of service, it
was proper to make provision whereby the
full statutory scheme of control and
regulation could be made effective, by the
grant to such company of the right of eminent
domain. The possession of this right could
well be considered necessary to insure ability
to comply with the Commission requirements
as well as with all phases of the statutory
scheme of regulation.
There is no novelty in the proposition that
Congress in furtherance of its power to
regulate commerce may delegate the power of
eminent domain to a corporation, which
though a private one, is yet, because of the
nature and utility of the business functions it
discharges, a public utility, and consequently
subject to regulation by the Sovereign. 143
This reasoning in Thatcher was followed in
contemporaneous decisions of state courts 144 and
federal courts 145 regarding the constitutionality of
pipeline eminent domain authority.
143

Id. at 647 (listing Supreme Court precedent).

See Parkes v. Nat. Gas Pipe Line Co., 249 P.2d 462, 467 (Okla.
1952) (“The power of the United States to authorize the exercise
of eminent domain within the limits of the several states is not
limited to the taking of property by the government itself for its
own proper uses, but includes the right to delegate the power of
eminent domain to corporations . . . .”).
144

145 See Williams v. Transcon. Gas Pipe Line Corp., 89 F. Supp.
485, 487 (W.D.S.C. 1950) (“Earlier decisions of the Supreme

JA 401
36. And this Commission has uniformly held this
view from its inception 146 through today. 147 One of the
Commission’s earliest hearing orders, Tenneco
Atlantic Pipeline Co., merits restatement because it
squarely addressed the question presented here: “may
the Congressional grant of eminent domain powers be
exercised by a person holding a Commission certificate
of public convenience and necessity to acquire a rightof-way through state lands?” 148 Tenneco Atlantic
answered that question in the affirmative, finding
that “the eminent domain grant to persons holding

Court uphold the authority of Congress to grant eminent domain
powers to private corporations in furtherance of interstate
commerce.”); id. at 489 (“[W]hen the Legislature provides for the
taking of private property for a public use it may either prescribe
specifically the property that may be taken, or delegate that
determination to the agency, either public or private, which is
charged with developing the public use.”).
See Tenneco Atlantic, 1 FERC at 65,203-04 (“It is beyond
dispute that the federal government has the constitutional power
to acquire state property by exercise of eminent domain. In
addition, the federal government can delegate to a private party,
such as the recipient of a Section 7 certificate, the power to
exercise eminent domain when needed to fulfill the certificate.”)
(internal citations omitted).
146

See, e.g., Atl. Coast Pipeline, LLC, 164 FERC ¶ 61,100 at P 87
(“It is beyond dispute that the federal government has the
constitutional power to acquire property by exercise of eminent
domain. The federal government can also delegate the power to
exercise eminent domain to a private party, such as the recipient
of an NGA section 7 certificate, when needed to fulfill the
certificate[.]”) (internal citations omitted); Mountain Valley, 163
FERC ¶ 61,197 at P 75 (same).
147

148

Tenneco Atlantic, 1 FERC at 65,203.

JA 402
Section 7 certificates applies equally to private and
state lands” for the following reasons: 149
It is beyond dispute that the federal
government has the constitutional power to
acquire state property by exercise of eminent
domain. In addition, the federal government
can delegate to a private party, such as the
recipient of a Section 7 certificate, the power
to exercise eminent domain when needed to
fulfill the certificate. At issue here is whether
such a delegatee has lesser powers of eminent
domain than does the delegator, the federal
government.
On its face, there is nothing in Section 7(h)
that compels a reading of the language
“owner of property” to exclude a state. On the
contrary, although “owner of property” is not
defined in Section 2 of the Natural Gas Act, it
is reasonable to include a state within the
plain meaning of that term, since states can
own land. Looking behind the statutory
language, there is no legislative history that
warrants any other reading. The language of
Section 7(h) indicates a Congressional grant
of plenary eminent domain power to
certificate holders, such a grant satisfying the
dictum in [United States v.] Carmack, [] 329
U.S. [230,] at 243, n.13 [(1946)].
While there are no judicial pronouncements
resolving this question explicitly with respect
to Section 7(h) of the Natural Gas Act,
149

Id.

JA 403
consideration
of
the
analogue
and
predecessor of this provision under the
Federal Power Act is instructive. Section 21
of the Federal Power Act is the model for
Section 7(h) of the Natural Gas Act. The
corresponding language relevant to this
inquiry is identical, and accordingly it is
proper to look to judicial decisions
interpreting Section 21 to aid in the statutory
construction of Section 7(h). When this is
done, it is clear that Congress intended to
grant recipients of Section 7 certificates the
full powers of eminent domain. Specifically,
hydroelectric project licensees under Part I of
the Federal Power Act have eminent domain
power under Section 21 to condemn state
land.
Thus, Rhode Island’s assertion that a private
party possessing eminent domain power
conferred by a certificate pursuant to Section
7(h) cannot prevail against a state’s
ownership interest must be rejected. 150
Id. at 65,203-04 (footnotes citing supporting authority
omitted). The passage from Tenneco Atlantic replicated here was
itself borrowed nearly verbatim from the Federal Power
Commission’s formal Recommendation to the President regarding
the administration of Alaska Natural Gas Transportation
System, supra note 108. The passage from Carmack addressed in
Tenneco Atlantic and in Recommendation to the President
describes the distinction between statutes that “authorize
officials to exercise the sovereign’s power of eminent domain on
behalf of the sovereign itself” and “statutes which grant to others,
such as public utilities, a right to exercise the power of eminent
domain on behalf of themselves.” Carmack, 329 U.S. at 243 n.13
(emphasis added). The Supreme Court explained that statutes in
150

JA 404
37. We continue to think that Tenneco Atlantic was
correctly decided as a matter of statutory
interpretation. As elucidated throughout this order,
this view is supported by the text and legislative
history of the amendment, contemporaneous
precedent, and analysis of an analogous provision
under the FPA. However, whether the text, context,
and legislative history of NGA section 7(h) are
sufficient to meet constitutional requirements for
purposes of the Eleventh Amendment is a question
that is beyond the scope of this order. 151
38. More recently, in 2003, the Commission
addressed Eleventh Amendment claims to certificate
proceedings in Islander East, 152 which found the
that second category—in which NGA section 7(h) appears to
fall—”are, in their very nature, grants of limited powers. They do
not include sovereign powers greater than those expressed or
necessarily implied, especially against others exercising equal or
greater public powers. In such cases the absence of an express
grant of superiority over conflicting public uses reflects an
absence of such superiority.” Id. (emphasis added). Thus, when
the decision in Tenneco Atlantic states that it “satisf[ied] the
dictum in Carmack,” 1 FERC at 65,204, it meant the delegation
to certificate holders to condemn state land was either
“necessarily implied,” or reflected “an express grant of
superiority,” or both. We think both elements were satisfied
because the authority to condemn state land is necessary to
effectuate the express purposes of Congress in granting the
Commission exclusive authority to regulate the transportation
and sale of natural gas in interstate commerce under 15 U.S.C.
§ 717(b), including the authority to issue certificates of public
convenience and necessity under 15 U.S.C. § 717f.
151

See supra P 27; infra P 55.

152 102 FERC ¶ 61,054 at P 123 (“The NGA does not address ‘any
suit in law or equity’ against a state. Therefore, the application
of the Eleventh Amendment and the Court’s ruling in Seminole

JA 405
Eleventh Amendment did not apply to NGA section
7(h)
eminent
domain
proceedings
because
condemnation actions do not constitute “any suit in
law or equity” under the Eleventh Amendment. 153 The
Third Circuit criticized the Commission’s holding in
Islander East as insufficiently supported, 154 and we
agree that decision was terse. That does not, however,
obviate the validity of that final holding. PennEast
argues that Islander East was correctly decided, citing
Supreme Court authority for the proposition that the
Eleventh Amendment does not bar certain types of in
rem suits against property in which a state has an
interest. 155 The Third Circuit found those cases “are
confined—by their terms—to the specialized areas of
bankruptcy and admiralty law” 156 and contrasted
Tribe has no significance here.”). The Commission emphasized
the preemptive sweep of the NGA as a “comprehensive scheme of
federal regulation,” id. (quoting Schneidewind, 485 U.S. at 30001), and denied Connecticut’s Tenth Amendment arguments for
the same reason. See id. P 131. A month later, in East Tennessee,
the Commission similarly denied a claim that the Tenth
Amendment bars a certificate holder from acquiring state-owned
land under NGA section 7(h). 102 FERC ¶ 61,225 at P 68.
153

Islander East, 102 FERC ¶ 61,054 at P 123.

154

In re PennEast, 938 F.3d at 111 n.19.

See Petition at 37-44 (citing Tenn. Student Assistance Corp. v.
Hood, 541 U.S. 440, 443 (2004) (“[C]onclud[ing] that a proceeding
initiated by a debtor to determine the dischargeability of a
student loan debt is not a suit against the State for purposes of
the Eleventh Amendment[.]”); California v. Deep Sea Research,
Inc., 523 U.S. 491, 494-95 (1998) (“We conclude that the Eleventh
Amendment does not bar jurisdiction of a federal court over an in
rem admiralty action where the res is not within the State’s
possession.”)).
155

156

In re PennEast, 938 F.3d at 110.

JA 406
authority holding “that sovereigns can assert their
immunity in in rem proceedings in which they own
property.” 157 In the Third Circuit’s view, such
specialized precedent was unable to overcome “the
general rule” that “[a] federal court cannot summon a
State before it in a private action seeking to divest the
State of a property interest.” 158
39. The question whether an eminent domain
proceeding to effectuate a Commission certificate
under NGA section 7(h) is properly characterized as a
“suit in law or equity” or an in rem action for purposes
of the Eleventh Amendment is outside the heartland
of our quotidian ambit. It involves esoteric matters of
constitutional law better suited for review by the
Supreme Court on certiorari from the Third Circuit.
We decline to umpire that particular dispute unless
we must and—unlike the contested certificate
proceeding in Islander East—we are not obliged to
address that distinction again in response to this
discretionary petition for declaratory order. 159 Our
prior decision in Islander East, like our decisions in
Id. (citing Minnesota v. United States, 305 U.S. 382, 386-87
(1939); Fla. Dep’t of State v. Treasure Salvors, Inc., 458 U.S. 670,
699 (1982) (plurality)); id. at 110-11 n.17 (citing Aqua Log, Inc. v.
Georgia, 594 F.3d 1330, 1334 (11th Cir. 2010)).
157

Id. at 110 (quoting Idaho v. Coeur d’Alene Tribe of Idaho, 521
U.S. 261, 289, (1997) (O’Connor, J., concurring)); see id. at 111
n.18 (examining Coeur d’Alene).
158

See 5 U.S.C. § 554(e); 18 C.F.R. § 385.207(a)(2); see, e.g.,
Pioneer Wind Park I, LLC, 145 FERC ¶ 61,215, at P 35 (2013)
(“Section 554(e) of the Administrative Procedure Act and section
207(a)(2) of the Commission’s Rules of Practice and Procedure
provide us the authority and discretion to rule on a petition for
declaratory order . . . .”).
159

JA 407
East Tennessee and Tenneco Atlantic, was grounded in
the view that it would defeat the core purposes of the
NGA if states were able to nullify a Commission
certificate of public convenience and necessity that
affects state land by simply refusing to participate in
an eminent domain proceeding brought to effectuate
that federal certificate. 160 We continue to adhere to
that position now—and, as we next explain, that
position is entirely consistent with the legislative
history of NGA section 7(h) and with Supreme Court
precedent construing the original text of FPA section
21, which is materially identical to NGA section 7(h).
b.

Legislative History

40. The language of NGA section 7(h) is expansive.
This is consistent with the legislative history which
indicates that the absence of limiting language
regarding state land was not an oversight; rather, in
amending the NGA to include section 7(h), Congress
purposely delegated its eminent domain authority to
certificate holders to prevent states from nullifying
the effect of Commission certificate orders. The Senate
Report for NGA section 7(h) is reproduced, in relevant
part, below.
This bill follows substantially the wording of
the eminent domain provision of the Federal
Power Act (U.S.C.A., title 16, sec. 814) which
See supra notes 150, 152, and accompanying text. We note that
neither Coeur d’Alene nor any of the other cases the Third Circuit
addressed in connection with the in rem issue, including the cases
cited by PennEast, appears to involve a condemnation action to
enforce compliance with a federal agency order. The authorities
construing FPA section 21, by contrast, are more directly on
point. See infra PP 45-47.

160

JA 408
confers upon concerns that have acquired
licenses from the Federal Power Commission
to operate certain power projects, the right to
condemn the necessary property for the
location and operation of the projects. When
the Congress passed the Natural Gas Act, it
failed to include a similar provision of
eminent domain to those concerns which
qualified as natural gas companies under the
act and obtained certificates of public
convenience and necessity for the acquisition,
construction, or operation of natural gas pipe
lines.
….
Thus, an interstate natural gas pipe line
which is constructed across several States for
the purpose of distributing natural gas in a
particular area authorized by the Federal
Power Commission and which does not
distribute natural gas in each of the States
crossed, would not have the right of eminent
domain under the constitutions and statutes
of such States authorizing the taking of
property for a public use. The operation of the
pipe line would not be for the benefit of the
public in those States crossed by the pipe line
but in which there is no distribution of
natural gas by such line. But it is necessary
to cross those States in carrying out the
certificate granted by the Federal Power
Commission.
….

JA 409
Therefore, the Congress of the United States
in carrying out its constitutional authority to
regulate interstate commerce, should correct
this deficiency and omission in the Natural
Gas Act by the passage of Senate bill 1028
which confers the right of eminent domain
upon those natural gas companies which have
qualified under the Natural Gas Act to carry
out and perform the terms of any certificate
of public convenience and necessity acquired
from the Federal Power Commission under
the act.
….
It has also been suggested that the granting
of the right of eminent domain is a matter
peculiarly within the legislative and
constitutional purview of the States and that
it is proper that such rights should rest with
the States in order that the States may
therefore be in a position to require a naturalgas pipe-line company entering the State to
serve the people of that State as a condition
to obtaining the right of eminent domain.
This argument defeats the very objectives of
the Natural Gas Act. Under the Natural Gas
Act, the Federal Power Commission is given
exclusive jurisdiction to regulate the
transportation of natural gas in interstate
commerce, the sale in interstate commerce of
natural gas for resale for ultimate public
consumption for domestic, commercial,
industrial, or any other use, and natural-gas
companies engaged in such transportation or

JA 410
sale. The Commission, through its certificate
power, is authorized to grant certificates of
convenience
and
necessity
for
the
construction of interstate natural-gas pipe
lines from points of supply to certain defined
and limited markets. If a State may require
such interstate natural-gas pipe lines to serve
markets within that State as a condition to
exercising the right of eminent domain, then
it is obvious that the orders of the Federal
Power Commission may be nullified. 161
41. As indicated above, the Senate Report squarely
acknowledged objections to the adoption of NGA
section 7(h) on the ground “that the granting of the
right of eminent domain is a matter peculiarly within
the legislative and constitutional purview of the
States.” 162 Nevertheless, the Senate Report concluded
that it would “defeat[] the very objectives of the
Natural Gas Act,” 163 including the Commission’s
“exclusive jurisdiction to regulate the transportation
of natural gas in interstate commerce,” 164 if states
were permitted to “nullif[y]” 165 the Commission’s
certificate orders by conditioning or withholding a
pipeline’s exercise of the right of eminent domain over
land located in such states. In light of the purpose
given for enacting NGA section 7(h), it is reasonable to
interpret the absence of limitation in that provision as
161

S. Rep. No. 80-429, at 1-4.

162

Id. at 3.

163

Id.

164

Id.

165

Id. at 4.

JA 411
authorization for a certificate holder to condemn state
land when necessary “to carry out and perform the
terms of any certificate of public convenience and
necessity acquired from the [] Commission under the
act.” 166
c.

FPA section 21

42. Precedent construing FPA section 21 further
strengthens our view that Congress provided the right
of eminent domain under NGA section 7(h) so as to
prevent states from interfering with the Commission’s
regulation of interstate natural gas facilities. As noted
in the Senate Report 167 and in the Petition, 168 FPA
section 21 served as the model for NGA section 7(h).
FPA section 21 provides eminent domain authority to
a licensee for a Commission-approved hydroelectric
project for lands necessary to project “construction,
maintenance, or operation.” 169
43. In the Energy Policy Act of 1992, Congress
amended FPA section 21 to restrict a licensee’s ability
to exercise eminent domain to acquire state-owned
lands. 170 While Congress also amended parts of the
166

Id. at 3 (emphasis added).

167

Id. at 1.

168

Petition at 23.

169

16 U.S.C. § 814 (2018).

See Energy Policy Act of 1992, Pub. L. 102-486, 106 Stat. 2776
(1992) (limiting the ability of a hydroelectric licensee to use “the
right of eminent domain under this section to acquire any lands
or other property that, prior to the date of enactment of the
Energy Policy Act of 1992, were owned by a State or political
subdivision thereof and were part of or included within any public
park, recreation area or wildlife refuge established under State
or local law.”); see also H.R. Rep. No. 102-474, at 99 (noting that
170

JA 412
NGA, it left section 7(h) unchanged. Notably, NGA
section 7(h) was drafted to “follow[] substantially” the
unamended version of the eminent domain provision
of section 21 of the FPA. 171 And though the Third
Circuit relied on “context” to dispute the lack of
similar language in the NGA and the FPA—i.e., the
fact that the FPA was amended after Union Gas 172
permitted Congress to abrogate state sovereign
immunity under the Commerce Clause, but before the
Supreme Court overruled Union Gas 173—we note that
the legislative history of the Energy Policy Act of 1992
makes no reference to the status of Supreme Court
precedent on state sovereign immunity. In any event,
the “best evidence of Congress’s intent is the text of
the statute,” 174 and we rely on the text that Congress
ultimately chose (or did not choose) for the same right
in two analogous statutes administered by the same

the pre-amendment “current law” under FPA section 21 of the
power of eminent domain conferred by a FERC hydropower
license included “the power to condemn lands owned by States or
local levels of government”).
171

S. Rep. No. 80-429, at 1.

172 Union Gas Co., 491 U.S. 1, overruled by Seminole Tribe of Fla.,
517 U.S. at 66.
173

See In re PennEast, 938 F.3d at 112 n.20.

174

United States v. Schneider, 14 F.3d 876, 879 (3d Cir. 1994).

JA 413
agency. 175 Therefore, we agree with PennEast 176 that
the congressional choice to restrict private licensees’
eminent-domain authority under FPA section 21—but
not private certificate holders’ authority under NGA
section 7(h)—shows that Congress did not intend for
condemnations under NGA section 7(h) to be subject
to the restrictions Congress later imposed in
amendments to FPA section 21. 177
44. Riverkeeper emphasizes that the Third Circuit
rejected arguments suggesting that because Congress
amended the FPA, but chose not to amend the NGA,
that Congress intended to allow the exercise of
eminent domain over state-owned lands pursuant to
the NGA. 178 Riverkeeper asserts that if Congress
intended to remove a state’s sovereign immunity in
relation to interstate natural gas pipelines, it could
have done so when drafting the language of the NGA,
See Hughes, 136 S. Ct. at 1298 n.10 (recognizing that relevant
provisions of the FPA and the NGA are “analogous”); Lafferty v.
St. Riel, 495 F.3d 72, 81-82 (3d Cir. 2007) (describing “the
common canon of statutory construction that similar statutes are
to be construed similarly”); Ky. Utils. Co. v. FERC, 760 F.2d 1321,
1325 n.6 (D.C. Cir. 1985) (“It is, of course, well settled that the
comparable provisions of the Natural Gas Act and the Federal
Power Act are to be construed in pari materia.”).
175

See Petition at 22 & n.35 (observing that, where Congress
intends to restrict a delegation of its eminent domain authority
to exclude state-owned lands, “it has done so expressly”).
176

See Loughrin v. United States, 573 U.S. 351, 358 (2014) (“We
have often noted that when ‘Congress includes particular
language in one section of a statute but omits it in another’—let
alone in the very next provision—this Court ‘presume[s]’ that
Congress intended a difference in meaning.”) (quoting Russello v.
United States, 464 U.S. 16, 23 (1983)).
177

178

Riverkeeper Protest at 11.

JA 414
but it did not. 179 Specifically, Riverkeeper takes issue
with the “imput[ation] [of] congressional intent and
interpretation from one law to another because
Congress amended the language of one law and not
the other.” 180 We disagree and find the eminent
domain provisions of FPA section 21 (as it read prior
to 1992) and NGA section 7(h) should be read in pari
materia. 181
45. The relationship between these two statutes is
critical because, while the Supreme Court has not
addressed the scope of a pipeline’s delegated authority
under NGA section 7(h), the Supreme Court’s decision
in City of Tacoma v. Taxpayers of Tacoma 182 directly
addressed the question whether a hydroelectric
licensee may condemn state land pursuant to a license
granted under FPA section 21. 183 The Supreme Court
179

Id. at 10.

180

Id. at 11.

The Supreme Court “has routinely relied on NGA cases in
determining the scope of the FPA, and vice versa.” Hughes, 136
S. Ct. at 1298 n.10 (citation omitted) (recognizing provisions of
the FPA and NGA to be “analogous”); Ark. La. Gas Co. v. Hall,
453 U.S. 571, 577 n.7 (1981) (following its “established practice
of citing interchangeably decisions interpreting the pertinent
sections of the [FPA and NGA]” due to the relevant provisions
being “substantially identical”) (citations omitted).
181

182

357 U.S. 320 (1958) (City of Tacoma).

See id. at 323 (“The question presented for decision here is
whether under the facts of this case the City of Tacoma has
acquired federal eminent domain power and capacity to take,
upon the payment of just compensation, a fish hatchery owned
and operated by the State of Washington, by virtue of the license
issued to the City under the Federal Power Act and more
particularly [§] 21 thereof.”); id. at 333 (“We come now to the core
of the controversy between the parties, namely, whether the
183

JA 415
answered that question in the affirmative, finding
that “the very issue upon which respondents stand
here [in City of Tacoma] was raised and litigated in
the Court of Appeals [in Washington Department of
Game 184] and decided by its judgment.” 185 City of
Tacoma emphasized that Congress intended to
commit all questions associated with the issuance of a
license—including the legal competence of the licensee
to condemn state land—to the Commission alone, with
judicial review of the Commission’s orders to take
place exclusively in the relevant court of appeals or,
following such direct review, in the Supreme Court:
Hence, upon judicial review of the
Commission’s order, all objections to the
order, to the license it directs to be issued,
and to the legal competence of the licensee to
execute its terms, must be made in the Court
of Appeals or not at all. For Congress, acting
within its powers, has declared that the Court
of Appeals shall have ‘exclusive jurisdiction’
to review such orders, and that its judgment
‘shall be final,’ subject to review by this Court
upon certiorari or certification. Such
license issued by the Commission under the Federal Power Act
to the City of Tacoma gave it capacity to act under that federal
license in constructing the project and delegated to it federal
eminent domain power to take upon the payment of just
compensation, the State’s fish hatchery—essential to the
construction of the project—in the absence of state legislation
specifically conferring such authority.”).
184 State of Wash. Dep’t of Game v. Fed. Power Comm’n, 207 F.2d
391 (9th Cir. 1953) (Washington Department of Game).
185

City of Tacoma, 357 U.S. at 339.

JA 416
statutory finality need not be labeled res
judicata, estoppel, collateral estoppel, waiver
or the like either by Congress or the courts. 186
46. City of Tacoma carefully examined the Ninth
Circuit’s decision in Washington Department of Game
that reviewed the Commission’s licensing orders and
rejected Washington’s contentions “that the City does
not have ‘any right to take or destroy property of the
State’ and ‘cannot act’ in accordance with the terms of
its federal license.” 187 Thus, the Supreme Court found
that the Ninth Circuit had already decided “the very
issue” raised by Washington in City of Tacoma. 188
Rejecting Washington’s claim that the Ninth Circuit
had not actually decided that an FPA section 21
licensee can condemn state land, the Supreme Court
admonished that “it cannot be doubted that [question]
could and should have been [raised in the Ninth
Circuit], for that was the court to which Congress had
given ‘exclusive jurisdiction to affirm, modify, or set
aside’ the Commission’s order[,]” 189 adding that “the
State may not reserve the point, for another round of
piecemeal litigation . . . .” 190
47. City of Tacoma and Washington Department of
Game relied heavily on the Supreme Court’s earlier

186

Id. at 336-37 (quoting FPA section 313, 16 U.S.C. § 825l(b)).

City of Tacoma, 357 U.S. at 338 (quoting Wash. Dep’t. of Game,
207 F.2d at 396).
187

188

Id. at 339.

189

Id.

190

Id.

JA 417
decision in First Iowa Hydro-Electric. Co-op., 191 issued
a year before NGA section 7(h) was enacted, which
held that states may not assert “veto power” over a
Commission-licensed
hydroelectric
project
by
purporting to require receipt of a state permit “as a
condition precedent to securing a federal license for
the same project under the Federal Power Act.” 192
That was impermissible because “[s]uch a veto power
easily could destroy the effectiveness of the federal
act” since it “would subordinate to the control of the
State the ‘comprehensive’ planning which the Act
provides shall depend upon the judgment of the []
Commission or other representatives of the Federal
Government.” 193 It does not appear that the Eleventh
First Iowa Hydro-Elec. Co-op. v. Fed. Power Comm’n, 328 U.S.
152 (1946) (First Iowa).
191

192

Id. at 164.

Id. The Court emphasized that the FPA “was a major
undertaking involving a major change of national policy” and
“[t]hat it was the intention of Congress to secure a comprehensive
development of national resources” such that “[t]he detailed
provisions of the Act providing for the federal plan of regulation
leave no room or need for conflicting state controls.” Id. at 18081. City of Tacoma summarized First Iowa as holding that “state
laws cannot prevent the Federal Power Commission from issuing
a license or bar the licensee from acting under the license to build
a dam.” City of Tacoma, 357 U.S. at 339 (quoting Wash. Dep’t. of
Game, 207 F.2d at 396). The Court’s emphasis on the
effectiveness of federal hydroelectric licenses against state
resistance was reiterated in Federal Power Commission v.
Oregon, 349 U.S. 435 (1955), which explained:
193

To allow Oregon to veto such use, by requiring the
State’s additional permission, would result in the very
duplication of regulatory control precluded by the First
Iowa decision. . . . No such duplication of authority is
called for by the Act. The Court of Appeals in the

JA 418
Amendment was raised in City of Tacoma or
Washington Department of Game. However, given the
Supreme Court’s acceptance of the proposition that
licensees must be able to condemn state land in order
to make federal licensing jurisdiction fully effective
under the original text of FPA section 21, it is difficult
to conceive that the Supreme Court would reach a
contrary conclusion when evaluating the materially
identical eminent domain provision in NGA section
7(h). In all events, City of Tacoma does not convey any
sense of alarm that FPA section 21, in its original
unconstrained form, would “upend a fundamental
aspect of our constitutional design.” 194
48. In sum, we think it is evident that NGA section
7(h) was enacted by Congress to enable certificate
holders to overcome attempts by states to block the
construction of natural gas facilities the Commission
instant case agrees. . . . And see State of Washington
Department
of
Game
v.
Federal
Power
Commission, . . . . Authorization of this project,
therefore, is within the exclusive jurisdiction of the []
Commission, unless that jurisdiction is modified by
other federal legislation.
Id. at 445-46 (footnotes and citations omitted); cf. Fed. Power
Comm’n v. Tuscarora Indian Nation, 362 U.S. 99, 118-19, 120
(1960) (holding that 25 U.S.C. § 177, which prevents “conveyance
of lands, or of any title or claim thereto, from any Indian nation
or tribe of Indians . . . unless the same be made by treaty or
convention entered into pursuant to the Constitution,” did not
prevent New York from condemning tribal land under a
Commission hydroelectric license because “§ 177 is not applicable
to the sovereign United States nor, hence, to its licensees to whom
Congress has delegated federal eminent domain powers under
§ 21 of the Federal Power Act.”) (emphasis added).
194

In re PennEast, 938 F.3d at 112.

JA 419
determined to be in the public convenience and
necessity. In our view, the broad language of NGA
section 7(h) was intended to provide certificate holders
with expansive eminent domain authority to acquire
land owned by private parties or by states.
2.

NGA Section 7(h) Delegates its
Eminent Domain Authority Only to
Certificate
Holders,
Not
the
Commission

49. PennEast disputes the Third Circuit’s opinion
that the NGA provides a “workaround” where, in the
absence of authority for a certificate holder to
commence eminent domain proceedings for state
property in federal court, an “accountable federal
official” could “file condemnation actions and then
transfer property interests to the private pipeline
developer.” 195 PennEast seeks the Commission’s
opinion on whether Congress, through NGA section
7(h), delegated eminent domain authority specifically
to certificate holders, or whether NGA section 7(h)
authorizes the Commission (or any other federal
agency or official) to exercise eminent domain. 196
Riverkeeper argues that, according to the Third
Circuit and the plain language of the NGA, Congress
did not intend to delegate the federal government’s
eminent domain power to certificate holders. 197
50. The Supreme Court has confirmed, in no
uncertain terms, that “an agency literally has no
power to act . . . unless and until Congress confers
195

Petition at 9 (citing In re PennEast, 938 F.3d at 113).

196

Id. at 25-26.

197

Riverkeeper Protest at 11-12.

JA 420
power upon it.” 198 As a federal agency, the
Commission “is a creature of statute, and ‘if there is
no statute conferring authority, FERC has none.’” 199
NGA section 7(h) states, in pertinent part, that
“[w]hen any holder of a certificate of public
convenience and necessity cannot acquire by contract,
or is unable to agree with the owner of property . . . it
may acquire the same by the exercise of the right of
eminent domain in the district court of the United
States for the district in which such property may be
located, or in the State courts.” 200 By its plain terms,
NGA section 7(h) confers authority to exercise
eminent domain to certificate holders alone. And
because neither NGA section 7(h) nor any other
provision of the NGA authorizes the Commission to
exercise eminent domain, the Commission lacks
statutory authority to do so. Riverkeeper and
Homeowners Against Land Taking –PennEast, Inc.
(HALT) concede that the Commission has previously
found that it has no role in eminent domain
proceedings that result from the issuance of a
certificate and that it is not involved in the acquisition
of property rights through those proceedings. 201
198

La. Pub. Serv. Comm’n, 476 U.S. at 374.

Tesoro Alaska Co., 778 F.3d at 1038 (citing Atl. City Elec., 295
F.3d at 8); see also Nat. Res. Def. Council v. Nat’l. Highway
Traffic Safety Admin., 894 F.3d 95, 108 (2d Cir. 2018) (“[A]n
agency may only act within the authority granted to it by
statute.”).
199

200

15 U.S.C. § 717f(h) (emphasis added).

201 See Riverkeeper Protest at 3 (citing Certificate Rehearing
Order, 164 FERC ¶ 61,098 at P 33); HALT Motion to Intervene
at 1; see also, e.g., Certificate Rehearing Order, 164 FERC
¶ 61,098 at P 33 (“The Commission does not have the authority

JA 421
51. Nor does the legislative history of NGA section
7(h) suggest that Congress sought to empower the
Commission to bring condemnation actions in state or
federal court. In first presenting what would become
NGA section 7(h) to the House Committee on
Interstate and Foreign Commerce in 1947,
Representative Schwabe stated in a memorandum to
the Committee that as Congress had “invoked its
constitutional authority to regulate interstate
commerce” via the NGA, Congress should then protect
this commerce by conferring “the right of eminent
domain upon those natural-gas companies” that have
received a certificate from the Commission. 202
Statements in the House committee hearings, both
from
industry 203
and
Congressional
204
representatives,
reiterated
that
certificate
to limit a pipeline company’s use of eminent domain once the
company has received its certificate of public convenience and
necessity.”).
Amendments to the Natural Gas Act: Hearing on H.R. 2956
Before the H. Comm. on Interstate and Foreign Commerce, 80th
Cong. 380 (1947) (memorandum of Rep. Schwabe, Member, H.
Comm. on Interstate and Foreign Commerce).
202

See, e.g., id. at 609 (statement of John M. Crimmins,
representing Koppers Co., Inc.) (referring to the proposed
amendment to the NGA as “a change in the act to give naturalgas pipe-line companies the right of eminent domain.”); id. at 541
(statement of David T. Searls, representing Texas Eastern
Transmission Corp.) (noting that this amendment would cure the
government’s “fail[ure] to provide a similar right of eminent
domain” in the NGA as in the FPA).
203

204 See id. at 613 (statement of Rep. Carson, Member, H. Comm.
on Interstate and Foreign Commerce) (stating his belief that “we
should do something to give the gas companies [eminent
domain].”).

JA 422
holders—not the Commission—would hold the power
of eminent domain granted under NGA section 7(h).
And, as referenced above, the Senate Report for
section 7(h) identified the purpose of the amendment
as “confer[ring] the right of eminent domain upon
those natural gas companies which have qualified
under the Natural Gas Act to carry out and perform
the terms of any certificate of public convenience and
necessity acquired from the [Commission] under the
act. 205 Notably, at no point did Congress consider
conferring eminent domain under NGA section 7(h), or
any other section of the NGA, on the Commission.
52. Beyond the question whether the agency has
statutory authority to exercise the right of eminent
domain, there remains the question, practically
speaking, how the Commission could wield any such
authority. PennEast adds that the NGA “is silent
about numerous important considerations that would
need to be addressed were the Commission to bring a
condemnation
action . . . .” 206
Such
important
considerations include how the Commission would pay
just compensation in the absence of an appropriation
to do so, and the process of transferring the property
from the Commission to the pipeline. 207 We need not
address such practical considerations because, as
noted above, the NGA does not grant the Commission
any authority to bring condemnation actions or
transfer land condemned pursuant to a section 7

205

S. Rep. No. 80-429, at 3 (emphasis added).

206

Petition at 25.

207

Id.

JA 423
certificate of public convenience and necessity to
another party. 208
53. Although NGA section 7(h) requires the
Commission’s determination as to which land may be
condemned for the public convenience and necessity,
it delegates eminent domain authority solely to
certificate holders and confers no such authority upon
the Commission. As a result, contrary to the opinion
of the Third Circuit, we conclude that the NGA does
not authorize a “work-around” that enables the
Commission, rather than private pipeline companies,
to acquire state-owned property through the exercise
of eminent domain.
3.

This Commission Lacks Authority to
Determine the Constitutionality of
Congress’s Delegation of the Federal
Exemption from State Sovereign
Immunity to Certificate Holders
under NGA Section 7(h)

54. PennEast states that Congress, in delegating
eminent domain authority to certificate holders,
necessarily delegated the federal government’s
exemption from a state’s claim of sovereign immunity
pursuant to the Eleventh Amendment. 209 PennEast
further suggests that, contrary to the doubts raised by
the Third Circuit, this delegation of the federal
government’s exemption from state sovereign

208

See supra P 50.

209

Petition at 27-33.

JA 424
immunity
claims
210
difficulty.”

raises

“no

constitutional

55. While we find that a certificate holder’s ability to
condemn state land when necessary to fulfill the
certificate is a necessary and essential part of the
Commission’s administration of the NGA, 211 we deny
PennEast’s request to address the constitutional
sufficiency of that delegation in the context of this
discretionary declaratory order. Justice Harlan
famously admonished that “[a]djudication of the
constitutionality of congressional enactments . . . [is]
beyond the jurisdiction of administrative agencies.” 212
The federal courts of appeals have confirmed this basic
constraint in most circumstances 213 and the
Commission typically avoids opining on constitutional
matters unless they are necessary to a particular
210

Id. at 33-34.

See supra notes 143 (quoting Thatcher), 150 (quoting Tenneco
Atlantic and describing the discussion of Carmack therein), 160
(describing the Commission’s rationale in Islander East, East
Tennessee, and Tenneco Atlantic), and 193 (discussing the
Supreme Court’s interpretation of FPA section 21).
211

Oestereich v. Selective Serv. Sys. Local Bd. No. 11, 393 U.S.
233, 242 (1968) (Harlan, J., concurring); see also Baker v. Carr,
369 U.S. 186, 211 (1962) (“Deciding . . . whether the action of the
branch exceeds whatever authority has been committed, is itself
a delicate exercise in constitutional interpretation and is a
responsibility of this Court as ultimate interpreter of the
Constitution.”); Pub. Utils. Comm’n of State of Cal. v. United
States, 355 U.S. 534, 540 (1958) (“[W]here the only question is
whether it is constitutional to fasten the administrative
procedure onto the litigant, the administrative agency may be
defied and judicial relief sought as the only effective way of
protecting the asserted constitutional right.”).
212

213

See supra note 118.

JA 425
decision. 214 Therefore, it would be inappropriate for
the Commission to purport to decide certain
constitutional questions implicated by the instant
Petition. These questions include: whether a
condemnation action under NGA section 7(h) is a suit
in law or equity as those terms are used in the
Eleventh Amendment; whether Congress’s delegation
to certificate holders concerning condemnation of all
“necessary” land was sufficient to overcome state
immunity under the Eleventh Amendment; and
whether Congress’s delegation to certificate holders of
the federal exemption from Eleventh Amendment
immunity is a constitutionally permissible exercise of
Congressional authority under the Commerce Clause.
Accordingly, we decline to provide an opinion on those
questions.
C. Implications
Decision

of

the

Third

Circuit’s

56. While we decline to reach the constitutional
validity of Congress’s delegation of eminent domain to
condemn state land under NGA section 7(h), the
implications of the Third Circuit’s opinion merit
discussion here. The Third Circuit acknowledged that
its holding “may disrupt how the natural gas industry,
See Tenneco Atlantic, 1 FERC at 65,203-04 & n.53 (citing
Thatcher, 180 F.2d 644); East Tennessee, 102 FERC ¶ 61,225 at
P 68; Islander East, 102 FERC ¶ 61,054 at PP 128, 131. As a
general matter, reasoned decisionmaking under the
Administrative Procedure Act requires the Commission to
“answer[] objections that on their face seem legitimate.” PSEG
Energy Res. & Trade LLC v. FERC, 665 F.3d 203, 209 (D.C. Cir.
2011) (quoting PPL Wallingford Energy LLC v. FERC, 419 F.3d
1194, 1198 (D.C. Cir. 2005) (quoting Canadian Ass’n of Petroleum
Producers v. FERC, 254 F.3d 289, 299 (D.C. Cir. 2001))).
214

JA 426
which has used the NGA to construct interstate
pipelines over State-owned land for the past eighty
years, operates.” 215 That is correct. 216 If the Third
Circuit’s opinion stands, we believe it would have
profoundly adverse impacts on the development of the
nation’s interstate natural gas transportation system,
and will significantly undermine how the natural gas
transportation industry has operated for decades.
57. The NGA provides that, upon a determination by
the Commission that a natural gas transportation
project is required by the public convenience and
necessity, the certificate holder shall have the
authority to acquire “the necessary right-of-way to
construct, operate, and maintain” the project. 217 This
is a “necessary tool[] to make effective the orders and
certificates of the Commission.” 218
58. The Third Circuit’s decision will substantially
impair full application of the NGA, including NGA
section 7(h), as well as impair Congress’s intent in
providing certificate holders with this vital tool
because it would allow states to nullify the effect of
Commission orders affecting state land—and,
apparently, private land in which the state has an
interest—through the simple expedient of declining to
participate in an eminent domain proceeding brought
215

In re PennEast, 938 F.3d at 113.

Cf. MCI Telecomms. Corp. v. Am. Tel. & Tel. Co., 512 U.S. 218,
228 (1994) (agreeing “that the French Revolution ‘modified’ the
status of the French nobility”).

216

217

15 U.S.C. § 717f(h); see also supra PP 25-26.

Amendments to the Natural Gas Act: Hearing on S.1028 Before
the Sen. Comm. on Interstate and Foreign Commerce, 80th Cong.
12 (1947) (statement of Sen. Moore).

218

JA 427
to effectuate a Commission certificate. It would
likewise impair the NGA’s superordinate goal of
ensuring the public has access to reliable, affordable
supplies of natural gas. 219 As stated above, the
Commission has no statutory authority or mechanism
by which to condemn property and transfer it to
certificate holders. 220 As a result of the Third Circuit’s
decision, states would be free to block natural gas
infrastructure projects that cross state lands by
refusing to grant easements for the construction and
operation of the projects on land for which the state
has a possessory interest, regardless of any
Commission finding that a particular project is in the
public interest under the NGA. 221 Preventing land
E. Tenn. Nat. Gas Co. v. Sage, 361 F.3d 808, 830 (4th Cir. 2004)
(“Congress passed the Natural Gas Act and gave gas companies
condemnation power to insure that consumers would have access
to an adequate supply of natural gas at reasonable prices.”); see
NAACP v. Fed. Power Comm’n, 425 U.S. 669-70 (recognizing that
“the principal purpose of . . . [the NGA is] to encourage the
orderly development of plentiful supplies of . . . natural gas at
reasonable prices”); accord Myersville Citizens for a Rural Cmty.,
Inc. v. FERC, 783 F.3d at 1307 (quoting NAACP, 425 U.S. at 66970). See generally El Paso Nat. Gas Co., L.L.C., 169 FERC
¶ 61,133, at PP 32-39 (2019) (McNamee, Comm’r, concurring)
(detailing the evolution of “enacted . . . legislation promoting the
development and use of natural gas”); id. at P 24 (“Each of these
textual provisions [in NGA section 7] illuminate the ultimate
purpose of the NGA: to ensure that the public has access to
natural gas because Congress considered such access to be in the
public interest.”).
219

220

See supra PP 49-53.

221 We note that the court’s interpretation would permit states to
block construction both on land a state owns (e.g., along or across
all state roads and the bottoms of navigable water bodies), and
on land over which the state asserts some lesser property

JA 428
owners and states from impeding interstate natural
gas transportation projects was an explicit objective of
Congress in amending the NGA to include section
7(h). 222 Thus, the Third Circuit’s opinion casts serious
doubt on the effectiveness of the Commission’s
certificates of public convenience and necessity and
the Commission’s ability to satisfy its statutory NGA
mandate.
59. Riverkeeper disagrees that In re PennEast
undermines the Commission’s administration of the
NGA, stating that the decision provides for
consistency with the Constitution and preserves the
sovereign rights of states. 223 Relying heavily on the
questionable federal work-around discussed above, 224
New Jersey similarly contends that PennEast
“overstates the purported consequences of that
decision.” 225 However, several commenters, including
interstate pipeline companies, natural gas utilities,
and nongovernmental organizations, as well as the
petitioner, raise concerns about the ramifications of
interests (e.g., conservation easements). If state-owned lands are
treated as impassable barriers for purposes of condemnation, the
circumvention of those barriers, if possible at all, would require
the condemnation of more private land at significantly greater
cost and with correspondingly greater environmental impact. If
lands over which a state has asserted any property interest also
become impassable barriers for purposes of condemnation, a
state could unilaterally prevent interstate transportation of an
essential energy commodity through its borders, thus
eviscerating the purpose of NGA section 7(h).
222

See supra PP 28-48.

223

Riverkeeper Protest at 6.

224

See supra PP 49-53.

225

New Jersey Protest at 19, 23-24.

JA 429
the Third Circuit’s opinion. PennEast and INGAA 226
comment on the “immediate chilling effect” the Third
Circuit’s opinion would have on the development of
interstate natural gas infrastructure by providing
states with a mechanism by which they could nullify a
certificate of public convenience and necessity. 227
60. PennEast notes that New Jersey claims
possessory interests in approximately 15 percent of
the land in the state. 228 Even if a pipeline route were
designed specifically to avoid state lands, PennEast
states that property owners could simply grant
conservation easements or other non-possessory
property interests to states or their agencies with the
aim of vetoing or re-routing pipelines. 229 INGAA
echoes these concerns, alleging that a certificate
holder could “be stuck in a never-ending loop requiring
endless reroutes to avoid properties in which the state
had no interest when FERC was reviewing the
proposal.” 230

INGAA is a trade association advocating regulatory and
legislative positions of the vast majority of the interstate natural
gas pipeline companies in the U.S.
226

227

Petition at 15; see INGAA Comments at 11.

Petition at 12 (“New Jersey currently claims a property
interest in more than 1,300 square miles pursuant to its Green
Acres and farmland programs. This amount represents more
than 15 percent of the 8,729 square miles of land in New Jersey.
That figure does not include lands owned in fee by [New Jersey],
such as state forests, state parks, and the bottoms of all navigable
waterbodies[.]”) (citations omitted).
228

229

Id. at 9.

230

INGAA Comments at 13.

JA 430
61. In contrast, Watershed Institute disputes the
concern that property owners could grant
conservation easements to states in an attempt to
block a pipeline, stating that the process of obtaining
and undoing a conservation easement in New Jersey
is “extremely burdensome and can only occur under
limited circumstances.” 231 As we discuss below,
however, 232 the impacts of the Third Circuit’s decision
are not limited to New Jersey, which has already
proposed new legislation for the purpose of blocking
natural gas pipelines. 233 Accordingly, for the
Commission to faithfully administer the NGA, it
cannot rely on states being measured in granting
conservation easements.
62. INGAA further comments that the uncertainty
created by the Third Circuit’s decision will exacerbate
the risk associated with constructing and operating
interstate natural gas facilities, thereby raising the
231

Watershed Institute Motion to Intervene at 2.

232

See infra P 64.

See, e.g., Restricts use of eminent domain by private pipeline
companies to those demonstrating pipeline is in the public interest
and that agree to certain regulation by BPU, A.B. 2944, 218th
Leg., 1st Ann. Sess. (N.J. 2018); Restricts use of eminent domain
by private pipeline companies to those demonstrating pipeline is
in the public interest and that agree to certain regulation by BPU,
S.B. 799, 218th Leg., 1st Ann. Sess. (N.J. 2018); Prevents use of
condemnation to acquire residential and other private property
under redevelopment laws, S.B. 302, 218th Leg., 1st Ann. Sess.
(N.J. 2018); Prevents use of condemnation to acquire residential
and other private property under redevelopment laws, A.B. 947,
218th Leg., 1st Ann. Sess. (N.J. 2018); Proposes constitutional
amendment to restrict use of condemnation power against nonblighted property for private economic development purposes,
A.C.R. 27, 218th Leg., 1st Ann. Sess. (N.J. 2018).

233

JA 431
cost of financing the projects. 234 INGAA states that the
veto power the Third Circuit’s opinion would afford
states would expand the risk associated with projects
“exponentially,” as being granted a certificate of public
convenience and necessity from the Commission
would no longer provide assurance that the approved
route is “truly final.” 235 As a result of this higher level
of risk and uncertainty, “investors will either increase
the interest rate at which they are willing to lend
capital or will simply choose to invest elsewhere.” 236
This would result in either increased costs for natural
gas consumers or greater supply constraints as a
result of a pipeline’s inability to secure capital for
construction. 237
63. Other commenters raise concerns about the
impact of the Third Circuit’s decision on local
distribution companies (LDCs) and, ultimately,
consumers. The APGA 238 states that the court’s
decision will prevent LDCs from securing additional
transportation capacity or benefiting from new areas
of natural gas supply. 239 The AGA 240 comments that
LDCs, as state-regulated utilities, have an “obligation
234

INGAA Comments at 11.

235

Id.

236

Id.

237

Id.

The APGA is an association representing over 730 publicly
owned natural gas distribution systems across thirty-seven
states.
238

239

See APGA Comments at 3.

240 The AGA represents over 200 natural gas utilities, which
together deliver natural gas to approximately 95 percent of the
nation’s natural gas customers.

JA 432
to provide natural gas service to retail customers” and
that the Third Circuit’s decision will jeopardize LDCs’
ability to meet this obligation. 241 According to the
AGA, “utilities develop and implement detailed longterm supply plans” to ensure the needs of consumers
are met, and utilities enter into transportation
agreements in order to “have natural gas supplies
available . . . . to respond to current and future
customer demands and to meet operational needs.” 242
New Jersey Natural Gas Company, a regulated New
Jersey natural gas distribution utility, states that the
“interstate natural gas transportation pipelines
serving New Jersey are not only running regularly at
full capacity—they are fully subscribed.” 243 New
Jersey Natural Gas states that if interstate pipeline
companies such as PennEast are frustrated in their
attempts to provide this needed additional capacity “a
significant outage event is a realistic threat.” 244
64. Significantly, the impacts of the Third Circuit’s
opinion may not be limited to New Jersey, or to other
states within the Third Circuit. PennEast asserts that
the decision will influence courts in other
jurisdictions, particularly due to the limited case law
and Commission precedent on the matter. 245 Indeed,
district courts in Maryland and Texas have issued
decisions blocking the condemnation of state land
pursuant to a Commission-issued certificate on
241

AGA Comments at 9-12.

242

Id. at 9-10.

243

New Jersey Natural Gas Company Comments at 4.

244

Id. at 5.

245

Petition at 10-11.

JA 433
Eleventh Amendment grounds. 246 The decision of the
District Court for the District of Maryland is currently
pending appeal before the Fourth Circuit. TC Energy
states
that
its
subsidiary,
Columbia
Gas
Transmission, LLC (Columbia), the certificate holder
in the pending Fourth Circuit proceeding, has been
prevented from accessing a “small but necessary
portion of land, severely impeding Columbia’s ability
to construct a project that will serve demonstrated
demand and that the Commission has determined to
be in the public interest[.]” 247 TC Energy further notes
that without the ability to exercise eminent domain
over lands in which the state holds a possessory
interest “[the] ability to develop needed natural gas
infrastructure . . . will be severely hampered to the
detriment of consumers[.]” 248
65. As discussed above, we recognize the potential
impact that a state could have in preventing the
construction of natural gas pipeline projects
authorized by the Commission. For that reason, we
believe it is beneficial for the Commission, in its
capacity as the agency charged with administering the
NGA, to provide here its interpretation of how the
NGA’s grant of eminent domain authority to
certificate holders is intended to operate. We
emphasize our “exclusive jurisdiction over the
transportation and sale of natural gas in interstate
246 See Columbia Gas Transmission, LLC v. .12 Acres of Land,
More or Less, No. 19-cv-1444 (D. Md. Aug. 22, 2019) (appeal filed
Sept. 20, 2019); Sabine Pipe Line, LLC v. Orange Cty., Tex., 327
F.R.D. 131 (E.D. Tex. 2017).
247

TC Energy’s Motion to Intervene and Comments at 19.

248

Id. at 3.

JA 434
commerce for resale.” 249 Therefore, state and local
agencies may not, through the application of state or
local laws, prohibit or unreasonably delay the
construction or operation of facilities approved by the
Commission. 250 Indeed, that statement is routinely
Schneidewind, 485 U.S. at 300-01 (citing N. Nat. Gas Co., 372
U.S. at 89); see also 15 U.S.C. § 717(b).
249

See 15 U.S.C. § 717r(d)(2) (state or federal agency’s failure to
act on a permit is inconsistent with federal law); Schneidewind,
485 U.S. at 310 (state regulation that interferes with the
Commission’s regulatory authority over the transportation of
natural gas is preempted) (quoting N. Nat. Gas Co., 372 U.S. at
91-92); Dominion Transmission, Inc. v. Summers, 723 F.3d 238,
245 (D.C. Cir. 2013) (noting that state and local regulation is
preempted by the NGA to the extent it conflicts with federal
regulation, or would delay the construction and operation of
facilities approved by the Commission); Williams Nat. Gas Co.,
890 F.2d at 264 (“We hold that the proceedings in the state court
that resulted in the order enjoining Williams’ exercise of rights
granted in the FERC certificate constituted an impermissible
collateral attack on a FERC order in contravention of § 19 of the
NGA.”); Nat. Gas Pipeline Co. v. Iowa State Commerce Comm’n,
369 F. Supp. 156, 160 (S.D. Iowa 1974) (finding state permit
requirements inapplicable to federal eminent domain procedures
under the NGA); cf. City of Tacoma, 357 U.S. at 328, 341
(upholding the finality of a circuit court’s determination that
“state laws cannot prevent the Federal Power Commission from
issuing a license or bar the licensee from acting under the license”
due to the suit being an “impermissible collateral attack” on the
circuit court’s decision) (internal quotation marks and citation
omitted); First Iowa, 328 U.S. at 181 (“The detailed provisions of
the Federal Power Act providing for the federal plan of regulation
leave no room or need for conflicting state controls.”); Hoopa
Valley Tribe v. FERC, 913 F.3d 1099, 1104 (D.C. Cir. 2019)
(finding that the practice of states “shelving” Clean Water Act
section 401 water quality certifications through a withdrawal
and refiling scheme “usurp[s] FERC’s control over whether and
when a federal license will issue” and is contrary to the FPA);
250

JA 435
included in the orders the Commission issues granting
certificates of public convenience and necessity. 251
IV. Conclusion
66. In enacting the NGA, Congress established a
carefully crafted comprehensive scheme in which the
Commission was charged with vindicating the public
interest inherent in the transportation and sale of
natural gas in interstate and foreign commerce, in
significant part through the issuance of certificates of
public convenience and necessity for interstate gas
pipelines. A key aspect of this scheme was the remit to
natural gas companies of the ability to exercise, where
necessary, the power of eminent domain to acquire
lands needed for projects authorized by the
Commission. We here confirm our strong belief that
NGA section 7(h) empowers natural gas companies,
and not the Commission, to exercise eminent domain
and that this authority applies to lands in which states
hold interest. A contrary finding would be flatly
inconsistent with Congressional intent, as expressed

Wash. Dep’t of Game, 207 F.2d at 396 (“[W]e conclude that the
state laws cannot prevent the Federal Power Commission from
issuing a license or bar the licensee from acting under the
license . . .”).
E.g., Transcon. Gas Pipe Line Co., LLC, 169 FERC ¶ 61,051 at
P 85 (“Any state or local permits issued with respect to the
jurisdictional facilities authorized herein must be consistent with
the conditions of this certificate. The Commission encourages
cooperation between interstate pipelines and local authorities.
However, this does not mean that state and local agencies,
through application of state or local laws, may prohibit or
unreasonably delay the construction or operation of facilities
approved by this Commission.”).
251

JA 436
in the text of NGA section 7(h), which is also supported
by the legislative history.
The Commission orders:
The petition for declaratory order is granted in
part, and denied in part, as discussed in the body of
this order.
By the Commission. Commissioner Glick is
dissenting with a separate statement attached.
(SEAL)
Kimberly D. Bose,
Secretary.

JA 437
Appendix A
Timely Motions to Intervene
American Gas Association
American Public Gas Association
Angela A. Karas
Calpine Energy Services, L.P.
Consolidated Edison Company of New York, Inc.
Cynthia Niciecki
Daria M. Karas
Delaware Riverkeeper Network
Derrick Kappler
Environmental Defense Fund
Frank R. Karas
HALT—PennEast (Homeowners
Taking—PennEast, Inc.)

Against

Land

Interstate Natural Gas Association of America
Jodi McKinney (Delaware Township Committee)
John T. Leiser
Kelly Kappler
Kinder Morgan, Inc Entities, et al. 252

This includes the following entities: Colorado Interstate Gas
Company, L.L.C.; Wyoming Interstate Company, L.L.C.;
Southern Natural Gas Company, L.L.C.; Tennessee Gas Pipeline
Company, L.L.C.; Natural Gas Pipeline Company of America
LLC; El Paso Natural Gas Company, L.L.C.; TransColorado Gas
Transmission Company LLC; Mojave Pipeline Company, L.L.C.;
Bear Creek Storage Company, L.L.C.; Cheyenne Plains Gas
Pipeline Company, L.L.C.; Elba Express Company, L.L.C.;
252

JA 438
Leslie Sauer
Maya K. van Rossum, the Delaware Riverkeeper
Michael Spille
New Jersey Conservation Foundation
New Jersey Department of Environmental Protection,
et al. (collectively, the State of New Jersey) 253
New Jersey Division of Rate Counsel
New Jersey Natural Gas Company
Niskanen Center
Patricia A. Oceanak
PSEG Energy Resources & Trade, LLC
Richard D. LaFevre and Pamela LaFevre
Samuel H. Thompson
Southern Star Central Gas Pipeline, Inc.
Stony Brook Millstone Watershed Association
TC Energy Corporation
Tellurian Pipeline LLC
Township of Holland, Hunterdon County, New Jersey
Township of Hopewell, Mercer County, New Jersey
Township of Kingwood, Hunterdon County, New
Jersey

Kinder Morgan Louisiana Pipeline LLC; and Southern LNG
Company, L.L.C.
253 The State of New Jersey’s motion to intervene includes, but is
not limited to, the following agencies: the New Jersey Board of
Public Utilities; the New Jersey Department of Environmental
Protection; and the Delaware and Raritan Canal Commission.

JA 439
Township of West Amwell, Hunterdon County, New
Jersey
Transcontinental Gas Pipe Line Company, LLC
Vincent DiBianca
Washington Crossing Audubon Society

JA 440
GLICK, Commissioner, dissenting:
1. I dissent 1 from today’s order on both procedural
and substantive grounds. There is no need for the
Commission to insert itself into what is primarily a
constitutional question that is being litigated where
those questions belong: The federal courts. Nor is this
an area where the Commission has the particular
expertise the majority is so quick to claim. The NGA
requires the Commission to determine whether an
interstate pipeline is required by the public
convenience and necessity. 2 If the Commission finds
that a proposed pipeline is so required, section 7(h) of
the NGA automatically provides the pipeline
developer eminent domain authority without any
action or further involvement by the Commission. The
congressional intent behind a statutory provision that
governs a judicial scheme, which the Commission has
no role in administering, is not a subject on which we
are especially well-qualified to opine.
2. Turning to the substance of today’s order, I
disagree with the majority that Congress
unambiguously intended section 7(h) to apply state
lands. In my view, the evidence simply is not clear one
way or the other. The majority’s confidence in its
conclusion is better evidence of its own ends-oriented
Although I agree with the conclusion in today’s order that
section 7(h) of the Natural Gas Act (NGA), 15 U.S.C. § 717f(h)
(2018), delegates eminent domain authority to the holder of an
NGA section 7 certificate and not to the Commission, I dissent in
full because the Commission should not be issuing this order in
the first place. PennEast Pipeline Company, LLC, 170 FERC
¶ 61,064, at PP 49-53 (2020) (Order).
1

2

15 U.S.C. § 717f(c).

JA 441
decisionmaking than any unambiguous congressional
intent.
3. I understand that my colleagues may not like the
decision of the U.S. Court of Appeals for the Third
Circuit (Third Circuit). 3 But we do not ordinarily rush
out a declaratory order whenever a couple of
commissioners disagree with a court. Nothing in
today’s order makes a compelling case for why we
should be doing so today.
***
4. It is not appropriate for the Commission to issue
a declaratory order in an effort to buttress a private
party’s litigation efforts. Moreover, as the majority
notes, the important questions presented by PennEast
Pipeline Company, LLC’s (PennEast) effort to
condemn New Jersey’s property interests “involve[]
esoteric matters of constitutional law.” 4 In other
words, the real stakes at issue involve the Eleventh
Amendment to the U.S. Constitution; the majority’s
attempt to divine congressional intent is just nibbling
around the edges. Other than signaling the majority’s
dissatisfaction with the Third Circuit, I see little to be
achieved by today’s order.
5. The majority contends that today’s order is useful
because its interpretation of Congress’s intent in
enacting section 7(h) merits deference from the courts.
It supports that statement with a single general
citation to Chevron v. Natural Resources Defense

3

In re PennEast Pipeline Co., LLC, 938 F.3d 96 (3d Cir. 2019).

4

Order, 170 FERC ¶ 61,064 at P 39.

JA 442
Council, Inc. 5 But courts do not afford an agency
Chevron deference when the relevant issue was not
delegated to the agency to decide. “Deference in
accordance with Chevron. . . is warranted only ‘when
it appears that Congress delegated authority to the
agency generally to make rules carrying the force of
law, and that the agency interpretation claiming
deference was promulgated in the exercise of that
authority.’” 6 And Chevron deference “is premised on
the theory that a statute’s ambiguity constitutes an
implicit delegation from Congress to the agency to fill
in the statutory gaps.” 7 That said, ambiguity alone
will not always suffice: Congress must also have
delegated to the agency in question the authority to
fill in that ambiguity. 8 Where the relevant issues are
Id. P 15. The Commission also asserts, notably without citation,
that it has the authority to apply and interpret section 7(h). Id.
at P 13. For the reasons discussed below, that is not the case. See
infra PP 6-7.

5

Gonzales v. Oregon, 546 U.S. 243, 255-56 (2006) (quoting United
States v. Mead Corp., 533 U.S. 218, 226-27 (2001)); see Fox v.
Clinton, 684 F.3d 67, 76 (D.C. Cir. 2012) (explaining that not all
agency statutory interpretations qualify for Chevron deference;
only those interpretations that meet the criteria outlined in
Gonzalez).
6

FDA v. Brown & Williamson Tobacco Corp., 529 U.S. 120, 159
(2000).

7

See Atl. City Elec. Co. v. FERC, 295 F.3d 1, 9 (D.C. Cir. 2002)
([M]ere ambiguity in a statute is not evidence of congressional
delegation of authority in the first instance. Rather, Chevron
deference comes into play of course, only as a consequence of
statutory ambiguity, and then only if the reviewing court finds
an implicit delegation of authority to the agency.” (internal
quotation marks and citations omitted) (emphasis in the
original)).
8

JA 443
not ones that Congress has left for the agency to
decide, Chevron does not apply.
6. The scope of the eminent domain authority in
section 7(h) is not an issue that Congress left for the
Commission to decide. Section 7(h) provides a
mechanism for a certificate holder to go into court and
condemn land that it has been unable to purchase on
its own. 9 The Commission has repeatedly made clear
that it has no role to play in the proceedings
contemplated by section 7(h) or the actual exercise of
eminent domain more generally. 10 As the Commission
has explained, eminent domain is an “automatic right”
that is incident to the Commission’s public
convenience and necessity determination 11 and
9

See 15 U.S.C. § 717f(h).

E.g., Mountain Valley Pipeline, LLC, 163 FERC ¶ 61,197, at P
74 (2018) (“In NGA section 7(c), Congress gave the Commission
jurisdiction to determine if the construction and operation of
proposed pipeline facilities are in the public convenience and
necessity. Once the Commission makes that determination, in
NGA section 7(h), Congress gives the natural gas company
authorization to acquire the necessary land or property to
construct the approved facilities by the exercise of the right of
eminent domain . . . . The Commission itself does not grant the
pipeline the right to take the property by eminent domain.”); Atl.
Coast Pipeline, 161 FERC ¶ 61,042, at PP 66, 77 (2017) (same).
10

Mountain Valley Pipeline, LLC, 163 FERC ¶ 61,197 at P 72; see
Midcoast Interstate Transmission, Inc. v. FERC, 198 F.3d 960,
973 (D.C. Cir. 2000) (“Once a certificate has been granted, the
statute allows the certificate holder to obtain needed private
property by eminent domain. The Commission does not have the
discretion to deny a certificate holder the power of eminent
domain.” (citations omitted)); Atl. Coast Pipeline, 161 FERC
¶ 61,042 at P 78 (“[O]nce a natural gas company obtains a
certificate of public convenience and necessity, it may exercise
11

JA 444
disputes about the exercise of that eminent domain
authority are best addressed by the federal courts. 12
7. Because the Commission has no role in
implementing or administering the eminent domain
authority conveyed by section 7(h), the majority
cannot reasonably argue that Congress delegated to
the Commission the responsibility to address any
ambiguity in that provision. 13 Questions about the
scope of a private party’s right to commence an action
in federal or state court are not issues that Congress
would have given this Commission to decide. Instead,
the obvious venue to address those questions in the
first instance is those courts themselves. Accordingly,
the prospect of securing judicial deference is also not,
in my opinion, a valid reason to put out today’s order.
8. Turning to the substance of today’s order, the
majority’s conviction that Congress unambiguously
intend section 7(h) to apply to state lands is dead
wrong. The “evidence” that the majority relies on to
argue that the eminent domain authority in section
7(h) applies to state lands is, at best, inapt or
susceptible to multiple interpretations. Even viewed
as a whole and in a light most charitable to the
the right of eminent domain in a U.S. District Court or a state
court.”).
Mountain Valley Pipeline, LLC, 163 FERC ¶ 61,197 at PP 7273; see Millennium Pipeline Co., L.L.C., 158 FERC ¶ 61,086, at P
6 (2017) (“Issues related to the acquisition of property rights by a
pipeline under the eminent domain provisions of section 7(h) of
the Natural Gas Act, including issues regarding compensation,
are matters for the applicable state or federal court.”).
12

See, e.g., Atl. City Elec., 295 F.3d at 9; Michigan v. EPA, 268
F.3d 1075, 1082 (D.C. Cir. 2001).

13

JA 445
majority, the evidence discussed in today’s order
simply does not demonstrate a clear congressional
intent one way or another. All today’s order proves is
that the majority believes that certificate holders
should be able to condemn state lands, not that
Congress intended that to be the case.
9. The majority begins, as it must, with the text of
section 7(h). 14 But there is not much to say. The
Commission’s two-paragraph discussion consists of
one paragraph quoting section 7(h) in full 15 and a
second paragraph summarizing how it works. 16 The
only substantive point today’s order makes about the
text of section 7(h) is that Congress did not expressly
prohibit condemnation of state lands. 17
10. On that point, I agree. But the absence of an
express limitation on condemning state lands is
hardly an unambiguous signal that Congress intended
section 7 certificate holders to have that authority.
After all, section 7(h) also does not contain an express
prohibition on condemning federal land and, to my
knowledge, no one believes that section 7(h) therefore
conveys such authority. The majority references the
“broad and unqualified reference to ‘the necessary
land or property in section 7(h),’” suggesting that this
language extends condemnation authority to any land
Order, 170 FERC ¶ 61,064 at PP 33-34; See United States v.
Ron Pair Enterprises, Inc., 489 U.S. 235, 241 (1989) (“The task of
resolving the dispute over the meaning of [a statutory provision]
begins where all such inquiries must begin: with the language of
the statute itself.”).
14

15

Order, 170 FERC ¶ 61,064 at P 33.

16

Id. P 34.

17

Id.

JA 446
deemed necessary to develop a proposed pipeline. 18
Perhaps, but a more plausible reading is that the word
“necessary” acts as a limiting provision, which makes
clear that section 7(h) is not a general right of eminent
domain and can be deployed only to condemn property
that will be used in connection with the pipeline.
Under that reading, the term “necessary” does not
indicate anything one way or another about section
7(h)’s application to state lands.
11. With that, the majority turns to proffer a
discussion of “[j]udicial review of section 7(h).” 19 That
discussion cites exactly one section 7(h) case: Thatcher
v. Tennessee Gas Company, 20 which is entirely
irrelevant. Thatcher involved a dispute between a
natural gas pipeline and a private landowner, who
argued that section 7(h) was unconstitutional because,
among other things, it did not regulate interstate
commerce and eminent domain authority could not be
exercised by a private company. 21 Based on principles
that were well established even then, the U.S. Court
of Appeals for the Fifth Circuit rejected those
arguments. 22 The court said nothing about the extent
of the eminent domain authority conveyed by section
7(h) or whether that authority extended to state lands.
18

Id. (quoting 15 U.S.C. § 717f(h)).

19

Id. P 35.

Thatcher v. Tenn. Gas Transmission Co., 180 F.2d 644, 645 (5th
Cir. 1950).

20

21

Id. (summarizing the Thatcher’s arguments).

22 Id. at 646-48; accord Order, 170 FERC ¶ 61,064 at P 29 (noting
that the Third Circuit’s opinion does not question these wellestablished principles).

JA 447
Simply put, Thatcher is irrelevant for our purposes, as
the majority itself seems to recognize. 23
12. As part of its discussion of “judicial review,” the
majority also points to Tenneco Atlantic, a decision
issued by an administrative law judge (ALJ) in 1977,
thirty years after Congress enacted section 7(h). 24 I
agree that, in Tenneco Atlantic, the ALJ explained his
belief that section 7(h) gave the certificate holder the
authority to condemn state land. 25 But I disagree that
a single ALJ opinion issued three decades after the
relevant amendments tells us much, if anything,
about the extent of the eminent domain authority that
Congress intended to convey in section 7(h). 26
13. In addition, the majority points to the
Commission’s decision in Islander East, which
rejected an Eleventh Amendment argument on the
basis that a condemnation action was not a “suit in
law or equity” 27—exactly the question that today’s
23

Order, 170 FERC ¶ 61,064 at P 35.

24

Id. P 36.

25

Id.

In that same section of the opinion, the ALJ described as
“patently absurd” the notion that Congress would authorize the
use of eminent domain to develop a pipeline to serve a liquefied
natural gas import/export facility yet deny the use of eminent
domain for the actual import/export facility itself. Tenneco Atl.
Pipeline Co., 1 FERC ¶ 63,025, 65,204 (1977). Of course, that is
exactly what the law currently does. Compare 15 U.S.C. § 717b
(no provision for eminent domain) with 15 U.S.C. § 717f(h)
(providing for eminent domain). Accordingly, it might be worth
taking with a grain of salt the ALJ’s conclusion that Congress
obviously intended the condemnation authority in section 7(h) to
apply to state lands.
26

27

Islander East Pipeline Co., 102 FERC ¶ 61,054, at P 123 (2003).

JA 448
order declines to address on the basis that it is outside
“the heartland of our quotidian ambit.” 28 As the
majority recognizes, the Third Circuit dismissed the
Commission’s conclusion in Islander East, calling it
“an outlier and one that was reached with little, if any,
analysis.” 29 “More importantly,” the Third Circuit
stated, “it is flatly wrong.” 30 That sums it up pretty
well. I appreciate that the majority likes the outcome
in Islander East, 31 but, as the Third Circuit noted,
there is no reasoning or analysis in that order to
support that outcome or explain why it is consistent
with congressional intent. 32 Simply put, it sheds no
light on the question before us.
14. Next, the majority turns to cherry-picking
examples from the NGA’s legislative history to bolster
its case. 33 It begins with the Senate report associated
with the 1947 legislation that added section 7(h) to the
NGA. It contends that the Senate report demonstrates
that section 7(h) reflected a generalized concern about
28

Order, 170 FERC ¶ 61,064 at P 39.

29

In re PennEast, 938 F.3d at 111 n.19.

30

Id.

Order, 170 FERC ¶ 61,064 at P 38 (recognizing that the holding
in Islander East was “terse,” but asserting that being light on
analysis “does not . . . obviate the validity of th[e] final holding”).
31

32

In re PennEast, 938 F.3d at 111 n.19.

Cf. Exxon Mobil Corp. v. Allapattah Servs., Inc., 545 U.S. 546,
568 (2005) (“Judicial investigation of legislative history has a
tendency to become, to borrow Judge Leventhal’s memorable
phrase, an exercise in ‘looking over a crowd and picking out your
friends.’” (quoting Patricia Wald, Some Observations on the Use
of Legislative History in the 1981 Supreme Court Term, 68 Iowa
L. Rev. 195, 214 (1983))).
33

JA 449
states’ ability to invade the Commission’s jurisdiction
or “nullif[y]” its determinations—which, according to
the majority, supports the conclusion that Congress
plainly intended section 7(h) to apply to state lands. 34
15. That is quite a leap. In fact, the Senate report
indicates that a particular, relatively narrow concern
motivated Congress to add section 7(h): Providing a
federal right of eminent domain for pipeline
developers that were ineligible to utilize state eminent
domain laws. The report begins by noting that,
because section 7 did not contain an eminent domain
provision, certificate holders at the time were required
to utilize state eminent domain laws. 35 However, the
report explains, an interstate pipeline may not qualify
for eminent domain under certain state laws because,
for example, the pipeline traverses the state without
delivering gas, which can mean that it does not
provide the “public use” needed to justify eminent
domain under state law 36 or because certain states
outright prohibit the exercise of eminent domain
authority
by
“foreign”
(i.e.,
out-of-state)
corporations. 37 To address that concern, the report
proposes to create a federal right of eminent domain,
so that certificate holders are not left at the mercy of

34

Order, 170 FERC ¶ 61,064 at P 41.

35

S. Rep. 80-429, at 2 (1947).

Id. (discussing Shedd v. Northern Indiana Public Service
Company, 188 N.E. 322 (Ind. 1934)); id. (collecting other cases to
the same effect).

36

37 Id. (explaining that Arkansas and Wisconsin prohibit the use
of eminent domain by companies that are not registered
corporations within the state).

JA 450
a patchwork of state eminent domain laws. 38 But the
report says nothing about the scope of that federal
right of eminent domain or the entities against which
it can be exercised. 39
16. In addition, a careful reading of the report
indicates that the committee was also concerned about
another particular and relatively narrow way in which
state decisions might interfere with or invade
Commission jurisdiction. The report explains that
natural gas pipelines frequently transport gas long
distances between producing regions and consuming
markets, often crossing multiple intervening states
without delivering gas for consumption in those
states. 40 The report further explains that the
Commission certificates the transport of gas “from
points of supply to certain defined and limited
markets” and that this defined certification of
transportation service from point A to point B would
be “nullified” if the intervening states could condition
eminent domain authority on the pipeline also

38

Id. at 3.

If anything, aspects of the report could suggest that the
committee may not have believed that section 7(h) would apply
state-owned lands at all. For example, in enumerating the
problems with relying on state eminent domain laws, the report
notes that, under Arkansas’s Constitution, “a foreign corporation
shall not have the power to condemn private property.” Id. at 2
(emphasis added). One could infer that the focus on private
property indicates that private lands were all the senators had in
mind at the time, although, unlike the majority, I am hesitant to
find clear congressional intent based on circumstantial
inferences alone.
39

40

Id. at 3.

JA 451
delivering gas to points C, D, and E along the way. 41
Once again, nothing about that defined problem—
states seeking to force interstate natural gas pipelines
to deliver gas within their borders—or Congress’s
solution—a federal right of eminent domain—says
anything about the scope of that federal right of
eminent domain or the entities against which it can be
exercised. 42
17. The majority then turns to discuss the divergent
evolution of the eminent domain provisions under the
NGA and the Federal Power Act (FPA). 43 And, to be
fair, the majority is on relatively stronger ground here.
As today’s order explains, the Energy Policy Act of
1992 amended the FPA to limit the exercise of eminent
domain against state lands without making a
corresponding change to section 7(h). 44 From that, the
majority concludes that “Congress did not intend for
condemnations under NGA section 7(h) to be subject
to the restrictions Congress later imposed in
amendments to FPA section 21.” 45 The implication, as
I understand it, is that because Congress limited the
Id. at 4 (“If a State may require such interstate natural-gas
pipe lines to serve markets within that State as a condition to
exercising the right of eminent domain, then it is obvious that the
orders of the Federal Power Commission may be nullified.”).
41

Cf. In re PennEast, 938 F.3d at 113 n.20 (“As for the legislative
history, it demonstrates that Congress intended to give gas
companies the federal eminent domain power. . . . But it says
nothing about Congress’s intent to allow suits against the
States.” (citing S. Rep. No. 80-429, at 2-3)).
42

43

Order, 170 FERC ¶ 61,064 at PP 42-43.

44

Id. P 43.

45

Id.

JA 452
power to condemn state land under section 21 of the
FPA, such limits must have been necessary and
because Congress did not similarly limit the power to
condemn state land under section 7(h) of the NGA,
that power must be unlimited. 46
18. That is one plausible interpretation, but it is
hardly the only one. It is equally possible that
Congress did not modify NGA section 7(h) because, for
whatever reason, it did not believe that section 7(h)
presented the same concerns. Although my colleagues
may think that Congress would have been wrong in
reaching that judgment, that opinion tells us
relatively little about Congress’s actual motivations.
In any case, the fact that Congress subsequently
sought to limit the scope of eminent domain under the
FPA sheds little light on what Congress intended
when it enacted section 7(h) of the NGA roughly 45
years earlier. 47
19. In addition, the Third Circuit posited another
reason why Congress might have added this language
when amending the FPA in 1992: “When Congress
passed the NGA and [section 7(h)] in 1938 and 1947,
respectively, Congress was legislating under the
consensus that it could not abrogate states’ Eleventh
46

Id. PP 43-44.

See Mackey v. Lanier Collection Agency & Serv., Inc., 486 U.S.
825, 840 (1988) (“‘[T]he views of a subsequent Congress form a
hazardous basis for inferring the intent of an earlier one.’”
(quoting United States v. Price, 361 U.S. 304, 313 (1960))); accord
Sullivan v. Finkelstein, 496 U.S. 617, 632 (1990) (Scalia, J.,
concurring in part) (“Arguments based on subsequent legislative
history, like arguments based on antecedent futurity, should not
be taken seriously.”).
47

JA 453
Amendment immunity pursuant to the Commerce
Clause.” 48 The Energy Policy Act of 1992, by contrast,
was enacted during a brief period in which the
Supreme Court held that Congress could abrogate
state sovereign immunity pursuant to its Commerce
Clause powers, giving Congress a reason to explicitly
limit eminent domain against state lands. 49 It is
possible that, in addressing the FPA in 1992, Congress
saw fit to provide newly relevant limits on eminent
domain—limits that it did not, for whatever reason,
apply to section 7 of the NGA, which the Energy Policy
Act of 1992 did not modify.
20. The majority attempts to cast doubt on that
possibility by noting that the relevant committee
report for the Energy Policy Act of 1992 does not
discuss the Supreme Court’s sovereign immunity
jurisprudence. 50 Although it is true that the report
does not mention the Supreme Court’s sovereign
immunity cases, the absence of any such discussion
hardly proves that those cases were irrelevant to
Congress’s thinking. As the Supreme Court has
explained, when using legislative history to
“ascertain[] the meaning of a statute, [we] cannot, in
the manner of Sherlock Holmes,” find clear meaning
in “the theory of the dog that did not bark.” 51
PennEast, 938 F.3d at 113 n.20 (internal quotation marks
omitted).
48

49

Id.

50

Order, 170 FERC ¶ 61,064 at P 43.

51 Harrison v. PPG Indus., Inc., 446 U.S. 578, 592 (1980) (citing
Arthur Conan Doyle, The Silver Blaze, in The Complete Sherlock
Holmes (1938)).

JA 454
21. Finally, the majority asserts that this relationship
between the eminent domain provisions in the NGA
and FPA is of paramount importance because the
Supreme Court “directly addressed the question
whether a hydroelectric licensee may condemn state
land pursuant to a license granted under FPA section
21” in City of Tacoma v. Taxpayers of Tacoma. 52
Except that it didn’t. In City of Tacoma, the Court held
that section 313(b) of the FPA provided the “specific,
complete and exclusive mode for judicial review of the
Commission’s orders,” 53 that the issues then before
the Court—which arose on appeal from a decision of
the Supreme Court of Washington 54—could only have
been properly raised in an appeal pursuant to section
313(b), and that those issues were, in fact, raised in
such an appeal to the U.S. Court of Appeals for the
Ninth Circuit (Ninth Circuit). 55 City of Tacoma is a
case about the procedures for judicial review of
Commission action, not the scope of eminent domain
authority under the FPA. Accordingly, the fact that
the Supreme Court was not, in the majority’s
judgment, “alarm[ed]” by the prospect of eminent
domain against state lands 56 is of no real help in
deciding the issues before us today.

52

Order, 170 FERC ¶ 61,064 at P 45.

City of Tacoma v. Taxpayers of Tacoma, 357 U.S. 320, 336
(1958).

53

54

Id. at 332-333.

55

Id. at 339.

56

Order, 170 FERC ¶ 61,064 at P 47.

JA 455
22. The majority also points, albeit briefly, to the
Ninth Circuit 57 case referenced in City of Tacoma and
the Supreme Court’s earlier decision in First Iowa
Hydro-Electric Cooperative v. Federal Power
Commission. 58 But, once again, neither case squarely
addresses the scope of the relevant eminent domain
authority. Instead, both cases stand for a single clear
proposition: That “state laws cannot prevent the
Federal Power Commission from issuing a license or
bar the licensee from acting under the license to build
a dam on a navigable stream since the stream is under
the dominion of the United States.” 59 That conclusion,
which would appear to be a relatively straightforward
application of the Supremacy Clause, 60 says nothing
about the scope of the eminent domain authority in
FPA section 21. The majority implies that the Ninth
Circuit must have approved of the exercise of eminent
domain against state property because the licensee in
that case, the City of Tacoma, intended to exercise
that authority. 61 But whatever the court may have
thought about such an exercise of eminent domain is
irrelevant, since the question before the court was
whether a subdivision of a state could act contrary to
state law if it was doing so pursuant to a federal
license—a question that the court answered in the

State of Wash. Dep’t of Game v. FPC, 207 F.2d 391 (9th Cir.
1953).
57

58

328 U.S. 152 (1946).

59

207 F.2d at 396-97 (citing First Iowa).

60

E.g., id.

61

Order, 170 FERC ¶ 61,064 at P 47.

JA 456
affirmative, without addressing its implications for
eminent domain. 62
23. It bears repeating that I am not certain whether
Congress intended section 7(h) of the NGA to apply to
state lands or not. The evidence simply is not clear one
way or the other. I have gone through the foregoing
discussion to highlight the extent to which the
Commission has misconstrued the evidence or ignored
the limits of the authority on which it relies. I
appreciate that my colleagues disagree with the
conclusion reached by the Third Circuit and that some
badly want to see it overturned. But that
disagreement, profound as it may be, does not excuse
the ends-oriented reasoning in today’s order, which is
both deeply troubling and, frankly, a discredit to the
agency.
24. Finally, the majority concludes by asserting that
the Third Circuit’s decision will “have profoundly
adverse impacts on the development of the nation’s
interstate natural gas transportation system.” 63 That
discussion is, frankly, the most honest part of today’s
order, as it reflects the majority’s belief that the Third
Circuit’s decision is a bad outcome. But it is not clear
just how “profound[]” or “adverse” those effects will
actually turn out to be. That question depends on a
number of factors that are difficult to predict in a
vacuum.
25. For one thing, the primary effect of the Third
Circuit’s ruling may be to encourage pipeline
developers to undertake greater efforts to cooperate
62

207 F.2d at 396.

63

Order, 170 FERC ¶ 61,064 at P 56.

JA 457
and coordinate with the relevant states—not
necessarily a bad outcome. And, moreover, it is not
clear that requiring such coordination would
represent an insuperable obstacle to pipeline
development. After all, until recently, the Commission
interpreted section 401 of the Clean Water Act 64 to
create essentially the same type of state-level veto
authority that the majority now sees in the Third
Circuit’s decision. 65 And, notwithstanding that
effective veto, the development of interstate pipelines
did not exactly grind to a halt. 66
64

33 U.S.C. § 1341(a)(1) (2018).

See Hoopa Valley Tribe v. FERC, 913 F.3d 1099, 1104 (D.C. Cir.
2019) (explaining that the “withdrawal-and-resubmission
scheme” that the Commission had previously interpreted to be
consistent with the Clean Water Act and the FPA was invalid
because it would allow for the “indefinite[] delay [of] federal
licensing proceedings and undermine FERC’s jurisdiction”).
65

In 2017 and 2018, roughly 1,500 miles of interstate natural gas
pipelines entered service with a combined capacity of 25 billion
cubic feet per day (Bcfd). FERC, 2018 State of the Markets Report
7 (Apr. 2019), available at https://www.ferc.gov/market
assessments/reports-analyses/st-mkt-ovr/2018-A-3-report.pdf
(“Over 13 Bcfd and 689 miles of Commission-jurisdictional
pipeline capacity entered service during 2018.”); FERC, 2017
State of the Markets Report 4 (Apr. 2018), available at
https://www.ferc.gov/market-assessments/reports-analyses/stmkt-ovr/2017-som-A-3- full.pdf (“Nearly 12 Billion Cubic Feet per
day (Bcfd) and 773 miles of Commission-jurisdictional natural
gas pipeline capacity went into service in 2017.”). The combined
total capacity of those pipelines is equivalent to nearly a third of
U.S. natural gas consumption. See U.S. Energy Info. Admin.,
Short-Term Energy Outlook (Jan. 2020), available at
https://www.eia.gov/outlooks/steo/pdf/steo_full.pdf
(“Total
domestic U.S. natural gas consumption averaged an estimated
85.3 billion cubic feet per day (Bcf/d) in 2019.”).
66

JA 458
26. And we must not forget that Congress can have
the last say. If Congress disapproves of the Third
Circuit’s decision, it can step in and remedy the
situation. 67 Congress has a long and well-documented
history of responding to judicial decisions with which
it disagrees, including decisions involving state
sovereign immunity and the Eleventh Amendment. 68
If the Third Circuit’s decision stands, Congress could,
for example, amend section 7(h) of the NGA, attempt
to validly abrogate state sovereign immunity under
the NGA, or pursue measures, such as the “workaround” contemplated by the Third Circuit, 69 to
facilitate pipeline developers’ efforts to acquire rightsof-way over state land.
See Lamie v. U.S. Trustee, 540 U.S. 526, 542 (2004) (“If
Congress enacted into law something different from what it
intended, then it should amend the statute to conform it to its
intent.”); Hamilton v. Lanning, 560 U.S. 505, 537 (2010) (Scalia,
J., dissenting) (“But it is in the hard cases, even more than the
easy ones, that we should faithfully apply our settled interpretive
principles, and trust that Congress will correct the law if what it
previously prescribed is wrong.”); Teague v. Lane, 489 U.S. 288,
317 (1989) (White, J., concurring in part and concurring in the
judgment) (“If we are wrong . . . , Congress can of course correct
us.”).
67

Matthew R. Christiansen & William N. Eskridge, Jr.,
Congressional Overrides of Supreme Court Statutory
Interpretation Decisions, 1967-2011, 92 Tex. L. Rev. 1317, 1445
& n.453(2014) (explaining that Congress responded to the
Supreme Court’s decision in Atascadero State Hospital v.
Scanlon, 473 U.S. 234 (1985), by explicitly abrogating state
sovereign immunity not just in the Rehabilitation Act of 1973,
the statute at issue in Atascadero, but also in a handful other
statutes).
68

69

In re PennEast, 938 F.3d at 113.

JA 459
For these reasons, I respectfully dissent.
________________________
Richard Glick
Commissioner

JA 460
Order Denying Rehearing, PennEast Pipeline
Co., LLC, 171 FERC ¶ 61,135 (May 22, 2020)
1. In this order, we deny rehearing of our January
30, 2020 order granting in part and denying in part a
petition for declaratory order filed by PennEast
Pipeline Company, LLC (PennEast). 1 In that order, we
addressed the nature and scope of the eminent domain
authority conferred to pipelines that have been
granted a certificate of public convenience and
necessity under the Natural Gas Act (NGA).
2. We issued the Declaratory Order in light of the
recent Third Circuit decision finding that the NGA did
not confer on pipeline certificate holders the right to
condemn land in which states hold an interest. 2 In
doing so, we determined that it was vitally important
to provide our views on this issue of national
significance, based on our decades of experience
administering the NGA, given the profoundly adverse
impacts of the Third Circuit’s decision on the
development of the nation’s interstate natural gas
transportation system. In our view, the Third Circuit’s
decision significantly undermines how the natural gas
transportation industry has operated for decades. 3
3. We found in the Declaratory Order that the text
of NGA section 7(h), 4 as confirmed by the relevant
legislative history, provides the holders of certificates
PennEast Pipeline Co., LLC, 170 FERC ¶ 61,064 (2020)
(Declaratory Order).

1

In re PennEast Pipeline Co., LLC, 938 F.3d 96 (3d Cir. 2019) (In
re PennEast), reh’g en banc denied (Nov. 5, 2019).

2

3

See Declaratory Order, 170 FERC ¶ 61,064 at PP 27, 56-65.

4

15 U.S.C. § 717f(h) (2018).

JA 461
of public convenience and necessity with broad
eminent domain authority to condemn land, including
land in which a state holds an interest, necessary to
construct, operate, and maintain a pipeline and
appurtenant facilities. 5 We also explained that NGA
section 7(h) does not authorize the Commission to
condemn land on a certificate holder’s behalf, as the
Third Circuit had suggested, as an alternative way for
pipelines to be routed through state lands. 6 However
we declined to answer constitutional questions raised
by the petition as being outside the Commission’s
jurisdiction. 7
4. One party—the Delaware Riverkeeper Network
(Riverkeeper)—filed a request for rehearing of the
Declaratory Order on February 26, 2020. We deny
rehearing for the reasons discussed below.
I.

Background

5. On January 19, 2018, in Docket No. CP15-558000, the Commission issued a certificate of public
convenience and necessity for the PennEast Project. 8
Due to the inability to reach an agreement with New
5

See Declaratory Order, 170 FERC ¶ 61,064 at PP 25, 32, 48, 66.

6

See id. PP 26, 49-53.

7

See id. PP 27, 54-55.

PennEast Pipeline Co., LLC, 162 FERC ¶ 61,053, at P 1
(Certificate Order), order on reh’g, 164 FERC ¶ 61,098 (2018)
(Certificate Rehearing Order), petitions for review pending sub
nom. Del. Riverkeeper Network v. FERC, D.C. Cir. Nos. 18-1128,
et al. (first petition filed May 9, 2018) (argument held in abeyance
on October 1, 2019, “pending final disposition of any postdispositional proceedings in the Third Circuit or proceedings
before the United States Supreme Court resulting from the Third
Circuit’s decision”).
8

JA 462
Jersey to acquire easements for the portions of its
certificated pipeline route that would cross land in
which New Jersey holds a property interest, 9
PennEast instituted condemnation proceedings in the
United States District Court for the District of New
Jersey (District Court) in order to obtain these and
other necessary easements. 10 New Jersey claimed
property interests in forty-two parcels of land that
PennEast sought access to via condemnation: two
parcels in which New Jersey holds fee simple
ownership interests, and forty parcels in which New
Jersey claims nonpossessory property interests,
including conservation easements and restrictive
covenants mandating under state law a particular
land use. 11 The District Court granted PennEast’s
application for orders of condemnation and rejected
New Jersey’s sovereign immunity argument. 12

PennEast October 4, 2019 Petition (Petition) at 5-6. Riverkeeper
states that New Jersey asserted in the Third Circuit case that
PennEast did not attempt to contract with New Jersey to obtain
the necessary rights-of-way. Riverkeeper February 26, 2020
Request for Rehearing at 4 n.10. The Third Circuit noted New
Jersey’s argument that “PennEast had failed to satisfy the
jurisdictional requirements of the NGA by not attempting to
contract with the State for its property interests.” In re PennEast,
938 F.3d at 101. Whether PennEast satisfied the prerequisites
for filing an eminent domain action was a matter, if raised, for
the court to consider. Riverkeeper’s argument is not relevant to
the questions addressed in this proceeding.
9

10

Petition at 6.

11

Id.

In re PennEast Pipeline Co., LLC, No. 18-1585, 2018 WL
6584893, *12, 25 (D.N.J. Dec. 14, 2018).

12

JA 463
6. New Jersey appealed to the United States Court
of Appeals for the Third Circuit (Third Circuit), which
vacated the District Court’s order, and held that the
NGA does not abrogate New Jersey’s sovereign
immunity. 13 The Third Circuit found that while the
NGA delegates eminent domain authority to
certificate holders, it “does not constitute a delegation
to private parties of the federal government’s
exemption from Eleventh Amendment immunity.” 14
In the court’s view, “there are powerful reasons to
doubt the delegability of the federal government’s
exemption from Eleventh Amendment immunity,” 15
particularly when that delegation occurs through a
statute enacted pursuant to the Commerce Clause. 16
However, the court consciously avoided that
constitutional question 17 by holding that the text of
In re PennEast, 938 F.3d at 99. PennEast filed a petition for
certiorari with the Supreme Court on February 18, 2020.
13

14

Id. at 112-13; accord id. at 99-100; see id. at 111-12.

Id. at 105; accord id. at 111; see id. at 100; id. at 107-11
(reviewing precedent).
15

Id. at 105, 108 & nn.13, 15 (citing Seminole Tribe of Fla. v.
Florida, 517 U.S. 44, 59, 72-73 (1996)); see also id. at 108 & n.13
(explaining that Seminole Tribe abrogated Pennsylvania v. Union
Gas Co., 491 U.S. 1 (1989)).

16

See id. at 111 (quoting Doe v. Pa. Bd. of Prob. & Parole, 513
F.3d 95, 102 (3d Cir. 2008) (“As a first inquiry, we must avoid
deciding a constitutional question if the case may be disposed of
on some other basis.”)); id. at 111-12 (quoting Guerrero- Sanchez
v. Warden York Cty. Prison, 905 F.3d 208, 223 (3d Cir. 2018)
(describing the “cardinal principle of statutory interpretation
that when an Act of Congress raises a serious doubt as to its
constitutionality, courts will first ascertain whether a
construction of the statute is fairly possible by which the question
may be avoided”) (citation and alterations omitted)).
17

JA 464
the NGA failed to provide an “unmistakably clear”
delegation of the federal government’s exemption from
Eleventh Amendment immunity. 18 Ultimately, the
Third Circuit declined to “assume that Congress
intended—by its silence—to upend a fundamental
aspect of our constitutional design.” 19
7. On October 4, 2019, PennEast petitioned the
Commission to issue a declaratory order providing the
Commission’s interpretation of three questions under
NGA section 7(h):
1) Whether a certificate holder’s right to
condemn land pursuant to NGA section 7(h)
applies to property in which a state holds an
interest;
2) Whether NGA section 7(h) delegates the
federal government’s eminent domain authority
solely to certificate holders; and
3) Whether NGA section 7(h) delegates to
certificate holders the federal government’s
exemption from claims of state sovereign
immunity. 20
8. On January 30, 2020, the Commission issued a
Declaratory Order granting in part and denying in
part PennEast’s petition. Specifically, the Commission
provided its interpretation, as the agency that
administers the NGA, that NGA section 7(h) confers
Id. at 107 (quoting Dellmuth v. Muth, 491 U.S. 223, 228 (1989)
(quoting Atascadero State Hosp. v. Scanlon, 473 U.S. 234, 242
(1985))); see id. at 107-08 & n.12 (discussing Dellmuth and
Atascadero).
18

19

Id. at 112.

20

See Petition at 2.

JA 465
to certificate holders the federal government’s
eminent domain authority to condemn any land
necessary to effectuate the certificate, including state
land. 21 The order stated that the Commission—like its
predecessor, the Federal Power Commission (FPC)—
has held this view since its inception. 22
9. The Declaratory Order also explained why we
disagreed with the Third Circuit’s suggestion that
there is a “workaround” whereby the Commission
itself may condemn land needed for a certificated
pipeline when a state holds an interest in such land. 23
As we explained, the Commission lacks the statutory
authority and the administrative mechanisms needed
to condemn state land on behalf of certificate
holders. 24 Further, we declined to address the
constitutional questions raised in the petition,
namely, whether NGA section 7(h) delegates to
certificate holders the federal government’s exemption
from state claims of sovereign immunity pursuant to
the Eleventh Amendment. 25
II. Procedural Matters
10. On March 17, 2020, PennEast filed a motion for
leave to answer and answer to the request for
rehearing. Rule 213(a)(2) of the Commission’s Rules of
Practice and Procedure prohibits an answer to a
request for rehearing “unless otherwise ordered by the
21

See Declaratory Order, 170 FERC ¶ 61,064 at PP 28-48.

22

See id. P 25 & n.108; id. P 36 & nn.148-50.

23

In re PennEast, 938 F.3d at 113.

24

Declaratory Order, 170 FERC ¶ 61,064 at PP 49-53.

25

Id. PP 54-55.

JA 466
decisional authority.” 26 We are not persuaded to
accept PennEast’s answer and will, therefore, reject it.
III. Discussion
A. Threshold Issues
11. Riverkeeper raised three threshold issues that do
not go to the merits of the Declaratory Order,
asserting that: (1) the Commission may only issue
declaratory orders “to terminate a controversy or
remove uncertainty regarding a matter within the
Commission’s jurisdiction;” 27 (2) the Declaratory
Order violates the separation of powers doctrine; 28
and (3) agency declaratory orders are owed no
deference. 29 These arguments have no merit and are
easily resolved.
12. The Third Circuit’s opinion created uncertainty
about the entire regulatory scheme established under
the NGA. 30 As the agency responsible for
26

18 C.F.R. § 385.213(a)(2) (2019).

27

Request for Rehearing at 11.

28

Id. at 7.

29

Id. at 7-8.

Since its adoption, the NGA has provided the regulatory
scheme established by Congress to promote the orderly
development of natural gas pipelines in interstate commerce so
as to provide access to and the development of natural gas at just
and reasonable rates. The amendment to the NGA in 1947 that
provided a certificate holder with the sovereign power of eminent
domain has been consistently applied against the states since its
adoption. The decision of the Third Circuit would change over 70
years of precedent in applying NGA section 7. In addition, the
Third Circuit’s proposed “work around” of having the
Commission condemn land on behalf of the applicant has no
statutory basis, would expand the powers of the Commission, and
would require Congress to both authorize and appropriate

30

JA 467
administering this Act, it is entirely appropriate for
this Commission to provide its views on this issue and
on the far-reaching effects of the Third Circuit’s
opinion if allowed to stand. We do this not as an
attempt to overrule the Third Circuit, but to provide
our views based on our experience in administering
the NGA. Furthermore, we believe that we are
entitled to deference as to reasonable interpretations
of our own regulations. 31 We address each of these
issues in detail below.
1.

Issuance of the Declaratory Order
was Not a Violation of Commission
Regulations

13. Riverkeeper asserts that the Commission, by
issuing the Declaratory Order, violated its own
guidance and regulations regarding declaratory
orders, 32 claiming that the Commission may only issue
declaratory orders “to terminate a controversy or
remove uncertainty regarding a matter within the
Commission’s jurisdiction.” 33 Riverkeeper contends
the Declaratory Order contravened Commission
funding to engage in such acquisitions on behalf of certificate
holders.
See Kisor v. Wilkie, 139 S. Ct. 2400, 2422 (2019) (“Deference to
reasonable agency interpretations of ambiguous rules pervades
the whole corpus of administrative law.”); see also Declaratory
Order, 170 FERC ¶ 61,064 at PP 19, 27, 29, 65, 66; cf. PUD No. 1
of Jefferson Cty. v. Wash. Dep’t of Ecology, 511 U.S. 700, 712
(1994) (finding that EPA’s interpretation of § 401 of the Clean
Water Act statutory scheme was entitled to deference despite
state agency implementation thereof).
31

32

Request for Rehearing at 6.

33

Id. at 11.

JA 468
regulations because, in its view, no controversy or
uncertainty has been presented to the Commission
and the Commission lacks jurisdiction over the
“eminent domain proceedings or controversies.” 34
14. As the agency charged with administration of the
NGA, the Commission may issue declaratory orders to
interpret the NGA and any section therein. 35
Furthermore, we are entitled to deference as to
reasonable interpretations of our own regulations. 36
15. Riverkeeper asserts the Commission’s authority
to issue a declaratory order is narrow and limited. 37
But Rule 207 permits a party to petition for a
declaratory order in order to “terminate a controversy
or remove uncertainty,” 38 and “does not define what
sort of uncertainty may be appropriate to justify a
petition for declaratory relief.” 39 The Commission has
explained that a declaratory order “provides direction
to the public and our staff regarding the statutes we
administer.” 40 Further, we continue to find that the
Third Circuit’s opinion—particularly the suggestion
34

Id.

See Declaratory Order, 170 FERC ¶ 61,064 at PP 19, 27, 29, 65,
66; cf. PUD, 511 U.S. at 712 (finding that EPA’s interpretation of
§ 401 of the Clean Water Act statutory scheme was entitled to
deference despite state agency implementation thereof).
35

See Kisor, 139 S. Ct. at 2422 (“Deference to reasonable agency
interpretations of ambiguous rules pervades the whole corpus of
administrative law.”).
36

37

Request for Rehearing at 11-13.

38

18 C.F.R. § 385.207(a)(2) (2019).

39

Declaratory Order, 170 FERC ¶ 61,064 at P 16.

Obtaining Guidance on Regulatory Requirements, 123 FERC
¶ 61,157, at P 19 (2008) (emphasis added).

40

JA 469
that there is there is a “workaround” through which
the Commission itself may condemn property—
created uncertainty and required the Commission to
explain why such a work-around is neither feasible
nor authorized under NGA section 7(h). 41 Accordingly,
the Commission properly determined it was both
appropriate and necessary to provide guidance on how
section 7(h) was intended to operate and has been
applied since 1947. 42
16. Riverkeeper contends that “the ‘controversy’ was
a legal, constitutional matter before the courts and the
‘uncertainty’ was resolved by the Third Circuit.” 43 We
disagree. The uncertainty that the Declaratory Order
addressed was with respect to the Commission’s
interpretation of the language of section 7(h) and
whether there is an administrative “work-around” to
avoid the deleterious effects of the court’s holding.
Nothing in the Declaratory Order purports to address
constitutional matters; indeed, the Declaratory Order
expressly declined to address constitutional
questions. 44
17. Riverkeeper asserts that “[t]he Commission
cannot issue a binding policy statement that is directly
contrary to a holding of the Third Circuit.” 45 However,
the Declaratory Order is an interpretative action, not
a policy statement (nor are policy statements binding).
Even if the Third Circuit’s decision conflicts with the
41

Declaratory Order, 170 FERC ¶ 61,064 at P 49.

42

See id. P 65.

43

Request for Rehearing at 11.

44

Declaratory Order, 170 FERC ¶ 61,064 at PP 14, 27, 39, 55.

45

Request for Rehearing at 13.

JA 470
Commission’s interpretation of section 7(h), the
Commission is still permitted to provide its
interpretation of the statute it administers. 46 The
Commission did not purport to overrule the court’s
decision, an action it has no authority to take. Rather,
due to the potential for nationwide litigation and for
confusion in the energy sector, we reached the
legitimate conclusion that the interpretation by the
Commission may benefit other courts where the issues
raised here may arise as matters of first impression. 47
Indeed, another case pending in the United States
Court of Appeals for the Fourth Circuit has raised the
same issues addressed in the Third Circuit’s
decision. 48
2.

Issuance of the Declaratory Order
Did Not Violate the Separation of
Powers Doctrine

18. Riverkeeper asserts that the Declaratory Order
violates the separation of powers doctrine, 49
contending that the Third Circuit’s opinion “construed
the law”, and that the Commission, in issuing the
Declaratory Order after the issuance of the Third
Circuit’s opinion “is acting as though it were a court of
See Nat’l Cable & Telecomms. Ass’n v. Brand X Internet Servs.,
545 U.S. 967, 982 (2005) (Brand X) (finding that an appellate
court’s prior interpretation of an ambiguous statutory provision
did not preclude a federal agency from adopting a contrary
reasonable interpretation in subsequent proceedings).

46

47

See id.

48 See Columbia Gas Transmission, LLC v. .12 Acres of Land,
More or Less, No. 19-cv-1444 (D. Md. Aug. 22, 2019) (appeal filed
4th Cir., No. 19-2040, Sept. 20, 2019).
49

Request for Rehearing at 7.

JA 471
higher authority and not a part of the executive
branch.” 50
19. Several parties raised separation of powers
concerns in comments on PennEast’s Petition, which
we address in the Declaratory Order. Regarding such
assertions, we state in the Declaratory Order that
“[w]e have no authority to [‘]overrule[‘] a precedential
opinion of a United States Court of Appeals.” 51 As we
explained, the purpose of the Declaratory Order was
only to “set out the Commission’s interpretation of a
statute it administers[,]” not to somehow overturn, or
otherwise undermine the Third Circuit’s opinion; 52
nor was the Declaratory Order an attempt to
“improperly influence potential litigation in other
circuits[,]” as Riverkeeper contends. 53 Further, the
Commission does not purport to decide any
constitutional questions implicated by the petition. 54
Thus, we find that it is appropriate for the
Commission to provide its interpretation of section
7(h), particularly given the statute’s ambiguity and
silence with respect to lands in which states hold an
interest, 55 and reiterate our determination that
50

Id. at 16.

51

Declaratory Order, 170 FERC ¶ 61,064 at P 23.

Id. P 23 (“[T]his order neither compels the Third Circuit to
reverse its decision, nor compels New Jersey to consent to suit,
nor compels any landowner to transfer its property. This order
does nothing more than set out the Commission’s interpretation
of a statute it administers.”).

52

53

Request for Rehearing at 17.

54

Declaratory Order, 170 FERC ¶ 61,064 at PP 54-55.

55 See FDA v. Brown & Williamson Tobacco Corp., 529 U.S. 120,
159 (2000) (“Deference under Chevron to an agency’s construction

JA 472
providing this interpretation “does not implicate any
separation of powers concerns.” 56
20. Protestors claim that, as a general rule, agency
declaratory orders are owed no deference. 57 We
disagree. Our interpretation of section 7(h) of the
NGA, a statute we administer, merits deference. 58
Deference is appropriate “if the statute is silent or
ambiguous with respect to the specific issue[.]” 59 The
Third Circuit held that NGA section 7(h) is silent with
regard to whether “Congress intended to delegate the
federal government’s exemption from state sovereign
immunity to private gas companies” and, for the
purpose of avoiding a constitutional conflict, declined
to “assume that Congress intended—by its silence—to
upend a fundamental aspect of our constitutional
design.” 60 The Commission’s interpretation of NGA
section 7(h) stems from decades of experience in
administering the comprehensive NGA regulatory
scheme, and it is a reasonable interpretation of the
text of NGA section 7(h), confirmed by the legislative
history of that provision and the Federal Power Act
of a statute that it administers is premised on the theory that a
statute’s ambiguity constitutes an implicit delegation from
Congress to the agency to fill in the statutory gaps.”).
56

Declaratory Order, 170 FERC ¶ 61,064 at P 15.

57

Request for Rehearing at 7-8.

Declaratory Order, 170 FERC ¶ 61,064 at P 15; see City of
Arlington v. FCC, 569 U.S. 290, 296, 307 (2013); Brand X, 545
U.S. at 982; Chevron, U.S.A., Inc. v. Nat. Res. Def. Council, Inc.,
467 U.S. 837, 843 (1984) (Chevron).
58

59

Chevron, 467 U.S. at 843.

60 In re PennEast, 938 F.3d at 112; Declaratory Order, 170 FERC
¶ 61,064 at P 15 n.61.

JA 473
(FPA) hydroelectric licensing provision on which NGA
section 7(h) was modeled. In any event, whether our
order warrants deference is matter for the courts to
address: that question does not preclude us from
issuing a declaratory order in response to a petition
from a regulated entity.
21. Riverkeeper also asserts that the Third Circuit
“held that there is no statutory ambiguity in the NGA
with regard to federal delegation of eminent domain
powers to private parties to condemn a State’s
property interest.” 61 In doing so, Riverkeeper cites to
the Third Circuit’s discussion of the Supreme Court’s
Blatchford decision, 62 specifically the need for
“unmistakably clear language in the statute” in order
to abrogate state sovereign immunity. Riverkeeper
improperly conflates whether there is ambiguity that
permits an agency to interpret the statute it
administers with the requirement for “unmistakably
clear language” needed to indicate congressional
intent to abrogate. As noted above, the Declaratory
Order does not address the latter, i.e., whether section
7(h) abrogates a State’s sovereign immunity.
22. Riverkeeper contends that the Commission does
not “qualify for Chevron deference” when construing
NGA section 7(h). 63 We disagree. As discussed in the
Declaratory Order, the Commission has not
disclaimed jurisdiction over every possible issue that
may be deemed “related to the acquisition of property
61

Request for Rehearing at 18.

62 In re PennEast, 938 F.3d at 102 (citing Blatchford v. Native
Vill. of Noatak & Circle Vill., 501 U.S. 775 (1991)).
63

Request for Rehearing at 19.

JA 474
rights by a pipeline.” 64 The Commission acknowledges
that Congress put the burden of executing
condemnation proceedings on state and district courts
through NGA section 7(h), 65 and the Commission has
appropriately refused to adjudicate issues such as “the
timing of acquisition or just compensation.” 66
Nevertheless, the Declaratory Order was appropriate
under our statutory mandate because it addresses the
operation of NGA section 7(h) within the NGA’s
“comprehensive scheme of federal regulation.” 67 While
Riverkeeper may disagree with the Commission’s
interpretation, 68 it is nonetheless our duty to ensure
64

Declaratory Order, 170 FERC ¶ 61,064 at P 13.

65

See 15 U.S.C. § 717f(h).

Declaratory Order, 170 FERC ¶ 61,064 at P 13 n.47 (quoting
Atl. Coast Pipeline, LLC, 164 FERC ¶ 61,100, at P 88 (2018) and
Mountain Valley Pipeline, LLC, 163 FERC ¶ 61,197, at P 76
(2018)).
66

See id. PP 19, 27 (quoting Schneidewind v. ANR Pipeline Co.,
485 U.S. 293, 300 (1988) (quoting N. Nat. Gas Co. v. State Corp.
Comm’n of Kan., 372 U.S. 84, 91 (1963))) (internal quotation
marks omitted); see also 15 U.S.C. § 717(b) (2018).
67

See Request for Rehearing at 17 (quoting Declaratory Order,
170 FERC ¶ 61,064 at P 23 (Glick, Comm’r, dissenting)). The
dissent to this rehearing order states that reviewing courts need
not defer to the Commission’s interpretation of NGA section 7(h),
arguing that “Chevron ‘deference comes into play . . . , only as a
consequence of statutory ambiguity, and then only if the
reviewing court finds an implicit delegation of authority to the
agency.” Infra P 4 (Comm’r Glick, dissenting). The dissent
argues, however, that in construing section 7(h) “a reasonable
person could find only ambiguity and questions left unanswered,”
id. P 1, so the dissent’s objections necessarily turn on the
argument that “the Commission has no role to play whatsoever
in administering that provision,” id. P 5. We disagree. The
Commission administers the certification process under NGA
68

JA 475
the faithful execution of the NGA, 69 which includes the
removal of uncertainty and termination of
controversy. 70
23. Additionally,
Riverkeeper
asserts
that
declaratory orders are not entitled to Chevron
deference and do not have any legal weight. We
disagree. Riverkeeper mistakenly bases this
contention on the D.C. Circuit’s decision in Industrial
Cogenerators v. FERC, 71 arguing that “courts have
held that unlike a declaratory order of a court, a
declaratory order of FERC ‘is of no legal’ moment and

section 7, which relies on the eminent domain authority granted
to certificate holders under NGA section 7(h) to effectuate the
federal regulatory scheme and give effect to the Commission’s
determination that a given pipeline route “is or will be required
by the present or future public convenience and necessity.” 15
U.S.C. § 717f(e). We have found that nothing in any part of NGA
section 7—including NGA section 7(h)—limits the Commission’s
authority to grant a certificate that crosses state-owned land or
land over which a state asserts some lesser property interest. See
Declaratory Order, 170 FERC ¶ 61,064 at PP 32-34, 66. We think
that the text of the statute, as further confirmed by the legislative
history, compels only one conclusion. Id. P 32. But, to the extent
that a reviewing court may find that NGA section 7 is ambiguous
because it does not specifically discuss the Eleventh Amendment,
the Commission’s interpretation should be entitled to judicial
deference in order to ensure the successful administration of the
federal regulatory scheme when confronted with a contrary
interpretation that permits states to nullify the Commission’s
certificate authority through a collateral attack mounted in
eminent domain proceedings.
69

See 15 U.S.C. § 717(a).

70

18 C.F.R. § 385.207(a)(2).

71

47 F.3d 1231 (D.C. Cir. 1995).

JA 476
would be legally ineffectual.” 72 Riverkeeper, however,
has taken language from that decision out of context.
The quoted language was directed to the declaratory
order at issue in that case, and it addressed whether
the declaratory order was binding on specific parties.
The D.C. Circuit’s opinion continues with the
following:
The Commission nowhere purported to make
the Declaratory Order binding upon the
[Florida Public Service Commission], nor can
we imagine how it could do so. Unlike the
declaratory order of a court, which does fix the
rights of the parties, this Declaratory Order
merely advised the
parties of the
Commission’s position. It was much like a
memorandum of law prepared by the FERC
staff in anticipation of a possible enforcement
action; the only difference is that the
Commission itself formally used the
document as its own statement of position.
While such knowledge of the FERC’s position
might affect the conduct of the parties, the
Declaratory Order is legally ineffectual apart
from its ability to persuade (or to command
the deference of) a court that might later have
been called upon to interpret the Act and the
agency’s
regulations
in
an
private
enforcement action; and because that could
only be a district court, this court cannot have

72 Request for Rehearing at 21-22 (quoting Indust. Cogenerators
v. FERC, 47 F.3d 1231, 1235 (D.C. Cir. 1995)).

JA 477
pre-enforcement jurisdiction to review the
Declaratory Order. 73
Nothing in the D.C. Circuit’s opinion suggests that the
Commission’s statutory interpretation, which may be
articulated through the issuance of a declaratory
order, is not entitled to deference. To the contrary, the
D.C. Circuit recognizes that a Declaratory Order has
to the “ability to persuade (or to command the
deference of) a court that might later have been called
upon to interpret the Act and the agency’s
regulations.” 74 Further, Riverkeeper’s reliance on
purportedly contrary precedent concerning “opinion
letters . . . policy statements, agency manuals, and
enforcement guidelines” is misplaced 75 because, as
previously stated, declaratory orders command
deference. Indeed, the Supreme Court has applied
deference to an agency’s declaratory interpretations of
a statute the agency administers. 76
Indus. Cogenerators v. FERC, 47 F.3d at 1235 (emphasis
added).
73

74

Id. (emphasis added).

See Request for Rehearing at 21 (quoting Exelon Wind 1, L.L,C.
v. Nelson, 766 F.3d 380, 392 (5th Cir. 2014) (quoting Christensen
v. Harris Cty., 529 U.S. 576, 587 (2000)).
75

See, e.g., City of Arlington, 569 U.S. at 307 (applying Chevron
deference to the FCC’s declaratory ruling regarding its own
jurisdiction because “Congress has unambiguously vested the
FCC with general authority to administer the Communications
Act through rulemaking and adjudication, and the agency
interpretation at issue was promulgated in the exercise of that
authority”). The Commission, “with like effect as in the case of
other orders, and in its sound discretion, may issue a declaratory
order to terminate a controversy or remove uncertainty.” 5 U.S.C.
§ 554(e) (2018) (emphasis added).
76

JA 478
3.

Issuance of the Declaratory Order,
rather than Participation in the
Third Circuit Proceeding, was an
Appropriate Means of Addressing
the Relevant Issues

24. Riverkeeper attempts to relitigate its claim that
administrative agencies are not permitted to issue
declaratory orders after court decisions unless they
have participated in prior litigation. 77 As explained in
the Declaratory Order, we disagree. 78 The Third
Circuit’s decision does not bind other courts of appeals
or preclude the Commission from subsequently
adopting a different interpretation of the statute. 79 As
the Supreme Court has recognized, allowing a single
court of appeals to bind all subsequent agency
interpretations of a statute would “lead to the
ossification of large portions of our statutory law.” 80
Despite Riverkeeper’s repeated contentions, neither
the Administrative Procedure Act (APA) nor the
Commission’s
regulations
indicate
that
the
Commission’s authority to issue a declaratory order is
contingent on its participation in litigation. 81 As we
previously stated, it would be impractical for the
Commission to intervene in every condemnation
proceeding involving an interstate natural gas
77

See Request for Rehearing at 8.

78

Declaratory Order, 170 FERC ¶ 61,064 at P 19.

79 Brand X, 545 U.S. at 982; cf. United States v. Mendoza, 464
U.S. 154, 158 (1984) (finding the doctrine of nonmutual offensive
collateral estoppel inapplicable against non-private litigants).
80

Brand X, 545 U.S. at 983.

81

See 5 U.S.C. § 554(e); 18 C.F.R. § 385.207(a)(2).

JA 479
pipeline company. 82 Moreover, the issuance of a
declaratory order provides the Commission’s formal
interpretation, as opposed to ad hoc litigation
pleadings filed by Commission staff. 83 In issuing the
Declaratory Order, the Commission complied with
past agency practice as well as its statutory mandates
under the APA and NGA. 84
B. Congress Intended NGA Section 7(h) to
Empower
Certificate
Holders
to
Condemn Lands in which the State
Maintains an Interest
25. We now address the merits. Riverkeeper contends
that the Declaratory Order’s conclusion that Congress
intended to grant broad eminent domain authority to
certificate holders through NGA section 7(h) is “dead
wrong.” 85 We disagree.
26. First, Riverkeeper asserts that NGA section 7(h)
lacks the unmistakably clear language necessary to
abrogate
Eleventh
Amendment
immunity. 86
Riverkeeper further contends that the Commission
inappropriately looked to legislative history despite
the “clear statement rule” and the Commission’s
82

Declaratory Order, 170 FERC ¶ 61,064 at P 19.

83

Id.

See Vt. Yankee Nuclear Power Corp. v. Nat. Res. Def. Council,
Inc., 435 U.S. 519, 549 (1978) (“The court should . . . not stray
beyond the judicial province to explore the procedural format or
to impose upon the agency its own notion of which procedures are
‘best’ or most likely to further some vague, undefined public
good.”).
84

85

Request for Rehearing at 25.

86

Id. at 26-31.

JA 480
recognition that NGA section 7(h) is silent with regard
to the states. 87 To support this clam, Riverkeeper cites
precedent under the Rehabilitation Act 88 and the
Education of the Handicapped Act. 89
27. Riverkeeper’s argument fails for two reasons.
First, the Declaratory Order did not need to consider
the Eleventh Amendment clear statement rule, which
instructs courts not to interpret a statute in a way that
abrogates states’ rights unless the statute
unmistakably intends that result, 90 because the
Commission assumes the constitutionality of the
statutes it administers. Rather, the Commission’s
determination was confined to interpreting NGA
section 7(h), using typical rules of construction, as
further informed by the legislative history of NGA
section 7(h) and FPA section 21. 91
28. Second, employing the federal power of eminent
domain is distinguishable from other instances
necessitating application of the clear statement rule.
Though not addressing the specific 11th Amendment
argument, we note for the purposes of statutory
interpretation that the precedents cited by
Riverkeeper are inapplicable here because they did
not involve a grant of the federal eminent domain
power, but rather a grant of authority for individuals

87

See Request for Rehearing at 30.

88

See Atascadero, 473 U.S. 234.

89

See Dellmuth, 491 U.S. 223.

90

See id., 491 U.S. at 228; Atascadero, 473 U.S. at 242.

91

See Declaratory Order, 170 FERC ¶ 61,064 at PP 54-55.

JA 481
to obtain monetary damages. 92 Since only the
sovereign may confer the power of eminent domain,
and the grant of eminent domain is express, there is
no question as to the character of the power
conferred. 93 Moreover, states are able to raise any
objections they have to the route set in a Commission
certification proceeding during that proceeding, on
rehearing, and on direct judicial review of the
Commission’s orders. 94 Accordingly, the Commission
appropriately found the absence of limiting language

Compare Dellmuth, 491 U.S. at 232 (holding that “[t]he
Eleventh Amendment bars respondent’s attempt to collect tuition
reimbursement”) and Atascadero, 473 U.S. at 235, 247 (finding
that “litigants seeking retroactive monetary relief under [29
U.S.C. § 794]” were barred by the Eleventh Amendment) with
Blatchford, 501 U.S. at 785 (recognizing that, “[t]o avoid [the
clear statement rule], respondents assert that [28 U.S.C.] § 1362
represents not an abrogation of the States’ sovereign immunity,
but rather a delegation to tribes of the Federal Government’s
exemption from state sovereign immunity”) and In re PennEast,
938 F.3d at 112-13 (vacating because “sovereign immunity has
not been abrogated by the NGA, nor has there been . . . a
delegation of the federal government’s exemption from the
State’s sovereign immunity”).
92

Compare Blatchford, 501 U.S. at 785-86, 788 (refusing to find
delegation in a general “arising under” statute) with Cherokee
Nation v. S. Kan. Ry. Co., 135 U.S. 641, 656 (1890) (upholding a
private railroad corporation’s condemnation of tribal land
because “it is necessary that the United State government should
have an eminent domain still higher than that of the state in
order that it may fully carry out the objects and purposes of the
constitution”).
93

94 See Declaratory Order, 170 FERC ¶ 61,064 at P 45 (citing City
of Tacoma v. Taxpayers of Tacoma, 357 U.S. 320 (1958)); see also
infra P 23.

JA 482
in NGA section 7(h) supported its decision to consider
the legislative history.
29. Riverkeeper additionally argues that the
legislative history of the NGA and the FPA is
irrelevant and inconclusive. The Declaratory Order
explains why we disagree. As a threshold matter,
Riverkeeper’s assertion that the clear statement rule
precludes interpretation of the legislative history is
inapplicable to the instant case because this case
involves a certificate holder’s exercise of the federal
power of eminent domain, not the abrogation of state
sovereign immunity from suits for monetary damages.
Riverkeeper asserts that the Commission took “a
large, unsupported leap of logic” in finding that the
Declaratory Order was supported by legislative
history of NGA section 7(h). 95 The legislative history
is replete with concern over state interference with the
build-out of energy infrastructure, explaining
Congress’ decision to grant the federal eminent
domain power to certificate holders, free from
potential state interference. 96
30. Riverkeeper further challenges our reference in
the Declaratory Order to Congress’ amendment of
FPA section 21 to impose restrictions on holders of
hydroelectric licenses ability to condemn state lands
pursuant to the parallel grant of eminent domain
95

Request for Rehearing at 35.

See Declaratory Order, 170 FERC ¶ 61,064 at PP 40-41; S. Rep.
No. 80-429, at 4 (1947) (“If a State may require such interstate
natural-gas pipe lines to serve markets within that State as a
condition to exercising the right of eminent domain, then it is
obvious that the orders of the Federal Power Commission may be
nullified.”).
96

JA 483
authority under the FPA. As we explained, “the
congressional choice to restrict private licensees’
eminent-domain authority under FPA section 21—but
not private certificate holders’ authority under NGA
section 7(h)—shows that Congress did not intend for
condemnations under NGA section 7(h) to be subject
to the restrictions Congress later imposed in
amendments to FPA section 21.” 97
31. Riverkeeper asserts that the Commission cannot
“extrapolate congressional intent” regarding NGA
section 7(h) from the legislative history of FPA section
21. 98 However, we consider the legislative history and
judicial interpretations of statutory text that Congress
“follow[ed] substantially” in the creation of NGA
section 7(h) to be informative and persuasive. 99
Additionally, we do not find the fact that “[t]he
FPA . . . was amended during the period between
Union Gas and the overruling of Union Gas by
Seminole Tribe” to be significant. 100
97

Declaratory Order, 170 FERC ¶ 61,064 at PP 42-44.

98

Request for Rehearing at 37.

S. Rep. No. 80-429, at 1. The Supreme Court “has routinely
relied on NGA cases in determining the scope of the FPA, and
vice versa.” Hughes v. Talen Energy Mktg., LLC, 136 S. Ct. 1288,
1298 n.10 (2016) (citation omitted) (recognizing provisions of the
FPA and NGA to be “analogous”); Ark. La. Gas Co. v. Hall, 453
U.S. 571, 577 n.7 (1981) (following its “established practice of
citing interchangeably decisions interpreting the pertinent
sections of the [FPA and NGA]” due to the relevant provisions
being “substantially identical”) (citations omitted).
99

100 Request for Rehearing at 37. Riverkeeper submits that the
forty-five years between the passage of NGA section 7(h) and the
1992 amendment of FPA section 21 detract from the
Commission’s position that the amendment elucidates Congress’s

JA 484
32. We are likewise unpersuaded by Riverkeeper’s
challenge to the Commission’s reliance on the
Supreme Court’s ruling in City of Tacoma, which
involved a hydroelectric licensee’s condemnation of
state land. Riverkeeper asserts that the Supreme
Court’s decision was based on procedural grounds and
did not address the merits of whether the licensee
could condemn state land. 101
33. We recognize that City of Tacoma was dismissed
on procedural grounds due to it being an
“impermissible collateral attack[] upon . . . the final
judgment of the Court of Appeals,” 102 which had
declined to interfere with the Commission’s license
order. 103 Nonetheless, the question presented to the
Court was: “whether . . . the City of Tacoma has
acquired federal eminent domain power and capacity
to take, upon the payment of just compensation, a fish
hatchery owned and operated by the State of
Washington, by virtue of the license issued . . . under
the Federal Power Act and more particularly [section]
21 thereof.” 104 As stated in the Declaratory Order,
intent as to the scope of the eminent domain authority provided
for in NGA section 7(h) and FPA section 21 prior to its
amendment. Id. (quoting Declaratory Order, 170 FERC ¶ 61,064
at P 18 (Glick, Comm’r, dissenting)). We disagree and note that
the Energy Policy Act of 1992 also amended portions of the NGA
while leaving unchanged the language of NGA section 7(h).
101

Id. at 39.

102

City of Tacoma, 357 U.S. at 341.

State of Wash. Dep’t of Game v. Fed. Power Comm’n, 207 F.2d
391, 398 (9th Cir. 1953).
103

104 City of Tacoma, 357 U.S. at 323. Despite the dissent’s
assertion that City of Tacoma “says nothing about the issue now
before us[,]” infra P 8 (Glick, Comm’r, dissenting), we are not so

JA 485

eager to dismiss instruction from the Supreme Court. Moreover,
we fail to see why raising a collateral attack to the Commission’s
certificate orders in an eminent domain proceeding is any more
acceptable than other types of collateral attack on certificate
orders that the federal courts routinely dismiss on the basis of
the Supreme Court’s decision in City of Tacoma. For example, the
Third Circuit itself recently affirmed the dismissal of a complaint
alleging that a pipeline certificate order violated the Religious
Freedom Restoration Act, explaining that:
Indeed, the Supreme Court has long held that the
Federal Power Act’s (“FPA”), statutory review scheme,
16 U.S.C. § 825l, which is materially identical to the
NGA’s, “necessarily preclude[s] de novo litigation
between the parties of all issues inhering in the
controversy, and all other modes of judicial review,”
and that challenges brought in the district court
outside that scheme are therefore “impermissible
collateral attacks.” City of Tacoma v. Taxpayers of
Tacoma, 357 U.S. 320, 336, 341 (1958); see also Me.
Council of the Atl. Salmon Fed. v. Nat’l Me. Fisheries
Serv., 858 F.3d 690, 693 (1st Cir. 2017) (Souter, J.,
sitting by designation) (“The Supreme Court has made
clear that the jurisdiction provided by [the Federal
Power Act’s jurisdictional provision] is ‘exclusive,’ not
only to review the terms of the specific FERC order,
but over any issue ‘inhering in the controversy.’”
(quoting City of Tacoma, 357 U.S. at 336).
Adorers of the Blood of Christ v. FERC, 897 F.3d 187, 197 (3d Cir.
2018) (footnotes and parallel citations omitted), cert. denied, 139
S. Ct. 1169 (2019); see also, e.g., Williams Nat. Gas Co. v. City of
Oklahoma City, 890 F.2d 255, 262 (10th Cir. 1989) (“Thus, a
challenger may not collaterally attack the validity of a prior
FERC order in a subsequent proceeding, McCulloch [Interstate
Gas Corp. v. Fed. Power Comm’n], 536 F.2d [255,] at 913 [(10th
Cir. 1976)] . . . . Moreover, the prohibition on collateral attacks
applies whether the collateral action is brought in state court,
e.g., City of Tacoma, or federal court, e.g., McCulloch.”); Woodrow
v. FERC, No. 20-6 (JEB), slip op. at 9-10 (D.D.C. May 6, 2020)
(dismissing
several
constitutional
challenges
to
the

JA 486
“City of Tacoma emphasized that Congress intended
to commit all questions associated with the issuance
of a license—including the ‘legal competence of the
licensee’ to condemn state land—to the Commission
alone, with judicial review of the Commission’s orders
to take place exclusively in the relevant court of
appeals or, following such direct review, in the
Supreme Court[.]” 105
34. In the Declaratory Order, the Commission cited to
the Fifth Circuit’s Thatcher decision, decided shortly
after the enactment of NGA section 7(h). As the
Commission explained, Thatcher 106 “resolved several
other constitutional objections, including claims that
NGA section 7(h) invaded authority reserved to the
States under the Tenth Amendment.” 107 Riverkeeper
argues that Thatcher is inapplicable because it did not
explicitly address the Eleventh Amendment. We never
asserted otherwise and explicitly acknowledged this
point in the Declaratory Order., 108 However, the novel
claim that section 7(h) did not confer the right to
condemn state land required the Commission, like any
adjudicator, to draw analogies, inferences, and
comparisons to come to a determination. Drawing
Commission’s pipeline authority, and citing, among numerous
other collected cases, City of Tacoma, Adorers of the Blood of
Christ, and Williams).
Declaratory Order, 170 FERC ¶ 61,064 at P 45 (citing City of
Tacoma, 357 U.S. at 336-37).
105

106 Thatcher v. Tenn. Gas Transmission Co., 180 F.2d 644 (5th
Cir. 1950).
107

Declaratory Order, 170 FERC ¶ 61,064 at P 35.

108 Id. (“Thatcher did not address the Eleventh Amendment, but
resolved several other constitutional objections . . . .”).

JA 487
such inferences in these circumstances is neither
improper nor unusual. In that regard, Thatcher
appropriately informed the Commission regarding
implementation of NGA section 7(h), as the Fifth
Circuit upheld the constitutionality of Congress’s
grant of federal eminent domain authority to
certificate holders against a Tenth Amendment
challenge. 109
35. After challenging the Commission’s reliance on
Thatcher, Riverkeeper asserts that the Commission’s
interpretation, as articulated in the Declaratory
Order, is not supported by any judicial precedent.
However, neither Riverkeeper nor the dissent note
any precedent prior to the Third Circuit’s decision,
other than a 2017 federal district court decision, 110
supporting a contrary interpretation of the
Commission’s otherwise unchallenged interpretation
of NGA section 7(h). That the issue had not been
raised in the courts in 70 years despite extensive
pipeline construction reinforces the Commission’s
conclusion that section 7(h) confers the right to
condemn state lands. Prior to 2017, it does not appear
that courts doubted that proposition.
36. Riverkeeper
further
alleges
that
the
Commission’s interpretation, as articulated in the
Declaratory Order, is not supported by Commission
precedent, 111
mischaracterizing
supportive
Thatcher, 180 F.2d at 647; see Declaratory Order, 170 FERC
¶ 61,064 at P 35.

109

See Sabine Pipe Line, LLC v. Orange Cty., Tex., 327 F.R.D. 131
(E.D. Tex. 2017).

110

111

Request for Rehearing at 31-34.

JA 488
Commission precedent as “a single [Administrative
Law Judge (ALJ)] opinion[.]” 112 The dissent similarly
errs, 113 contending that “the Commission had, what
was to my knowledge, an unblemished record of
ducking any and all questions related to section
7(h)[.]” 114 That is incorrect. 115 First the decision of the
ALJ in Tenneco Atlantic referenced in the Declaratory
Order repeated verbatim the reasoning of a
statutorily-mandated Presidential recommendation
from the Federal Power Commission, issued in that
same year, which likewise found that “[t]he eminent
domain grant to persons holding Section 7 certificates
applies equally to private and state lands.” 116
37. Second, the FPC decision cited in Tenneco Atlantic
constitutes yet another precedent. That decision
addressed numerous issues arising from the
directing
the
FPC
to
make
legislation 117
recommendations regarding the construction of the socalled Alaska Natural Gas Transportation Systems
Id. at 32-33 & n.39 (citing Declaratory Order, 170 FERC
¶ 61,064 at P 12 (Glick, Comm’r, dissenting)).
112

Declaratory Order, 170 FERC ¶ 61,064 at P 12 (Glick, Comm’r,
dissenting).
113

114

Infra P 6 (Glick, Comm’r, dissenting).

Declaratory Order, 170 FERC ¶ 61,064 at PP 12-13 (Glick,
Comm’r, dissenting) (discussing cases in which the Commission
dealt with Eleventh Amendment issues implicated by NGA
section 7(h)).
115

116 Id. at P 25 n.108 (quoting Tenneco Atl. Pipeline Co., 1 FERC
¶ 63,025 (1977); Recommendation to the President Alaska Nat.
Gas Transp. Sys., 58 F.P.C. 810, 1454 (1977)).
117 Alaska Natural Gas Transportation Act, 15 U.S.C. § 719
(2018).

JA 489
(ANGTS) intended to transport natural gas from fields
on Alaska’s North Slope. One such issue was the
ability of a certificate holder to use its section 7(h)
eminent domain authority to condemn the extensive
Alaska state land ANGTS necessarily would have to
traverse. The FPC conducted the same analysis we
conducted in the Declaratory Order of the statutory
language, the legislative history, and the parallel
provisions of FPA section 21. 118 Based on that
analysis, the FPC concluded, as we do here, that “the
eminent domain grant to persons holding Section 7
certificates applies equally to private and state
lands.” 119
38. Third, the Commission cited to Islander East,
which rejected an Eleventh Amendment argument. 120
Riverkeeper questions such reliance, due to the Third
Circuit “dismiss[ing] the relevance of Islander
East.” 121 The court’s conclusion notwithstanding, the
Commission cited Islander East to illustrate its
consistent implementation of NGA section 7(h) over
the past seven decades.
39. Finally, Riverkeeper claims that the Commission
has exaggerated the potential impact of the Third
Circuit’s decision. 122 We disagree. As explained in the
Declaratory Order, if state-owned lands are treated as
Recommendation to the President Alaska Nat. Gas Transp.
Sys., 58 F.P.C. at 1453-55.
118

119

Id. at 1454.

120 Declaratory Order at P 38 (citing Islander E. Pipeline Co., 102
FERC ¶ 61,054, at PP 128, 131 (2003) (Islander East)).
121

Request for Rehearing at 34.

122

Id. at 40-42.

JA 490
impassable barriers for purposes of condemnation, the
circumvention of those barriers, if possible at all,
would require the condemnation of more private land
at significantly greater cost and with correspondingly
greater environmental impact. 123 If lands over which
a state has asserted any property interest become
impassable barriers for purposes of condemnation, a
state
could
unilaterally
prevent
interstate
transportation of an essential energy commodity
through its borders, thus eviscerating the
Commission’s Congressionally-conferred authority
over interstate natural gas pipeline construction.
40. For instance, Columbia Gas Transmission, LLC
(Columbia), the certificate holder in the pending
Fourth Circuit proceeding, has been prevented from
accessing a “small but necessary portion of land,
severely impeding Columbia’s ability to construct a
project that will serve demonstrated demand and that
the Commission has determined to be in the public
interest[.]” 124
Furthermore,
the
Commission’s
analysis of potential impacts was buttressed by the
concerns of commenters. 125

123

Declaratory Order, 170 FERC ¶ 61,064 at P 58 n.221.

TC Energy’s October 18, 2019 Motion to Intervene and
Comments at 19. We note that the condemnation proceeding for
the
Eastern
Panhandle
Expansion
Project
involves
approximately .12 acres of land in which the State of Maryland
holds an interest. See Columbia Gas Transmission, LLC v. .12
Acres of Land, More or Less, No. 19-cv- 1444 (D. Md. Aug. 22,
2019) (appeal filed Sept. 20, 2019).
124

125

64.

See Declaratory Order, 170 FERC ¶ 61,064 at PP 59-60, 62-

JA 491
IV. Conclusion
41. We confirm our conclusions in the Declaratory
Order that, in enacting the NGA, Congress
established a carefully-crafted, comprehensive scheme
in which the Commission was charged with the
exclusive authority to issue certificates of public
convenience and necessity for interstate gas pipelines;
that NGA section 7(h) empowers natural gas
companies, and not the Commission, to exercise
eminent domain to acquire lands needed for
authorized projects; and that this authority applies to
lands in which states hold interest. Riverkeeper
provides no convincing argument or authority to the
contrary.
The Commission orders:
The request for rehearing is denied.
By the Commission. Commissioner Glick is
dissenting with a separate statement attached.
(SEAL)
Kimberly D. Bose,
Secretary.

JA 492
GLICK, Commissioner, dissenting:
1. I dissented from the underlying order because the
Commission went out of its way to bolster a private
party’s litigation efforts regarding the meaning of the
U.S. Constitution. 1 I also disagreed with several
aspects of the Commission’s slipshod analysis of the
questions it chose to address. As I explained, the
Commission magically saw clear congressional intent
where a reasonable person could find only ambiguity
and questions left unanswered. The bottom line was
that “[t]he majority’s confidence in its conclusion [wa]s
better
evidence
of
its
own
ends-oriented
decisionmaking than any unambiguous congressional
intent.” 2
2. Today’s order is more of the same, and I do not
need to repeat all of my underlying dissent. A few
points, however, are worth a brief mention.
3. The first is the Commission’s attempt to bolster
its claim to Chevron deference. 3 In the underlying
order, the Commission asserted, ipse dixit, that its
interpretation would receive deference by the courts. 4
PennEast Pipeline Company, LLC, 170 FERC ¶ 61,064, at P 15
(2020) (Order) (Glick, Comm’r, dissenting at P 1 & n.1).

1

2

Id. (Glick, Comm’r, dissenting at P 2).

PennEast Pipeline Company, LLC, 171 FERC ¶ 61,135, PP 2022 (2020) (Rehearing Order); see generally Chevron, U.S.A., Inc.
v. Nat. Res. Def. Council, Inc., 467 U.S. 837, 843 (1984)
(discussing deference).
3

Order, 170 FERC ¶ 61,064 (Glick, Comm’r, dissenting at P 5)
(“The majority contends that today’s order is useful because its
interpretation of Congress’s intent in enacting section 7(h) merits
deference from the courts. It supports that statement with a
single general citation to Chevron.”).
4

JA 493
The Commission tries a little harder in today’s order,
contending that Chevron deference is appropriate
because the Commission is the agency charged with
administering other provisions of the Natural Gas Act
(NGA). 5 But the end result is the same, as today’s
order once again misapprehends the purpose and role
of Chevron.
4. As the Supreme Court has repeatedly held,
“[d]eference in accordance with Chevron . . . is
warranted only ‘when it appears that Congress
delegated authority to the agency generally to make
rules carrying the force of law, and that the agency
interpretation claiming deference was promulgated in
the exercise of that authority.’” 6 In particular,
Chevron “is premised on the theory that a statute’s
ambiguity constitutes an implicit delegation from
Congress to the agency to fill in the statutory gaps.” 7
An implicit delegation can be found where an
“agency’s generally conferred authority and other
statutory circumstances [indicate] that Congress
would expect the agency to be able to speak with the
force of law when it addresses ambiguity in the statute
or fills a space in the enacted law.” 8 But that must
5

Rehearing Order, 171 FERC ¶ 61,135 at PP 20-22.

E.g., Gonzales v. Oregon, 546 U.S. 243, 255-56 (2006) (quoting
United States v. Mead Corp., 533 U.S. 218, 226-27 (2001)); see Fox
v. Clinton, 684 F.3d 67, 76 (D.C. Cir. 2012) (explaining that not
all agency statutory interpretations qualify for Chevron
deference; only those interpretations that meet the criteria
outlined in Gonzalez).
6

FDA v. Brown & Williamson Tobacco Corp., 529 U.S. 120, 159
(2000).

7

8

Mead, 533 U.S. at 229.

JA 494
mean that ambiguity by itself is not sufficient to
implicate Chevron; otherwise there would be no need
to consider what Congress would “expect” from the
agency. 9 “Rather, Chevron ‘deference comes into
play . . . , only as a consequence of statutory
ambiguity, and then only if the reviewing court finds
an implicit delegation of authority to the agency.’” 10
5. As I explained in my earlier dissent, nothing in
the NGA indicates that Congress would have expected
the Commission to fill in ambiguity regarding the
scope of section 7(h). 11 That is because the
Commission has no role to play whatsoever in
administering that provision. 12 Rather, section 7(h)
provides what the Commission describes as an
“‘automatic right’” 13 that affords certificate holders
the ability to begin eminent domain proceedings in
federal court, with no Commission supervision. The
Commission’s oft-stated position is that all it does is
evaluate whether a proposed pipeline is required by
Id.; see Atl. City Elec. Co. v. FERC, 295 F.3d 1, 8-9 (D.C. Cir.
2002) (“‘Mere ambiguity in a statute is not evidence of
congressional delegation of authority.’” (quoting Michigan v.
EPA, 268 F.3d 1075, 1082 (D.C. Cir. 2001)).

9

Atl. City, 295 F.3d. at 9 (emphasis in the original) (quoting SeaLand Serv., Inc. v. Dep’t of Transp., 137 F.3d 640, 645 (D.C. Cir.
1998)).

10

11

Order, 170 FERC ¶ 61,064 (Glick, Comm’r, dissenting at P 6).

This is a point the Commission makes frequently—almost
every time eminent domain comes up in the certification process.
See id. (collecting recent Commission orders disclaiming
responsibility over the scope of certificate holders’ eminent
domain authority or how they exercise that authority).
12

Id. (Glick, Comm’r, dissenting at P 6) (quoting Mountain Valley
Pipeline, LLC, 163 FERC ¶ 61,197, at P 72 (2018)).

13

JA 495
the public convenience and necessity and that the
“Commission itself does not grant the pipeline the
right to take the property by eminent domain.” 14
6. Indeed, the Commission has an impressive record
of ducking questions related to section 7(h), insisting
that the courts are the proper forum for those
questions. 15 That makes sense given that section 7(h)
provides no role for the Commission to play and there
is nothing in the NGA’s “generally conferred authority
and other statutory circumstances” that indicates that
“Congress would expect the [Commission] to be able to
speak with the force of law” when interpreting section
7(h). 16 Against that backdrop, the Commission’s role
E.g., Mountain Valley Pipeline, LLC, 163 FERC ¶ 61,197 at P
74 (“In NGA section 7(c), Congress gave the Commission
jurisdiction to determine if the construction and operation of
proposed pipeline facilities are in the public convenience and
necessity. Once the Commission makes that determination, in
NGA section 7(h), Congress gives the natural gas company
authorization to acquire the necessary land or property to
construct the approved facilities by the exercise of the right of
eminent domain . . . . The Commission itself does not grant the
pipeline the right to take the property by eminent domain.”).
14

See, e.g., Order, 170 FERC ¶ 61,064 (Glick, Comm’r, dissenting
at P 6). The Commission notes that it has not formally
“disclaimed jurisdiction over every possible issue that may be
deemed related to the acquisition of property rights by a
pipeline.” Rehearing Order, 171 FERC ¶ 61,135 at P 22 (internal
quotation marks omitted). That statement, which is supported
only by a citation to an unsupported section of the underlying
order, tells us nothing. An agency’s statement that it has not
formally disclaimed jurisdiction hardly proves that it had it in
the first place.

15

16 Mead, 533 U.S. at 229. The Commission also suggests that its
experience administering the NGA more generally entitles it to
deference, even with regard to the provisions of the NGA that it

JA 496
in administering other aspects
certification process is irrelevant. 17

of

the

NGA’s

7. Second, the Commission attempts to rehabilitate
its reliance on a series of cases that are —to put it
charitably—inapt. As I previously explained, no
reasonable person could read those cases to support
the assertion that section 7(h) clearly vests certificate
does not administer. Rehearing Order, 171 FERC ¶ 61,135 at P
20. But that is not the theoretical foundation on which Chevron
is based. See supra notes 6-10 and accompanying text; see also
Antonin Scalia, Judicial Deference to Administrative
Interpretations of Law, 1989 Duke L.J. 511, 514 (1989)
(explaining that “the ‘expertise’ of the agencies in question, their
intense familiarity with the history and purposes of the
legislation at issue, their practical knowledge of what will best
effectuate those purposes” is “hardly a valid theoretical
justification” for judicial deference). Instead, the theory of
Chevron is that when Congress has not spoken to a specific issue
and delegated to an agency the lawmaking authority to fill that
gap, it is not for the courts’ to second guess the agency’s
reasonable interpretation. The fact that the agency may have
experience with other areas of the statute is beside the point
where there is no indication from the “generally conferred
authority and other statutory circumstances” that Congress
would have expected the agency to fill in the ambiguity. Mead,
533 U.S. at 229.
The Commission’s principal response is a run-on footnote that
rehashes its above-the-line arguments. In particular the
Commission reiterates that it “administers the certification
process under NGA section 7,” that it believes that the statute’s
silence on the issue of certificate holders’ ability condemn state
lands is unambiguous evidence that they can do so, and that, in
any case, it deserves deference in resolving any ambiguity.
Rehearing Order, 171 FERC ¶ 61,135 at n.68. Those unsupported
assertions are nothing that the Commission has not already said
and repeating them does not make the points any more
convincing.
17

JA 497
holders with the authority to condemn state lands. 18
Indeed, the Commission’s reliance on those cases only
highlights the absence of persuasive authority
supporting its position.
8. Today’s order begins with the Supreme Court’s
decision in City of Tacoma v. Taxpayers of Tacoma. 19
Unlike the underlying order, the Commission this
time admits that the case was decided on procedural
grounds that are irrelevant to the question before us. 20
That should be the end of the analysis, since it means
that all today’s order has to contribute is the
observation that the substantive question presented
in a case dismissed on jurisdictional grounds 21 was
whether a subdivision of a state could condemn state
land under section 21 of the Federal Power Act (the
most analogous provision to section 7(h) under the
NGA). 22 The Court, of course, could not address that
See Order, 170 FERC ¶ 61,064 (Glick, Comm’r, dissenting at
PP 11, 21).
18

Rehearing Order, 171 FERC ¶ 61,135 at P 33 (discussing City
of Tacoma v. Taxpayers of Tacoma, 357 U.S. 320, 338 (1958))
19

Compare id. (“recogniz[ing] that City of Tacoma was dismissed
on procedural grounds”) with Order, 170 FERC ¶ 61,064 at PP
45-47 (claiming that “the Supreme Court’s decision in City of
Tacoma . . . directly addressed the question whether a
hydroelectric licensee may condemn state land pursuant to a
license granted under FPA section 21”).
20

City of Tacoma, 357 U.S. at 334-37 (explaining that the Court
lacked jurisdiction to review the claims because they could only
have been—and, in fact, were—brought through an appeal
pursuant FPA section 313(b)).
21

Id. at 323. In any case, as I explained in my earlier dissent, the
City of Tacoma’s substantive arguments appear to have
addressed the Supremacy Clause of the U.S. Constitution, U.S.
Const. Art. 6, cl. 2, not the scope of section 7(h). Order, 170 FERC

22

JA 498
question, 23 and so that case says nothing about the
issues now before us. 24
9. In a pseudo-response, the Commission slips into a
footnote a new theory of City of Tacoma’s relevance,
asserting that it is an example of the Court’s
willingness to dismiss collateral attacks on the

¶ 61,064 (Glick, Comm’r, dissenting at P 22); see State of Wash.
Dep’t of Game v. FPC, 207 F.2d 391, 396 (9th Cir. 1953)
(explaining that the authority conferred by a federal license
trumped state law limitations on a city’s capacity to exercise that
authority); see also City of Tacoma, 357 U.S. at 339 (explaining
that the U.S. Court of Appeals for the Ninth Circuit (Ninth
Circuit) resolved the case based on its “[c]onclu[sion]
that . . . state laws cannot prevent the Federal Power
Commission from issuing a license or bar the licensee from acting
under the license”); City of Tacoma, 357 U.S. at 341 (Harlan, J.,
concurring) (explaining that the question decided by the Ninth
Circuit was “whether state or federal law governed” the
particular dispute between the parties).
See Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83, 94 (1998)
(explaining that addressing the merits of any proceeding before
establishing subject-matter jurisdiction violates Article III of the
U.S. Constitution and “offends fundamental principles of
separation of powers” (citing Ex parte McCardle, 7 Wall. 506, 514
(1868)); see also Smith Lake Improvement & Stakeholders Ass’n
v. FERC, 809 F.3d 55, 56 (D.C. Cir. 2015) (dismissing an appeal
for lack of subject-matter jurisdiction because the petitioner did
not comply with FPA section 313(b)). That means that any
substantive discussion therein was not just dicta, but dicta about
an issue on which the Court lacked subject-matter jurisdiction to
opine.
23

24 The Commission criticizes this “assertion,” Rehearing Order,
171 FERC ¶ 61,135 at n.104, but then fails to respond to the
arguments on which it is based. That tells you all you need to
know. The Commission’s evident frustration with the holes in its
argument does not rob the counterarguments of their force.

JA 499
Commission’s certificate orders. 25 Although that
theory correctly characterizes City of Tacoma (for the
first time), its implication badly mischaracterizes New
Jersey’s claim of sovereign immunity. 26 Whether right
or wrong, a state’s assertion of its “dignity” interest in
not being haled into court without its consent, is
hardly just a collateral challenge to a Commission
certificate. 27 Immunity from suit in federal court is an
altogether different theory than a substantive
challenge to a section 7 certificate, and a
condemnation proceeding is exactly the forum in
which one would expect a state to raise that putative
right. 28 So brusquely dismissing a state’s attempt to
assert its Constitutional immunity from suit in federal
court as nothing more than a collateral challenge to a
certificate order is quite the contrast to my colleagues’
25

Rehearing Order, 171 FERC ¶ 61,135 at n.104.

It also has nothing in common with the interpretation the
Commission spent four pages advancing in the underlying order.
See Order, 170 FERC ¶ 61,064 at PP 43- 48.
26

See Fed. Mar. Comm’n v. S.C. State Ports Auth., 535 U.S. 743,
760 (2002) (“The preeminent purpose of state sovereign
immunity is to accord States the dignity that is consistent with
their status as sovereign entities.” (citing In re Ayers, 123 U.S.
443, 505 (1887)); see also Alden v. Maine, 527 U.S. 706, 748 (1999)
(“The founding generation thought it ‘neither becoming nor
convenient that the several States of the Union, invested with
that large residuum of sovereignty which had not been delegated
to the United States, should be summoned as defendants to
answer the complaints of private persons.’” (citing In re Ayers,
123 U.S. at 505)).
27

28 Cf., e.g., Va. Office for Prot. & Advocacy v. Stewart, 563 U.S.
247, 258 (2011) (“The specific indignity against which sovereign
immunity protects is the insult to a State of being haled into court
without its consent.”).

JA 500
oft-repeated commitments to federalism and states’
rights.
10. Next, the Commission turns to briefly defend its
reliance on Thatcher v. Tennessee Gas Transmission
Company, 29 a case from the U.S. Court of Appeals for
the Fifth Circuit, which upheld section 7(h) against a
challenge under the Tenth Amendment to the U.S.
Constitution. 30 But, as I explained in my earlier
dissent, the fact that section 7(h) did not violate the
Tenth Amendment is irrelevant when considering
whether Congress intended section 7(h) to apply to
state lands or what that means for the Eleventh
Amendment. 31 Nevertheless, the Commission insists
that considering Thatcher was appropriate because,
lacking any cases directly on point, it was forced to
resort to “analogies, inferences, and comparisons.” 32 It
may well be that Thatcher is all the Commission can
point to as it works with what little authority it has. 33
But, if so, that only proves my point that we do not
29

180 F.2d 644 (5th Cir. 1950).

30

Rehearing Order, 171 FERC ¶ 61,135 at P 34.

31

Order, 170 FERC ¶ 61,064 (Glick, Comm’r, dissenting at P 11).

Rehearing Order, 171 FERC ¶ 61,135 at P 34. The Commission
suggests that Thatcher is somehow relevant because I do not cite
old cases that involve the Eleventh Amendment or that present
the Third Circuit’s interpretation of section 7(h). Id. Now we’re
really grasping for straws. As I have maintained throughout this
proceeding, the question before us simply cannot be answered
clearly one way or the other. Why that ambiguity justifies the
Commission in building an over-confident interpretation of
section 7(h) on a foundation of irrelevant cases is beyond me.
32

Cf. Bob Dylan, Like A Rolling Stone (1965) (“When you ain’t got
nothing, you got nothing to lose.”).

33

JA 501
have a clear answer regarding Congress’ intentions
behind section 7(h).
11. Finally, I am glad to see today’s order this time
explicitly acknowledge that the text of section 7(h) is
ambiguous. 34 Although I think that is the only
reasonable conclusion, it means that this proceeding
is not one that can be decided on the basis of the text
alone, as the Commission suggested in the underlying
order. 35 Instead, the outcome must turn on the other
indicia of congressional intent that the Commission
spent—and, in today’s order, spends—so much time
discussing. 36 I have reviewed those materials again
Rehearing Order, 171 FERC ¶ 61,135 at P 19 (asserting that it
is appropriate for the Commission to weigh in “given the statute’s
ambiguity and silence with respect to lands in which states hold
an interest”); see also id. P 20 (claiming Chevron deference and
noting that “[d]eference is appropriate ‘if the statute is silent or
ambiguous with respect to the specific issue’” (quoting Chevron,
467 U.S. at 843)).
34

35

Order, 170 FERC ¶ 61,064 at P 32.

It is also noteworthy that the Commission addresses for the
first time the consequences of that ambiguity. Despite the
Commission’s claim in the underlying order to be addressing only
the “straightforward questions of law” regarding Congress’ intent
in enacting section 7(h), Order, 170 FERC ¶ 61,064 at P 21,
today’s order wanders so far afield as to theorize about whether
the Supreme Court’s clear statement rule for abrogating states’
Eleventh Amendment immunity applies in the context of an
eminent domain proceeding, Rehearing Order, 171 FERC
¶ 61,135 at P 28 (“[E]mploying the federal power of eminent
domain is distinguishable from other instances necessitating
application of the clear statement rule); Rehearing Order, 171
FERC ¶ 61,135 at n.92 (speculating about distinctions in the
nature of authority conferred by Congress)—hardly a matter
within “the heartland of our quotidian ambit,” Order, 170 FERC
¶ 61,064 at P 39.
36

JA 502
and, for the reasons discussed in my earlier dissent,
can only reach the same conclusion as before: “The
evidence simply is not clear one way or the
other . . . whether Congress intended section 7(h) of
the NGA to apply to state lands or not.” 37 As a result,
the Commission had no business issuing the
Declaratory Order that it did.
For these reasons, I respectfully dissent.
________________________
Richard Glick
Commissioner

37 Order, 170 FERC ¶ 61,064 (Glick, Comm’r, dissenting at PP 2,
23).

